<html>
<title> - DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


<DOC>
[DOCID: f:53757.wais]
 
 DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND URBAN DEVELOPMENT, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2010 

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
   SUBCOMMITTEE ON THE DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND 
         URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS
                 JOHN W. OLVER, Massachusetts, Chairman
 ED PASTOR, Arizona                          TOM LATHAM, Iowa
 CIRO RODRIGUEZ, Texas                       FRANK R. WOLF, Virginia
 MARCY KAPTUR, Ohio                          JOHN R. CARTER, Texas
 DAVID E. PRICE, North Carolina              STEVEN C. LaTOURETTE, Ohio
 LUCILLE ROYBAL-ALLARD, California
 MARION BERRY, Arkansas
 CAROLYN C. KILPATRICK, Michigan  


 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
            Kate Hallahan, David Napoliello, Laura Hogshead,
                    Lisa Pena, and Alexander Gillen,
                           Subcommittee Staff

                                ________

                                 PART 5
                                                                   Page
 Department of Housing and Urban Development......................    1
 Livable Communities, Transit-Oriented Development, and 
Incorporating Green Building Practices Into Federal Housing and 
Transportation Policy.............................................   39
 Part II: Livable Communities, Transit-Oriented Development, and 
Incorporating Green Building Practices Into Federal Housing and 
Transportation Policy.............................................  103
 Member's Request.................................................  163
 Outside Witnesses Written Testimony..............................  199

                                ________

         Printed for the use of the Committee on Appropriations























PART 5--TRANSPORTATION, AND HOUSING AND URBAN DEVELOPMENT, AND RELATED 
                           AGENCIES FOR 2010
















 DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND URBAN DEVELOPMENT, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION

                                ________

   SUBCOMMITTEE ON THE DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND 
         URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS
                 JOHN W. OLVER, Massachusetts, Chairman
 ED PASTOR, Arizona                          TOM LATHAM, Iowa
 CIRO RODRIGUEZ, Texas                       FRANK R. WOLF, Virginia
 MARCY KAPTUR, Ohio                          JOHN R. CARTER, Texas
 DAVID E. PRICE, North Carolina              STEVEN C. LaTOURETTE, Ohio
 LUCILLE ROYBAL-ALLARD, California
 MARION BERRY, Arkansas
 CAROLYN C. KILPATRICK, Michigan    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
            Kate Hallahan, David Napoliello, Laura Hogshead,
                    Lisa Pena, and Alexander Gillen,
                           Subcommittee Staff

                                ________

                                 PART 5
                                                                   Page
 Department of Housing and Urban Development......................    1
 Livable Communities, Transit-Oriented Development, and 
Incorporating Green Building Practices Into Federal Housing and 
Transportation Policy.............................................   39
 Part II: Livable Communities, Transit-Oriented Development, and 
Incorporating Green Building Practices Into Federal Housing and 
Transportation Policy.............................................  103
 Member's Request.................................................  163
 Outside Witnesses Written Testimony..............................  199

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 53-757                     WASHINGTON : 2009































                          COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania              JERRY LEWIS, California
 NORMAN D. DICKS, Washington               C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia           HAROLD ROGERS, Kentucky
 MARCY KAPTUR, Ohio                        FRANK R. WOLF, Virginia
 PETER J. VISCLOSKY, Indiana               JACK KINGSTON, Georgia
 NITA M. LOWEY, New York                   RODNEY P. FRELINGHUYSEN, New   
 JOSE E. SERRANO, New York                   Jersey
 ROSA L. DeLAURO, Connecticut              TODD TIAHRT, Kansas
 JAMES P. MORAN, Virginia                  ZACH WAMP, Tennessee
 JOHN W. OLVER, Massachusetts              TOM LATHAM, Iowa
 ED PASTOR, Arizona                        ROBERT B. ADERHOLT, Alabama
 DAVID E. PRICE, North Carolina            JO ANN EMERSON, Missouri
 CHET EDWARDS, Texas                       KAY GRANGER, Texas
 PATRICK J. KENNEDY, Rhode Island          MICHAEL K. SIMPSON, Idaho
 MAURICE D. HINCHEY, New York              JOHN ABNEY CULBERSON, Texas
 LUCILLE ROYBAL-ALLARD, California         MARK STEVEN KIRK, Illinois
 SAM FARR, California                      ANDER CRENSHAW, Florida
 JESSE L. JACKSON, Jr., Illinois           DENNIS R. REHBERG, Montana
 CAROLYN C. KILPATRICK, Michigan           JOHN R. CARTER, Texas
 ALLEN BOYD, Florida                       RODNEY ALEXANDER, Louisiana
 CHAKA FATTAH, Pennsylvania                KEN CALVERT, California
 STEVEN R. ROTHMAN, New Jersey             JO BONNER, Alabama
 SANFORD D. BISHOP, Jr., Georgia           STEVEN C. LaTOURETTE, Ohio
 MARION BERRY, Arkansas                    TOM COLE, Oklahoma
 BARBARA LEE, California
 ADAM SCHIFF, California
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, 
   Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado       

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


 DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND URBAN DEVELOPMENT, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2010

                              ----------                              

                                             Friday, June 19, 2009.

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

                                WITNESS

HON. SHAUN DONOVAN, SECRETARY, UNITED STATES DEPARTMENT OF HOUSING AND 
    URBAN DEVELOPMENT

                   Opening Remarks of Chairman Olver

    Mr. Olver. The subcommittee will come to order.
    We are going to start off here even though we are waiting 
for Members because today's schedule could be a weird and 
wondrous process.
    I want to welcome the Secretary of the Department of 
Housing and Urban Development, Shaun Donovan, to the 
subcommittee.
    Mr. Secretary, thank you for appearing before us for the 
second time this year. We are pleased to have you with us this 
morning to discuss the fiscal year 2010 budget request for HUD.
    HUD is requesting $46 billion in budgetary resources, 
recognizing the key role affordable housing plays in our 
communities. This fact is especially poignant as we enter the 
second year of an economic recession in which foreclosure rates 
continue to increase and unemployment approaches 10 percent.
    I am particularly pleased that, for the first time since I 
became chairman of this subcommittee, HUD has presented the 
subcommittee with an honest budget that better reflects the 
public housing and community development needs that face the 
Nation. The $3 billion increase requested for project and 
tenant-based Section 8 arguably fully funds these core housing 
programs for the first time in many years. In addition, the 
$550 million increase in the Community Development Block Grant 
program acknowledges the important role that CDBG plays in the 
economic development in cities and towns across the Nation.
    The fiscal year 2010 budget also includes a number of new 
initiatives. I am not sure I could enumerate them all, but 
there are a number of them.
    I am particularly pleased to see that the Sustainable 
Communities Initiative you announced at the subcommittee's 
livable communities' hearing a few months ago is proposed to 
receive $150 million within this budget. As you know, I have 
long advocated for the better coordination of transportation, 
housing and energy policy. I look forward to hearing more about 
how HUD is coordinating with DOT, EPA, and DOE to ensure that 
we are creating not only affordable housing but also affordable 
communities.
    I also look forward to discussing the Choice Neighborhoods 
Initiative and how this initiative will replace Hope VI. The 
goal of integrating schools into our neighborhood 
revitalization efforts is commendable. However, there are many 
cities that still have a signification stock of severely 
distressed public housing that we must ensure don't get left 
behind as a result. In addition, I am interested in learning 
more about the energy innovation fund and what role you expect 
this program will play in advancing energy efficiency in public 
housing.
    There are areas in your budget that I believe lack 
sufficient details and need additional clarification. In 
particular, the budget proposes using up to $434 million for 
the transformation initiative. As I understand it, this program 
will focus on modernizing HUD systems and providing a new 
office for strategic planning. While I support these broad 
concepts and intended goal of creating a new, efficient HUD, I 
have a number of questions about how this flexibility will be 
used and what impact it will have on existing programs.
    Additionally, I hope to discuss the administration's 
forecast that FHA will provide $1.7 billion in receipts in 
fiscal year 2010. As you are probably aware, the Congressional 
Budget Office has contested whether FHA will, in fact, incur a 
receipt balance. As we move forward, the difference between the 
two estimates will have important impacts on the subcommittee's 
budget resources.
    Last, I want to commend the Department's implementation of 
the Recovery Act. As of June 5, your Department reports that 
over $10 billion has been allocated to State and local agencies 
for immediate investment in local communities. These funds are 
crucial to creating thousands of new jobs and providing 
assistance during the current economic and housing crisis.
    I appreciate your cooperation on the implementation of 
these programs, and hope we can continue discussion about how 
best to expend these important funds. In the NSP II program, I 
am greatly concerned that the congressional intent on this 
program may have been disregarded and that HUD's grant 
eligibility requirements may jeopardize the Department's 
ability to leverage these funds to help thousands of other 
families.
    Mr. Secretary, while there are areas within the budget 
request that I have concerns about, as I have indicated, I am 
committed to working with you towards our shared goal of 
strengthening HUD's ability to provide affordable housing. 
Frankly, it is a breath of fresh air to have leadership in 
place that believes passionately in the Department's mission.
    Before we hear from you, I will recognize our ranking 
member, Tom Latham, for any opening remarks he would like to 
make.

                Opening Remarks of Ranking Member Latham

    Mr. Latham. Thank you very much, Mr. Chairman. And welcome, 
Secretary Donovan. Thank you for taking on this Department. It 
is a real challenge. If there is ever an agency in need of a 
reform of some its programs, or even some of its partners and 
stakeholders, it is probably HUD. It seems like we are always 
asking what did HUD do with the money? And it is usually the 
case that HUD gave the money to the next agency or group or 
entity that was supposed to receive the money, and then we in 
Congress really don't get a chance to hold that group, whether 
it be a mortgage bank, public housing authority, project based 
building owner or community developer accountable for their 
performances. I hope you can make some progress on that.
    In the interest of time, Mr. Chairman, I know we will be 
voting here shortly. Mr. Secretary, I look forward to your 
testimony. I hope everyone on the committee gets a chance to 
ask their questions.
    I yield back.

     Opening Remarks of the Honorable Shaun Donovan, Secretary, HUD

    Mr. Olver. Thank you, Mr. Latham.
    Mr. Secretary, your complete written statement will be 
included in the record. If you can keep your oral remarks close 
to 5 minutes, then we will get on to questions.
    Secretary Donovan. Understood.
    Mr. Chairman, Ranking Member Latham, members of the 
subcommittee, thank you for the opportunity to appear before 
you today to discuss HUD's 2010 budget proposal.
    I want to thank the committee in particular for securing 
nearly $14 billion for HUD programs as part of the Recovery 
Act, and assure you HUD is working quickly to get these funds 
to nearly 12,000 grantees across the country. I am equally 
proud of the large number of competitive funds we have made 
available, including the $2 billion in the neighborhood 
stabilization program that the chairman discussed, and the $1 
billion for greening our public housing stock. In fact, we had 
the largest amount of competitive funds available today than at 
any other time during the Department's history.
    As you know, we have already begun to address the housing 
and economic crises. Given our expectation that FHA loan 
volumes will continue to be high until the credit crisis 
passes, we have requested expanded loan commitment authority 
for both FHA and Ginnie Mae. We are asking Congress for the 
authority to endorse up to $400 billion in FHA insurance. And 
in 2010, HUD is projecting that FHA will generate nearly a $1 
billion more income than will be paid out in losses over the 
life of those loans. In other words, we project our 2010 
business to be in the black.
    We also must have better informed housing consumers, and 
this budget requests $100 million for HUD's housing counseling 
program, a $35 million increase over 2009. HUD is also 
requesting $37 million to better protect consumers and 
taxpayers against those who commit mortgage fraud.
    The second objective of the 2010 budget is to restore a 
balanced, comprehensive housing policy, one that supports 
homeownership, but also provides affordable rental 
opportunities and ensures nobody falls through the cracks.
    The President is proposing several key initiatives, 
including $1 billion to capitalize the national housing trust 
fund; full funding of the public housing operating fund; 12 
months of funding for project based rental assistance; a $117 
million increase in funding for homeless programs; and a $1.8 
billion increase in calendar year funding for the voucher 
program that will preserve affordable housing for more than 2 
million households and give HUD and housing authorities new 
tools to more efficiently allocate budget authority in order to 
serve the maximum number of households within the funding 
provided.
    The third objective of the 2010 budget is to invest in 
urban and rural communities. That includes full funding for the 
Community Development Block Grant program at $4.45 billion, a 
$550 million increase over 2009; creation of the university 
community fund and the rural innovation fund; a $250 million 
Choice Neighborhoods Program. And let me be clear, Choice 
Neighborhoods is, in fact, a celebration of the successes of 
Hope VI in that it takes the best practices of Hope VI and 
expands them to encompass not just public housing, but also 
privately owned assisted housing and the surrounding 
neighborhoods of extreme poverty.
    Choice Neighborhoods is based on a simple principle: When 
you choose a home, you also choose the schools your child 
attends. You choose transportation to work; you choose a 
community. We look forward to working closely with the 
authorizing committees to make Choice Neighborhoods a powerful 
tool for creating viable neighborhoods with decent, affordable 
housing, improved access to jobs, better schools, and increased 
public transportation options.
    The fourth objective of the budget is to drive energy 
efficient housing and sustainable inclusive growth. In March 
when I testified before this committee, I spoke generally about 
our budget proposals to address the twin challenges of 
coordinating housing and transportation investments and 
improving energy efficiency. Today, families spend nearly 60 
percent of their budgets on housing and transportation costs. 
That is not only unacceptable, during an economic slowdown, it 
is unsustainable. Building off of the work of Chairman Olver 
who compelled HUD and FTA to work together on program and 
policy integration, we are proposing a $150 million Sustainable 
Communities Initiative to integrate housing and transportation 
planning and support development of new land use in zoning 
plan.
    The proposed $100 million energy innovation fund would 
support several pilot efforts within FHA and in a few 
innovative communities in order to identify strategies that can 
foster new approaches for financing energy improvements in new 
and existing housing.
    The fifth objective of this budget is to transform the way 
HUD does business. We need better data and research about our 
existing programs and the housing market in general.
    Mr. Chairman, as I told you before, I am a numbers guy. We 
need to be forward thinking and use demonstrations to test 
ideas on how to transform our existing programs so they serve 
more people with the same or less money. For example, HUD 
spends about $5 billion on energy for our public housing and 
Section 8 operations alone. Saving just 5 percent annually 
could generate a savings of $1 billion over the next several 
years that we could invest in affordable housing. We need the 
flexibility to target technical assistance where it is most 
needed, such as planning assistance for communities dealing 
with the economic fallout from the troubles in our auto 
industry, and we must transform HUD's procurement, hiring 
practices, and data systems. For example, modernizing our FHA 
and voucher management systems to meet 21st century housing and 
community development challenges.
    We are requesting that the Congress permit HUD to set aside 
up to 1 percent of its total funding to be used for four 
specific activities: Next generation technology; 
demonstrations; research; and technical assistance.
    So Mr. Chairman and members of the subcommittee, with this 
$44 billion request, I believe we are poised to meet our 
current economic challenges and lay the foundation for building 
the strong, sustainable communities America needs to prosper in 
the decades ahead.
    I thank you for the opportunity to be here today, and look 
forward to your questions.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Thank you, Mr. Secretary, for your statement. We 
would usually go directly to questions and follow 5 minute 
sessions by myself and the ranking member and then the other 
members who have come in in their order, but I would like to 
recognize our big ranking member, Mr. Lewis from California, 
and allow Mr. Lewis time to make what comments he would like to 
make.

                           SECTION 8 HOUSING

    Mr. Lewis. Thank you very much, Chairman Olver. Secretary 
Donovan, I apologize for interrupting in this fashion. We have 
some crazy things that are happening on the House floor these 
days, and people like me and my big chairman have to be 
attending them.
    In the meantime, Chairman Olver, I want to raise with the 
Secretary a very, very important item in my mind and raise by 
way of that to the members of the committee concerns I have 
long had.
    Mr. Secretary, I had the privilege of chairing this 
committee in the mid-1990s, and during that time, took note of 
the fact that in the many years I had been on the committee, we 
had been sending virtually millions and millions of dollars 
around various communities for Section 8 funding. That housing 
program is designed to provide opportunity for housing and 
maybe even opportunity to climb up the ladder for middle 
income, really low income and poor America.
    Secretary Cisneros and I became very good friends during 
that time because we had similar concerns. The Secretary spent 
time with me going out and looking at Section 8 housing. While 
he didn't attend this trip, he was certainly attentive to what 
I experienced. The trip to New Orleans I will never forget, 
where we had been sending $10 million to $15 million every year 
for all the years, maybe for 10 to 15 years that I had been on 
the subcommittee, to New Orleans. And the visit there was 
startling. To visit Desire Homes, and I would urge you to spend 
some time at Desire Homes. As a New York housing commissioner, 
you know problems of impacted housing. But in turn, the place 
was a shambles. Huge facilities that were built during the big 
war years to bring people to work in the shipyards. The two 
major buildings in the center were controlled by the gangs, and 
they ran drugs and other kinds of activities out of there.
    I met with the inspector general. I met with the inspector 
general in the offices of the FBI because we could find almost 
no other significant public housing in spite of the millions in 
New Orleans. And as we were discussing these challenges with 
the inspector general, the guy from the FBI who was sitting 
there interrupted and said, Congressman, if I could just say 
something, it seems to me that the least you could do if you 
want to get a handle on providing housing dollars in New 
Orleans, you would bring a full-time inspector general here 
because this guy flew in from Houston today to talk with you.
    Well, that led to a significant, $9 million that I 
remember, recalling off the top, increase of the inspector 
general funding for the housing authority. That led to work 
that looked at largely urban centers around the country. And as 
a result of the work and investigation, a number of people went 
to jail. That particularly impacted communities of significance 
in California. The then-secretary is now attorney general of 
New York, and he was very unhappy with my involving myself with 
the inspector general because the inspector general is somewhat 
of an independent voice. My God, can you imagine, inspector 
general, the authority dare being independent. Well, in turn, 
that led to the housing fraud initiative in which we were 
trying to broaden that base. Leadership changed after the next 
election. I went to another subcommittee. The following staff 
was not particularly interested in having an inspector general 
have this kind of expanded funding. But nonetheless the problem 
continues. There is not any doubt that you and I are committed, 
if at all possible, to provide an opportunity for especially 
the poorest of the poor to climb these ladders. But if the 
money we spend does not get to those people, and maybe by way 
of local authorities is used in different ways, then to say the 
least, we have been a disservice perhaps not just to the 
poorest of the poor, but to ourselves.
    I would urge you, Mr. Secretary, to look at that background 
and consider what we can do to expand our ability to measure 
what is really happening at those commissions, especially in 
the urban centers.
    Mr. Chairman, I appreciate so much your allowing me to take 
our time. You are a chairman who is willing to get into the 
nuts and bolts. Between you and Mr. Latham, if you would take 
this on, and do this with Secretary Donovan, it could make the 
biggest contribution this subcommittee has made to the housing 
process. Thank you.
    Mr. Olver. Mr. Lewis, thank you for your comments. I am 
sorry I had not heard this from you at some point earlier.
    Mr. Lewis. I have said it so many times, I almost forget.
    Mr. Olver. Not before me, not when I have been present at 
least. Thank you for that.
    Mr. Secretary, would you like to make any comment or would 
you rather have time to explore this before you comment?

                           Inspector General

    Secretary Donovan. I very much look forward to following up 
on that. A couple of things, first of all, I couldn't agree 
more that the inspector general has an incredibly important 
role to play. I meet almost weekly with Ken Donohue. In just 
the first few months, our teams have begun working. They meet 
weekly on Recovery Act funding, and we have asked Inspector 
General Donohue not just to tell us mistakes after we have made 
them, but to be there right up front as we were designing the 
processes of distributing the close to $14 billion in Recovery 
Act funds, the largest share of which is going to public 
housing, to make sure, particularly on the troubled housing 
authorities, that we are preapproving literally every line item 
that they were going to be spending in the Recovery Act 
funding.
    So I think the Recovery Act, in particular, has been a very 
good start in a collaborative relationship, knowing in prior 
times there have not been those kinds of collaborative 
relationships. I think that is very, very important.
    The last thing I would say is that an area I am 
particularly concerned about is mortgage fraud, more generally 
in the market as well as within FHA. The President recently 
signed a bill that expanded funding for the inspector general 
at HUD as well as the Department of Justice, Federal Trade 
Commission, and gave us more authority to go after bad actors 
in the FHA program. I could agree with you more that we need to 
do everything we can to ensure that funds are spent for the 
right people in the right way.
    Mr. Lewis. I thank you for that.
    Thank you very much, Mr. Chairman.

                        SUSTAINABLE COMMUNITIES

    Mr. Olver. We will then go on to questioning.
    Mr. Secretary, I would like to just get a little further 
thought from you about the sustainable communities program. You 
announced earlier this year with the Secretary of DOT the 
sponsorship of the Sustainable Communities Initiative to 
incentivize regional planning efforts, combining housing and 
transportation, and I think you then included energy along the 
way. I applaud that effort because I have always considered 
that energy and housing and transportation are part of a three-
legged stool and you have added a fourth. I think that adds 
some additional stability to it with EPA.
    Can you tell us a little bit about the structure of the 
program? Are there local efforts that you are trying to emulate 
or guide what you have in mind that you think that we ought to 
be replicating around the country? What are your hopes for the 
communities, how communities will react to this initiative?
    Secretary Donovan. Well, just to take that last question 
first, we have seen enormous excitement and interest about 
this. I have seen it myself at the local level, at the 
metropolitan level. There has been a great interest and already 
a great deal of work that has happened frankly without much 
support from the Federal level to try to bring together 
housing, transportation and other types of planning, 
particularly around energy.
    Really what we are trying to do through the Sustainable 
Communities Initiative is to support and expand state and local 
efforts that are underway. There are three key components, $100 
million that would support regional planning efforts that would 
better link transportation funding with housing funding. 
Transit-oriented development is a perfect example of the kind 
of planning that funding would support.
    $40 million would go to support planning at the municipal 
or local level rather than at the regional level. In order for 
transit oriented development and other types of sustainable 
development to be successful, it depends on first of all 
getting many barriers out of the way, we are focused on 
remaining barriers whether zoning or other barriers, that stop 
the development often of multi-family and denser development. 
Again, we must remove barriers, whether they are barriers in 
terms of impact fees or other things that have traditionally 
stood in the way of intelligent development. We must also look 
at strategies like inclusionary zoning or others that would 
ensure where you have transit-oriented development, which can 
spur walkable communities. Our vision is not just to have 
luxury housing development, but a mix of workforce development 
that is available for a broad range to create truly sustainable 
communities from an income level as well. That is the second 
part.
    The third part is $10 million dedicated to research. In 
particular what we have begun working with the Department of 
Transportation to pursue a relatively simple transportation 
efficiency measure that takes a house or a home in one 
community and considers, the expected transportation costs in 
that area, versus in other places. I think this could be 
enormously powerful because if I am a lender providing a 
mortgage to a home where I would expect that family to spend 30 
percent of their income on transportation costs, that is a lot 
less safe a mortgage than one where the family spends 10 
percent of their funds on transportation costs.
    I think we can do a lot to unleash the power of the 
financial markets, and others, if we can get good information 
about transportation costs that are easily available to 
consumers and to the market more broadly.
    So those are the three components of the initiative. I am 
also happy that we made real progress since we testified here 
in developing six livability principles, and also beginning to 
really analyze the barriers to this kind of development. There 
are many ways that HUD programs stand in the way of in-fill 
development and other kinds of development that contribute to 
sustainable communities.
    So we have begun a full analysis of that across the 
Department, and I look forward to coming back to you with the 
results of that to talk about what legislative changes we might 
need to really support those.

                                 NOFAS

    Mr. Olver. Have you done regional meetings with people from 
States and so forth to describe this out in the broader 
community? I suspect from the way you have described this, 
there is going to be some sort of notices of funding 
availability for the three categories that you mentioned, or 
two of the three, because the research may well be something 
that you are going to do internally, but the other two look 
like they lead to NOFAs?
    Secretary Donovan. Absolutely. Should the Sustainable 
Communities Initiative be part of the budget, we would run 
competitions through--NOFAs to support the planning efforts at 
regional levels and local levels.

                          SUSTAINABLE HOUSING

    Mr. Olver. Have you reached out, because if you just send 
out a NOFA, and if it comes as a surprise to everybody, I don't 
know what you will get except more from several communities 
that maybe have already learned how to do this sort of thing?
    Secretary Donovan. I couldn't agree more. We have had 
initial discussions, and we hope to be able to announce a 
director of our new offices, Sustainable Housing and 
Communities, within the next few weeks. And once that person is 
on board, that person would lead exactly the kinds of 
discussions that you are talking about. And we are planning to 
do that over the summer in a range of different communities.
    Mr. Olver. I could continue this. I am particularly 
interested in what dollars transportation may be bringing to 
this and other organizational things, but I am well on red.
    Mr. Latham.
    Mr. Latham. I was enjoying every second of it, Mr. 
Chairman.
    Mr. Secretary, normally in the Federal Housing 
Administration, the Administration and the Congressional Budget 
Office agree somewhat about how well the portfolio in FHA is 
going to perform; and that disagreement is normally about 
volume of business and not about the subsidy rate. But this 
year, the CBO estimate was basically a complete rejection of 
the administration's estimate in practically every respect. The 
estimate rejects the notion that the fund will operate 
profitably. Absent the underlying Credit Reform Act, there 
would be a demand that we treat the program as if it were 
losing money. This has real life consequences for the committee 
since we have to make up for the shortfall that CBO estimates 
will occur relative to your total budget. Quite frankly, it 
seems just from appearances only that the administration 
overstated the performance of the funds so it wouldn't have to 
reduce programs or reduce the increases in the initiatives that 
it wants.
    Has your staff met with the Congressional Budget Office to 
determine what specific elements of the administration's 
estimates were rejected and can you tell us what those 
differences were?

                          DIFFERENCES WITH CBO

    Secretary Donovan. We have requested a meeting with the CBO 
to discuss this. I have also had some discussions with the 
Budget Committee and OMB about this, and we have provided some 
information to them about it.
    I think fundamentally, what we have seen, and I spent an 
enormous amount of time personally with the Office of 
Management and Budget analyzing these numbers, there have been 
two major changes in FHA that may not be reflected in CBO's 
numbers and I think it is important that we do get to the 
bottom of this with them.
    First of all, given the change in credit markets, the 
average credit scores for FHA have gone up over 50 points 
during the last year. So that for loans to be originated in 
2010, we expect a significantly higher credit score on average 
than we have had historically.
    Second, and I thank Congress for working with HUD on this, 
the elimination of the seller-funded downpayment loans in the 
portfolio, that change alone, our estimate is, contributes a 
$2.5 billion swing to the performance of loans that will be 
originated in 2010.
    So I do feel quite confident in our estimates, and we are 
pursuing a resolution with that of CBO. And any support that 
the committee could provide in doing that, we would greatly 
appreciate.
    Mr. Latham. So you intend to--our problem is that we have 
to live by CBO. Whether you talk about OMB or whatever, but 
that is not the reality here for us. But you are going to work 
with them to try to revisit your methodologies. How are you 
going to address this?

                              METHODOLOGY

    Secretary Donovan. We have approached them, requested a 
meeting, and supplied information how we got to our estimates. 
I hope we will get into the details with them to be able to 
resolve the difference.
    Mr. Latham. Okay. Just another item that has kind of popped 
up; you are proposing to continue the reverse mortgage program 
for seniors even after it has been shown to be a huge drain on 
the taxpayer, and the program is not part of the basic mission 
of FHA, has never been implemented by the private sector. 
Moreover, many have warned since the inception of the program 
that it is doomed to fail; now, a lot of people believe it has 
failed, and the Department wants to continue it anyway.

                                 TAXES

    Why would you ask the taxpayer to incur, I think it is 
about $800 million, to incur such a huge, long term liability 
on top of all of the other long term liabilities?
    Secretary Donovan. During this time in the economic crisis 
that the country is facing, which has been particularly 
difficult for our seniors, reverse mortgages continue to be an 
important opportunity for seniors to face these difficult 
economic times and to do longer-range planning to support their 
health care and other needs.
    We looked carefully at this and felt that it made sense to 
continue to support seniors during these difficult times. 
Having said that, I would also note that the proposal that we 
have put forward was dependent on not changing the underwriting 
terms for the HECM program. There are some relatively simple 
changes we could make that would limit participation in the 
program, but that could offset that request for credit subsidy. 
I would be very happy and look forward to our staffs discussing 
those options and making decisions together with the committee 
about whether we ought to make changes to the program.
    Again, we are not advocating those, but there are options, 
whether it is around the premiums, or around effectively the 
loan to values that seniors could take which would enable the 
program to be credit subsidy neutral for 2010.
    Mr. Latham. I just would note the reserves are basically 
deleted or gone now as a result of the foreclosures, and it is 
going to be a real problem. I thank you.
    Secretary Donovan. Just to be clear, the FHA program, the 
reserves continue to be above the congressionally mandated 2 
percent overall. I want to be very clear that the program is 
not in a negative position overall. And we do continue to 
monitor that very closely. We expect to have a reestimate this 
summer, and I think based on our latest estimates, the 
likelihood is it does remain above that 2 percent. But 
depending on the way that the market goes over the summer, that 
could change. We will keep the committee very closely apprised 
of that.
    Mr. Olver. Thank you, Mr. Latham.
    We will now go down the line in order of seniority for 
those who were here when the gavel came down, and then those 
who arrived after the gavel came down. That procedure leads me 
to Mr. Pastor.
    Mr. Pastor. Thank you, Mr. Chairman.
    Good morning. Congratulations.
    Secretary Donovan. Thank you.
    Mr. Pastor. And best of luck.

                                  CDBG

    The questions I am going to ask deal basically with CDBG. I 
am from the city of Phoenix, and its population has doubled. It 
was 600,000 in 1970, and now it is 1.4 million. And so the past 
30 years has brought a lot of change. And the growth has 
brought with it 18 percent poverty level in the city's 
population. Phoenix has experienced increases in the low income 
single parent household; housing overcrowding; aging housing 
stock; and moderate and low income senior citizen housing.
    The CDBG program formula was developed in 1974, about 30 
years ago, and has not been revised since the program's 
inception, as you well know. This year you request $4.18 
billion for CDBG. And as I understand it, you are requesting 
the fiscal year 2010 funding to be distributed using a revised 
formula. What does that mean?
    Secretary Donovan. Well, first of all, the $4.18 billion 
that you talked about, we are also proposing--that would just 
be for formula funding, and we are proposing beyond that new 
initiatives, like the Sustainable Communities Initiative, that 
brings the total up to over $4.5 billion. But even just the 
$4.18 billion of formula funding, represents a significant 
increase over last year for filling the President's commitment 
to fully fund CDBG.
    I think there is broad agreement, as you discussed, that 
the formula created more than three decades ago has not kept 
pace with changes in metropolitan areas and in rural areas 
across the country, for example, in Phoenix, other parts of the 
southwest and the west. And so we do believe that there needs 
to be an updating of the formula. We also understand that is a 
difficult discussion because there are different interests in 
different parts of the country.
    That is why it is so important that we have proposed a 
significantly increased level of funding which would allow us 
to implement a hold harmless provision for jurisdictions across 
the country so that no jurisdiction, even with a formula 
change, would lose funding for the 2010 budget years.
    So we believe that with this increase of funding now is the 
time to relook at the formula and to develop a formula that is 
more closely targeted at needs, while at the same time, looking 
at ways that we can continue to provide the flexibility that 
CDBG provides, but to have greater accountability in terms of 
measuring progress and impact for the CDBG program which has 
been difficult given the broad flexibility the program has.
    Mr. Pastor. I would agree it is going to be very difficult 
politically because over the last 30 years, you have had 
population changes and there have been major shifts as you see 
in the makeup of Congress. Yes, it would be very difficult 
because there are regions today that probably would be very 
much opposed, and regions that would be very supportive, 
especially in the west and southwest. So to hold harmless, it 
would be for 2010?
    Secretary Donovan. I think there are a number of ways to 
implement that.
    Mr. Pastor. But you said hold harmless 2010? That is what I 
heard.
    Secretary Donovan. Certainly at the very least for 2010. 
There are a number of ways to implement this that would have 
budget consequences in future years.
    Mr. Pastor. That is what I am getting to. What are you 
going to do in 2011? You are still going to have the political 
pressure and the redistribution in the formula?
    Secretary Donovan. We believe, at the very least, that the 
budget proposal for 2010 needs to hold harmless across the 
country. We have not made a proposal in the budget for 2011 
given that is not part of the budget proposal.
    Mr. Pastor. It is too early. I will take your answer.
    The fiscal year 2010 budget proposal mentions that economic 
need will be used to target CDBG moneys. Can you tell me what 
factors will be used to determine economic need?
    Secretary Donovan. There is a proposal that we would be 
happy to discuss in more detail and provide you. There are a 
range of factors that we have looked at in terms of income 
levels, condition of housing, and a range of others. I think 
the best might be for me to provide to you and the committee 
more detail about what possible formulas would be.
    Again, I think we believe strongly this is an important 
discussion to have with the Congress. We are not locked in, I 
would say at this point, on a specific formula, and we have a 
number of options that we have developed that have differently 
weighting of different factors. I believe it is very important 
that we have a discussion about the merits of various formulas 
and come to a joint conclusion about that rather than for us to 
simply say there is a single formula that we think would work.
    Mr. Pastor. That is why I bring up the issue because when 
you talk about formulas, especially those formulas that have 
not been changed for 30 years, and there is the likelihood they 
haven't been changed for 30 years because the people who 
benefited 30 years ago don't want to give it up.
    So I would highly recommend to you that your attitude of 
working with Congress and looking at the various formulas, the 
various factors, is very important, that you consider that and 
work with the Congress because if it is something you spring on 
Congress or do not have much conversation about, you are going 
to get caught in the crossfire. So I highly suggest that you 
continue your dialogue just so that your future initiatives 
will progress forward and will be able to be implemented.
    Thank you, Mr. Chairman. I yield back.
    Mr. Olver. Just to add to that slightly, the formula was 
authorized in law once in the middle seventies. It has been the 
same for all of those years. We are going to have a census that 
will be out before the 2011 budget gets completed. And seeing 
the history of it, one ought to deal with whatever this new 
census data are around the factors that are you talking about. 
But the communication has to be with the authorizing committee, 
so start that communication.
    Secretary Donovan. Yes. I would also just add, I want to be 
very clear, there has been discussion about the formula for a 
number of years, but it has taken place in the context by 
attempts, by the last administration, to dramatically cut the 
CDBG program.
    The President made a pledge during the campaign, which we 
are living up to in this budget, to fully fund CDBG. I believe 
it shows a commitment to the importance of this program to 
local communities. And in addition to that, it gives us the 
ability to implement changes, as difficult as they might be, in 
a context where nobody will lose funding under a hold harmless.
    So I believe we have an opportunity to have a discussion 
about it in a different kind of way than we have had in the 
last few years, and I look forward to that conversation with 
this committee and with the authorizing committees.
    Mr. Pastor. Thank you, Mr. Chairman.
    Mr. Olver. Mr. Rodriguez.
    Mr. Rodriguez. Thank you very much, and welcome to the 
committee and congratulations, Mr. Secretary.

                                OVERRUNS

    Let me follow up on a comment made by the minority ranking 
member, and that is in terms of making sure that we look at 
past abuses. And I was just wondering, and this is an open-
ended question, have you done anything to do an assessment 
through GAO or others to look at cost overruns in the past 4 to 
8 years, or whatever, in some of those programs, and I would 
ask you to comment on that. Like anyone who comes new to a 
program, you want to know that it is up and running 
appropriately. I know we have found some $300 billion cost 
overruns in just 4 years in the DOD facility from 2004 to 2008. 
Have you done anything on that aspect or asked for anything to 
be done?
    Secretary Donovan. Two things I would mention on that 
front. I talked earlier about the close working relationship 
that we have established with our inspector general; but that 
also goes beyond HUD to other agencies, Department of Justice 
and others, around mortgage fraud which given the growth of 
FHA's programs and many of the new lenders that we have had 
come into the program, we have begun to step up significantly 
our efforts, whether it is through swat teams, whether it is 
enhanced legal authority that we just got from Congress and 
signed by the President just a few weeks ago, to go after. One 
of the problems that we have had historically is we had powers 
to go after companies, but not the individuals that made up 
those companies. So we could debar, suspend a lender. They 
could then reconstitute.
    Mr. Rodriguez. Please let us know if we need to do anything 
legislatively that would help you in cleaning that up.

                            RESOURCES/NEEDS

    Based on the numbers that we are seeing, there is a big 
disparity between the need that is out there versus the 
resources we are providing. And it seems that gap is even 
bigger now than ever before. Have you made any plans in terms 
of looking at some alternatives that you might come up with or 
looking at any specific goals that you want to accomplish to 
try to meet those gaps?
    Secretary Donovan. A couple of things on that. I couldn't 
agree more that particularly given the economic crisis that we 
are facing, the needs are substantial. That is why I think it 
is so important that you passed a Recovery Act that had almost 
$14 billion to try to meet some of those needs. One thing I 
would mention in particular, is a billion and a half dollars 
for homeless prevention and rapid rehousing, that has been a 
very important effort that we have been working with over 500 
jurisdictions around the country to make sure that we help 
those families that on the edge of homelessness to be able to 
stay in their homes. It is also why we have proposed a 
significant increase in funding for Section 8 vouchers, which 
are a particularly important tool in these economic times in 
the budget proposal; as well as for the very first time funding 
for a national housing trust fund for extremely low-income 
families.

                   NEIGHBORHOOD STABILIZATION PROGRAM

    Mr. Rodriguez. Just a little more specific on one item, 
there are a lot of national organizations and groups that want 
to participate and have been participating, yet your guidelines 
also kind of discriminate and put them at a disadvantage. I 
would ask you to look at those guidelines that you have for 
national organizations because what you request on some of 
those specific targets in areas puts those national 
organizations at a disadvantage, and I would hope that you kind 
of look at that and go back, just like you should go back in 
terms of those formulas for areas that have continued to grow. 
I represent a more rural area than anybody else on the 
committee. I have 20-something counties in west Texas, and so 
housing is essential and is important. I know that there is a 
big waiting period and there is a waiting list of people 
waiting to get access to the resources there. So please look 
specifically at the national organizations. There are some 
specific items that your organization asks for that places them 
at a disadvantage. So when the scoring comes up, they are not 
going to be able to compete, especially as it deals with the 
neighborhood stabilization program and those kinds of things.
    I don't know if you have any comments on that or if you are 
looking at that now.
    Secretary Donovan. In fact, based on the feedback we got 
from the committee and others, we did make changes to our 
neighborhood stabilization program NOFA that we have published 
to try to provide as much flexibility as possible so national 
organizations could compete effectively, as well as giving 
points in that NOFA for things like leveraging, working across 
jurisdictional areas which obviously national organizations are 
particularly well suited to do. So we think we have constructed 
a NOFA for neighborhood stabilization and made changes to it 
that will be particularly useful in getting more national and 
regional organizations involved.
    Mr. Rodriguez. The comments that Congressman Pastor talked 
about, looking at changes in the last decade in growth patterns 
and those kinds of things, I would ask on the recovery 
resources, you look at those and prioritize those in terms of 
where the greatest needs are.
    Secretary Donovan. Thank you.
    Mr. Olver. Thank you. Ms. Kilpatrick.
    Ms. Kilpatrick. Thank you, Mr. Chairman.
    Good morning, Mr. Secretary.
    I am loving the HUD budget for the first time in my 13 
years here. I appreciate the creativity and future vision that 
you have, as well as the President, and I commend you for that.
    I don't think we can express enough how important it is 
that you go through the authorizing committees. Chairman Frank 
on our side and Senator Mikulski on the other side have worked 
hard on our issues, and they support what we are doing. 
Chairman Obey always says we are appropriators, and we are not 
authorizers and there is a distinction. I think that is 
important. As much as I like it, I see a roadblock coming. If 
not now, on the floor; and if not today, soon. I can't express 
how important that is.

                     CHOICE NEIGHBORHOOD INITIATIVE

    I want to talk about the Choice Neighborhood Initiative. I 
really like how it sounds. You also talked about a couple of 
categories that you have put together that you are looking at. 
The Harlem Children's Zone sounds, as I read a bit about it, 
might fit in some of these categories. I know that it takes 
Hope VI, which has been zero funded for several cycles in this 
committee, and the Senate always puts it back in, but we are 
not sure that we are going to do that this time because of the 
new initiative that you have. I am not sure that it needs to be 
authorized first. But setting that aside, can you talk about it 
and how it parallels the Harlem Children Zone?
    Secretary Donovan. Absolutely. First of all, I completely 
agree on the importance of working not just with this 
committee, but also with the authorizing committees. And Choice 
Neighborhoods is a perfect example. My staff is meeting today 
with Senator Milkuski's staff, and we have many on the calendar 
and others we are setting up with the various authorizing 
committees on both sides of the Hill, to make sure that we have 
a full discussion about what is appropriately done as part of 
the budget and what is appropriately done in authorizing 
language. So thank you for that comment.
    Specifically on Choice Neighborhoods, I think the 
importance here, and I want to go back to something you said, 
Mr. Chairman, in your remarks, we believe very strongly that 
public housing and the work that has been done in Hope VI not 
only has worked and been effective, but needs to be expanded. 
And that is why we are proposing an increase from the current 
funding level from $120 million to $250 million for Choice 
Neighborhoods.
    Based on our analysis, there are roughly three times as 
many distressed public housing units as there are distressed 
assisted housing units in neighborhoods of concentrated 
poverty. We would expect that public housing will get an 
increase of resources under the proposal in Choice 
Neighborhoods. So I want to be very clear about that.
    We also know that assisted housing and privately owned 
housing can be a big part of the problem. I have often heard 
directly from housing authorities, wanting to be able to 
include, whether it is foreclosed homes or other types of 
housing surrounding public housing, if we are going to truly 
remake neighborhoods. That is one point I would make.
    Ms. Kilpatrick. Juxtapose schools into that last 
discussion, please.

                                SCHOOLS

    Secretary Donovan. It is exactly the same issue. If we 
don't fundamentally remake the schools and create schools of 
opportunity in these neighborhoods, we are not going to be 
successful long term in creating sustainable communities there. 
That is why I have begun work with Secretary Duncan around 
integrating early childhood education and secondary education 
into the Hope VI efforts, not even just in Choice Neighborhoods 
but this year, we are looking at making more explicit 
connections with school reform in those communities. And then 
specifically on Harlem children's zone, the President talked 
about a Promised Neighborhoods Initiative modeled on what the 
Harlem Children Zone has done, which is really almost from 
birth through finishing high school, an effort to follow 
children, to give them not just at school but full day supports 
where they may need it with tutoring and other things, and it 
has been extremely successful in raising the academic 
performance and college attendance of kids in that neighborhood 
in Harlem, and we are looking to model it and link it.
    One of the reasons that we called this initiative Choice 
Neighborhoods is to explicitly make that link with the Promised 
Neighborhoods Initiative that the Department of Education will 
be implementing as promised by the President during the 
campaign. So we are working closely to bring together not just 
different types of housing but also school reform efforts and 
early childhood education efforts with the efforts around 
housing in the Choice Neighborhoods Initiative.
    Mr. Kilpatrick. I like it, and I hope you keep Members of 
Congress and this committee and subcommittee involved. It is 
very important as you go out that we become leaders in that as 
it rolls out. I like the coordination and it is the way to go. 
Thank you.
    Mr. Olver. Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman.

                              LOCAL MATCH

    I want to start off with when we had Hurricane Ike hit 
Texas, the communities were told that they could not use CDBG 
money to fulfill the Federal match required for other grant 
programs that would have aided disaster relief. This was a 
reversal from the previous disasters. Is there a reason CDBG 
money cannot be used in local matches; and was it just 
particular to some reason for Hurricane Ike, or do you know? Is 
there a chance we could reduce the 75-25 percent Federal-local 
match that many communities face to receive grants that would 
help them when they are in the middle of a big disaster?
    Secretary Donovan. This is an issue I have discussions with 
Governor Perry, Senator Cornyn and others about. There is a 
specific provision in the legislation that established the CDBG 
funding for Hurricane Ike that required that match to be in 
place. That was as you say accurately, different from prior 
statutory authorizations for CDBG disaster funding. So it was a 
statutory restriction that we have implemented as directed by 
Congress.

                               HURRICANES

    Mr. Carter. We don't have any concept of why all of a 
sudden one particular hurricane is different than the one 
before it? You have to ask Congress.
    Secretary Donovan. This was passed well before my time, and 
I don't know well enough the history of why that was added. But 
it has been an issue, particularly in Texas, that I have heard 
about a number of times.
    I would just add as well that one of the issues in 
effective disaster recovery has been exactly this, that each 
time there is a disaster, there is a different CBDG 
authorization that is created. They have been different in 
different circumstances. And it is almost like we have had to 
reinvent the wheel each time. And I think it is very important 
that we have begun work with a number of the committees and at 
the White House to think about a way to create a sort of model 
CBDG program that would be specifically tailored to disaster, 
remove some of the barriers like the one you are talking about 
and others to make it more flexible and more effective in 
recovery and speed up recovery efforts.
    So I think it is important that we think about this issue 
in a broader context to make sure that we have an effective 
program to be able to respond.
    Mr. Carter. That is a satisfactory answer, and I thank you 
for that answer.
    And by the way, I apologize for being late.

                           SECTION 8 HOUSING

    The other question I have, this is kind of off-the-wall, 
because I don't know the names of the programs. But I did a lot 
of work with Section 8 housing back in my youth, and now I did 
a ribbon cutting on a program where the HUD was actually 
assisting people in purchasing homes. I don't know if you are 
familiar with that. But it was a fantastic concept because 
these people were actually buying a house.
    And one of the things that I have always been concerned 
about since--for 30 years--is that as we subsidize housing for 
people, we never give them the opportunity, that caused you and 
I, and our families to have risen out of where we started, and 
that is the ability to accumulate wealth. You never accumulate 
wealth if you are renting in a subsidized housing project.
    And let's face it, even though our real estate market is in 
the tanks right now, historically Americans accumulate--they 
begin to accumulate wealth in their home. Are you familiar with 
that? It is a very small program being experimented with, but 
it was hugely successful where we did it because, all of a 
sudden, people who had never owned anything owned something.
    Secretary Donovan. And this would be specifically the 
Section 8 voucher homeownership.
    Mr. Carter. But it was homeownership, not rental.
    Secretary Donovan. In fact, in my prior work, I ran the 
fourth largest voucher program in the country, and we did have 
a voucher home ownership program as well. It is a program that 
has frankly remained small, and I think it is one we could look 
at ways to try to create more flexibility and to expand. But 
more broadly, I agree with you that we need to continue to 
provide opportunities for low- and moderate-income people to 
become homeowners.
    I do not take the lesson from the recent crisis that we 
have seen, that low- and moderate-income people can't become 
homeowners. In my own work, we created or preserved 17,000 
units of home ownership at the local level with only 5 
foreclosures. So I think it is really a question of doing it 
right, get back to basics on underwriting, providing the right 
kind of counselling and assistance and also benefits, like the 
$8,000 first-time home-buyer tax credit that Congress provided 
in the recovery bill which has been an important benefit to get 
families into homeownership for the first time and to help to 
begin to stabilize housing markets around the country.
    Mr. Carter. I believe my time has expired.
    Mr. Olver. Thank you, Mr. Carter.
    Ms. Roybal-Allard. Thank you for being patient.
    Ms. Roybal-Allard. Welcome, Mr. Secretary.
    In recent years, HUD has given funding incentives to 
agencies that offer permanent housing for the chronically 
homeless. The unintended result has been providers have shifted 
away from offering support services in favor of creating 
housing. In the absence of support-service dollars, the 
homeless population loses access to critical services, such as 
those addressing mental health, substance abuse and medical 
services.

                          HHS/HUD PARTNERSHIP

    It seems to me that a coordinated effort between the 
responsible Federal agencies would help to make the 
availability of housing with complementary support services 
more sustainable and efficient. Since most of the support 
services are provided by the Department of Health and Human 
Services, would you consider developing some kind of a 
partnership or coordinated efforts between HHS and HUD that 
would allow for a more dedicated stream of funding for these 
very, very important services?
    Secretary Donovan. I could not agree more with everything 
that you said, that this is both, based on my own experience in 
developing support of housing in the nonprofit sector and 
private sector as well as in the public sector, the linkage 
between services and housing is absolutely critical and in fact 
has led to real progress on this issue. In fact it has led to a 
30 percent decline in chronic homelessness between 2005 and 
2007 based on these advances.
    And oftentimes, frankly, local areas have had to do it in 
spite of a lack of help and even barriers between Federal 
agencies. So I think what you are talking about is absolutely 
critical. In fact, yesterday, we had our first Interagency 
Council on Homelessness meeting of the administration, and I 
became the new Chair of it.
    And one of the things we discussed at the meeting--I was 
sitting next to Secretary Sebelius. And we have begun 
discussions already but are very committed to expanding them 
around linking up, whether it is Medicaid or other forms of 
funding, because ultimately not only do we serve people better, 
but we can actually reduce costs by serving people effectively 
in supportive housing.
    There have been good studies now showing that we reduce 
costs of emergency room care, shelters, even prison time for 
the chronically homeless by bringing services that can be 
funded through HHS's budget directly into supportive housing. 
So I couldn't agree with you more. And I would be happy to 
share more information as that partnership develops.
    Ms. Roybal-Allard. I would appreciate that.
    I hear quite a bit from the Asian-Pacific Islander 
community, which has not been immune to the foreclosure crisis 
but yet, as you know, has a very specific linguistic and 
cultural need in terms of service. And although they have been 
highly impacted, less than 1 percent of HUD-approved housing 
counseling agencies throughout the country have the capacity to 
meet the unique needs of the API community. Can you please tell 
the committee what is being done to ensure that the API 
community is adequately served in home foreclosure prevention 
and mitigation efforts?

                             API COMMUNITY

    Secretary Donovan. Two things I would say on that. One is, 
in this budget proposal, we have proposed a significant 
expansion in housing counseling funding from $65 million to 
$100 million, and we feel, given the current crisis that we are 
facing, that it is an absolutely critical investment in 
resources. So that should open up the opportunity for more 
groups to be funded.
    But second of all, we need to go beyond that to make sure, 
just as you said, that we are targeting linguistically isolated 
groups. And that is why we have begun an effort under our fair 
housing programs as well as our counseling programs to publish 
information in many more languages. We are moving to 12 
different languages, from fewer than that in all of our 
materials.
    And also we need to work effectively--I was meeting earlier 
this week with a group called Esperanza, which works with 
Latino communities around the country and has the same issue, 
that they are trying to get into significant mortgage 
foreclosure issues in their communities and are trying to 
expand counseling. And we are working with them closely.
    I would be happy to follow up with the particular groups 
that you are hearing from to see how we could get training and 
information to them and connect them to groups like 
NeighborWorks that do effective training for housing counseling 
work.
    Ms. Roybal-Allard. Thank you.
    Mr. Olver. Thank you.
    Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. Glad to have you with us, and I 
appreciate your testimony.
    I was listening very carefully to your answer to Ms. 
Kilpatrick, and I want to follow up on the question of Choice 
Neighborhoods and the link with the considerable Hope VI 
backlog that I know the department is facing due to the drastic 
cuts in recent years in that program.

                                HOPE VI

    I want to know a little more about that transition and what 
it portends for communities that are still waiting and have 
been waiting for the particular kind of comprehensive support 
that Hope VI provides. I know you are familiar with that issue 
and with the way this program had a kind of checkered history 
but got refined and improved. I can show you in my district--in 
both Raleigh and Durham--the difference that the Hope VI 
program has made.
    And there is more to do. In the last 8 years, the public 
housing advocates, including our chairman and myself, have had 
to struggle to push back against the Bush administration's 
attempts to actually zero out Hope VI. Now the new 
administration is advertising Choice Neighborhoods as, on the 
one hand, a celebration of Hope VI, but also as a way 
presumably of incorporating and going beyond Hope VI's key 
goals. That is what I want to explore with you because, as you 
can tell, my assessment is that the work of this program is far 
from complete, and I want to make sure we don't celebrate Hope 
VI prematurely in a way that leaves behind unfinished business.
    Let me give you an example and a couple of questions that 
will let you know what I am getting at. We have a major need in 
Raleigh, North Carolina. It is a great candidate for Hope VI. 
We have a good track record there. I wonder how well we would 
fair under Choice Neighborhoods.
    Walnut Terrace houses 700 residents in an outdated, 
inadequately-equipped and poorly designed facility. The first 
question has to do with the link to neighborhood schools, which 
I think all of us would agree is a very positive linkage, but I 
want to be wary here of unintended consequences. Because of a 
progressive diversity policy in the countywide school system, 
the children who live in this particular development attend a 
variety of schools.
    Under Choice Neighborhoods, as I understand it, funding 
preference would be given to projects that link housing 
redevelopment to school reform, which sounds like a good idea, 
and in many places would be a good idea, but I worry that it 
could inadvertently disadvantage public housing communities 
that aren't served by community-wide schools. In the case of 
Walnut Terrace, this example I am citing, I am not sure their 
application would make the cut under the kind of scoring system 
you have described.
    I will ask my second question, and then I will stop. Right 
now, Hope VI is funding four to five projects per year. I know 
you are going to double that funding; you have offered 
assurances about that here this morning. But you are also 
expanding eligibility to projects of privately-owned stock. And 
here, too, there is a lot good about that idea. But combined 
with these new preferences, I am not sure whether you are going 
to dilute the funding available to publicly-owned housing.
    So beyond this celebration aspect, I would like to know how 
you envision Choice Neighborhoods, vis-a-vis Hope VI? How do 
you address this Hope VI backlog? This work is not done. And 
the supply and demand imbalance under the current funding 
level, how do you address that? What can we expect as we make 
this transition in terms of the needs that have piled up, 
frankly, all over this country due to the drastic reductions 
that we experienced in Hope VI?
    Secretary Donovan. Very important questions.
    First of all, I would say that one--we believe strongly in 
the administration that public housing needs investment, that 
it has been underfunded for years, and that is one of the 
reasons why there was $4 billion in the recovery bill that we 
have moved to get out very quickly, and in fact the type of 
development that you are talking about would be a good 
candidate for a competition we have available right now with a 
billion dollars in competitive funding for public housing, 
transformation and other efforts.
    So we have more resources available right now than we have 
had in any time in HUD's history to do this kind of work. So I 
think it is important to recognize that we are trying to attack 
that backlog in many different ways, not just through Hope VI 
and Choice Neighborhoods.
    The second thing I would say is, on the dilution question 
that you asked, we have looked very carefully at the stock of 
dilapidated public housing around the country, as well as the 
stock of dilapidated assisted housing, privately owned, and 
there is roughly a 3-to-1 ratio of public housing to assisted 
housing. So with the more than doubling of funding that we are 
talking about and the demand in the eligible housing, we expect 
and are targeting a significant expansion of the number of 
public housing projects that could be eligible. So I do believe 
this will not in any way dilute the funding available to public 
housing redevelopment; it will significantly expand it, even 
with the broader eligibility.
    The last thing I would say is, we are not looking to be 
prescriptive about exactly what local communities should be 
doing to create successful schools. If you have got a 
development in a neighborhood where that school reform has been 
effective and there is quality--quality educational options 
available to those children, my sense is that we haven't 
written the NOFA yet because obviously we are in discussions 
with you all about the development of the program. But my 
expectation is that if there are quality educational 
opportunities available in that community, that that would 
score well on a NOFA looking to ensure quality education rather 
than poorly.
    We are not looking to knock down schools if they are 
already functioning effectively or if there are opportunities 
available in that community. So this sounds to me like a 
question of making sure that, if the program gets enacted, that 
we work closely with you and the committee to ensure that it is 
written in a way that is flexible, that meets local needs in 
the way that we intend.
    Mr. Price. Thank you.
    I know my time has expired.
    As to your first point, very quickly, I understand the need 
to look to various sources to get the support we need, and 
believe me, our housing advocates are very good at that, but I 
am also very wary of assuming that there is a ready substitute 
for the kind of comprehensive assistance that Hope VI has 
offered.
    My experience has been that this is a unique program in 
many ways and that we have really suffered from its decline. 
And so we want to deal with this backlog and with the needs 
that have built up.
    Thank you. Thank you, Mr. Chairman.
    Mr. Olver. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. Great to have you here.
    I want to focus on a few areas in my questioning. The first 
is areas of our country enduring very high foreclosure rates 
that are not going down but are rising, and I would ask your 
particular attention to meeting with Members of Congress who 
represent these areas.
    Our foreclosure rate is now over 12 percent and rising in 
the greater Toledo area, and I daresay I guess Congresswoman 
Kilpatrick and perhaps other on the panel have the same 
problem. Here are some of my recommendations. You use your 
considerable power within the administration to ascertain 
whether unemployment benefits that have been passed by this 
Congress can be used as income in calculating the mortgage 
agreement where we are trying to work out and help people save 
their homes at the local level. There is some problem with some 
of the banks and mortgage companies, but since the Federal 
Government is sending in that stream of income every month, I 
would think you might be able to do something about that. If we 
don't, we are going to get more foreclosures in areas that 
don't need any more foreclosures. That is number one.
    Number two, I want to make you aware of a situation in 
districts like I represent where auction houses are now coming 
in, and they are buying off these properties at fire-sale 
prices before the local communities can even get in there and 
bid on their own behalf. There was a dysfunction between the 
arrival of HUD money and auctions that are ongoing. I would ask 
you to draw your staff's attention to this problem.
    I can tell you, in my community, since the beginning of the 
year, nearly 90 percent of the homes that have been sold have 
been sold to outside investors. This is appalling. They don't 
take care of their properties. And for what they are being sold 
for, we could have put the original owners back in those homes. 
There is something really wrong when Citigroup and J.P. Morgan 
and all these same characters can come in and end up owning the 
property, and the local community can't even defend itself.
    So again I ask for your perhaps meeting with Members of 
Congress. I am sure Congressman Cardoza is one of these people. 
There are many of us in this situation, and we cannot get a 
handle on what is happening at the local level. Our real estate 
communities are outraged, and none of what is passed up here is 
making all that much difference. So I wanted to communicate 
that message to you.
    Number three, in terms of a stimulus, I would urge you to 
look at the possibility of working with the director of FEMA. 
In communities like my own, we have had flash flooding and lots 
of difficulties with flooded houses and so forth. And there is 
a real possibility in places like Toledo and Fort Wayne to use 
this moment to look at FEMA's prehazard mitigation funds and 
some of the HUD funds to begin acquiring properties that are in 
these areas, some of which are vacant, some of which are 
occupied. We could rip them down. We could relocate people. We 
put money into the local economy, and we could take up some of 
the other extra housing stock that is around the communities. 
It is a real opportunity right now. But it would need some type 
of strike force on your part to go to those communities that 
have this type of profile. It would help us ease some money 
flow into our regions using both your funds and the funds of 
FEMA.
    The other point I would like to bring up, sort of a 
different subject, relates to the proposal for university 
development in your--I don't totally understand what that is--
but it sounds pretty good. But I have noted, in my community, 
where we have dilapidating areas, we have people with no 
building skills. And the programs of the Federal Government and 
the localities don't work very well to try to seed building 
skills in areas where we have significant housing need. The 
need for building skills is as great as the need for housing.
    And I would urge your attention to legislation that existed 
back in the 1970s and 1980s, called Neighborhood Self-Help 
Development that HUD had authority to work with Community 
Development Corporation, and they became the mechanisms to 
access labor money, HUD money, local money, building trades 
money to do really incredible things in those neighborhoods. So 
many of those authorities have just died, and as a result, 
neighborhoods die.
    Finally, I wanted to just mention something. Every year in 
a community like mine, a community of about 320,000 people in 
the biggest city, we get about $4 million to $6 million, to $7 
million of HUD money through CBDG. Meanwhile every year we get 
over $100 million in food stamp assistance, and I really 
believe that food stamps are the largest source of economic 
development dollars that a community like mine has. It has been 
really hard to get the public housing authorities to look at 
extra land that they own and properties adjacent to them and 
become part of greening the city.
    I think the President has a real commitment to this, and I 
think what we could do there is unbelievable with new modern 
agriculture. Tom Vilsack really cares about this. And if you 
mention my name, he will say ``urban agriculture.'' It can 
happen, and it can certainly happen in the Midwest where land 
is arable. I know my time is up. But I just wanted to urge you 
to look at demonstration programs in places where HUD and USDA 
can cooperate to grow product where it is desperately needed 
through local efforts and then to turn those efforts into food 
stamp redemption sites. So you begin to capture the dollars 
that people could earn through the sale of food, and some of 
your housing authorities could actually create credit unions 
and capture those dollars on site. None of that is happening in 
regions like mine, and I think it is really needed, and it 
could work in other places of the country.
    I thank you very much for listening. I don't think I have 
any questions. If you want to respond, go right ahead.

                      MAKING HOME AFFORDABLE PLAN

    Secretary Donovan. I won't respond to all of those points. 
I think they are excellent points, and we will follow up on a 
number of them and get you more information on a few of them.
    One thing--two things I would say, first of all, that this 
issue of unemployment benefits where families are at risk of 
foreclosure is very important. One of the important pieces of 
our Making Home Affordable plan, which has really now been 
stood up and implemented, and we are starting to see 
significant takeup. We have had now about 200,000 modification 
offers under the plan, including 40,000 alone last week. So we 
are really starting to see the scale ramp up.
    And one of the critical things about that is that it was 
intended to establish a standard modification process on many 
different issues, including on what can be considered income. 
And actually, in the plan we have explicit guidance about using 
unemployment benefits as income for the plan. So I would be 
happy to get you more information about that. But that is--as 
the program takes hold, hopefully many of the less-than-
satisfactory modifications that were happening before get 
replaced with modifications that used the standardized guidance 
and process that we established.
    The other thing I would mention, in addition to the idea 
about FEMA, is that we do right now have the Neighborhood 
Stabilization Program competition available, $2 billion to buy 
up foreclosed homes. That could be used in a number of 
different ways, land banks and other things. And I would just 
encourage, particularly communities like yours that have been 
hit by the foreclosure crisis, to be looking carefully at that 
and coming in and applying for those funds in addition to a 
discussion that we could have about FEMA.
    Ms. Kaptur. Could I ask you, Mr. Secretary, what can you do 
about these auction houses coming in and sort of ripping the 
local market apart basically?

                             AUCTION PRICES

    Secretary Donovan. It is difficult for us at the Federal 
level, obviously, to stop them from coming in.
    Ms. Kaptur. It is the same boys. It is the same boys. J.P. 
Morgan, Citigroup, Wells Fargo, the same ones. They use Hudson 
and Marshall out of Texas, and they are going right through our 
areas.
    Secretary Donovan. One major real problem for many of the 
neighborhood groups, localities that want to be at those 
auctions and want to be able to compete for those properties, 
particularly using Neighborhood Stabilization funds, is a lack 
of information about what is happening with those properties.
    So one of the things we are doing through the Making Home 
Affordable Plan, all of those services that you talk about 
participate in the plan. We are now, as of next month, we will 
be able to access very detailed data about loans where 
modifications haven't been successful and are likely to be 
foreclosures. And what we are looking at doing is creating a 
centralized database where we can provide information very 
early on, before it ever gets to foreclosure, to localities, to 
community groups, so they can be prepared to come in and 
negotiate even ahead of a foreclosure sale or to be prepared to 
go and bid earlier than they are. That is at least one aspect 
that we have been working on.
    There are others that we can do to go after some of the 
speculators who have not been--whether it is committing fraud 
or doing other things that are really problematic in some of 
the communities.
    Ms. Kaptur. Thank you.
    Mr. Olver. Thank you.
    We are going to try to do some more here. I am not quite 
sure exactly when the votes will be. But I am told within half 
an hour or so. So we will try to get through another round. I 
am going to cover some things rather quickly.
    I just want to comment to Ms. Kaptur, because she may not 
be able to have a second round. She has pointed out that the 
big boys that were a part of the creation of the problem in the 
first place are in there at the base of those auctions, and 
they have all the information, but the people who might be at 
the communities to know when or to create the auctions in the 
first place, they are not in as good as a position to get the 
information. So they are really at a competitive disadvantage, 
plus the fact that the Neighborhood Stabilization moneys came 
rather late in the process in getting out. So, yeah, they have 
a problem.
    I am noticing--this is quite a different thing. In one 
sentence in your testimony you mention the University Community 
Fund and then the Rural Innovation Fund, and leaving a few 
words out, for addressing the problems in distressed 
neighborhoods and rural communities. Well, the Rural Innovation 
Fund For Rural Communities, the University Community Fund 
sounds like distressed neighborhoods. My guess is the graduate 
students at those universities would agree that they were 
probably being housed in distressed communities.

                          CHOICE NEIGHBORHOODS

    To go back to the Choice Neighborhoods and the relationship 
to Hope VI, I had commented at the beginning the worry that two 
others have now reiterated that one cannot move on to a new 
concept without realizing that there is a lot of the old 
concept that still hasn't gotten where it ought to be. And 
there are several things that come to mind in that.
    I think there is a great need for technical assistance when 
you are working with any of those communities, and we have, on 
Hope VI, we have a number of projects which have barely 
gotten--either not or barely gotten off the ground within a 5-
year period. There has to be some other reason for some lack of 
technical assistance, or there is some disconnect in the 
choice--in the original competition process as to who has the 
capacity and who has the will to get things like that done. We 
have a number of projects, unlike what Mr. Price had mentioned, 
where they have had such good experience. Some communities have 
had exceptionally good experience with it, and some others just 
can't seem to get off the ground after they have been awarded. 
That is number one.
    And then on the question of Choice Neighborhoods, it is a 
difficult question because we have had an authorized Hope VI 
program which has been underfunded deeply for quite a number of 
years, and there have been--there are lots of large 
communities, but also a lot of medium-sized communities. Ms. 
Kaptur's community was 300,000, or it was; the Census is down. 
But it is a perfect community to be having the Hope VI program. 
They never had one. There are a lot of communities in the 
500,000 down to even those in the 50,000 to 100,000 range that 
have never been in such a thing, and they need to be considered 
and be allowed to come into it. So there is all of those going 
on.
    And my final comment I guess here because I am going to be 
on red in just a moment, my final comment on this one is that 
we had an authorization that passed the House of 
Representatives for an extension of Hope VI last year with 
about $750 million or $800 million intended per year. It never 
was taken up by the Senate. Our side is thinking about doing 
another authorization for Hope VI. They have particular angst 
because they have done an authorization and might be inclined 
to do essentially the same thing again. And you better get 
talking with the authorizers because there is angst about the 
Choice Neighborhoods program there, though your comment about 
recognizing that there is three-quarters of the need remains in 
communities where there is public housing, and maybe a 
quarter--I am not sure that you are specifically saying that 
there may be distressed housing in the HUD-assisted group that 
is at the proportion of 1 to 3 in the public housing remainder. 
That is a reason for having demonstrations.
    Do you want to comment?
    Secretary Donovan. Sure. I want to reiterate very, very 
clearly that I believe strongly Hope VI is an outstanding 
program, and one of the things that we are trying to do with 
Choice Neighborhoods is expand the funding available to exactly 
those types of developments. And I have heard consistently from 
housing authorities that the ability to include privately-owned 
housing or other forms of housing as part of Hope VI 
developments would really help to transform those neighborhoods 
even further than the existing programs do. Because there are 
times when you can rebuild the public housing, but if there are 
foreclosed homes or other abandoned housing nearby, you simply 
don't have the same kind of impact. So this would give public 
housing authorities doing Hope VI type developments or wanting 
to do Hope VI developments broader opportunity to expand what 
they are doing.
    You may be arguing that $250 million isn't enough. That is 
something that if you believe there ought to be more funding 
for a program like this to expand the opportunity, I would be 
happy to talk about that. But fundamentally, I have heard from 
many, many mayors that Hope VI has been terrific. They have an 
assisted-housing program that is as bad a blight on communities 
as Hope VI. It is not as many, but where there is one, it has 
been devastating, and I have seen them very personally myself. 
So I believe that we need to take the opportunity to learn from 
the success of Hope VI and be able to take on new efforts.
    I don't think it is an either/or. And I am concerned that 
the committee seems to be seeing this as an either/or choice. I 
don't think it is an either/or choice. We need to expand the 
funding available to Hope VI type redevelopments, and we need 
to expand those lessons to other types of housing that have the 
same kind of negative impacts on communities. And I believe 
strongly that we can find a way to do that to assure that we 
expand the amount of public housing that gets redeveloped as 
well as to expand those lessons to other kinds of housing.
    Mr. Olver. Well, I thought I was giving you a chance to 
knock the transformation initiative out of the ballpark.
    Mr. Latham. Thank you. Thank you very much.
    Mr. Latham. Thank you, Mr. Chairman.
    I saw recently there is an announcement about livability 
grants, which I guess is interesting.

                           LIVABILITY GRANTS

    Just for the record, would you define what ``livability'' 
is and tell me where these grants are going and what is 
supposed to be done with these grants? And I think for the 
committee's sake, what funds are you using for these grants? 
There is no line for livability grants.
    Secretary Donovan. These grants are actually not HUD 
grants. If I understand correctly, the announcements that you 
are talking about; they are not HUD-funded grants. We are 
proposing in the budget Sustainable Communities Initiative----
    Mr. Latham. Where would that come from?
    Secretary Donovan. I believe the ones you are talking about 
come from the Department of Agriculture. But I am not--I am not 
sure. I would have to--if you could get me more information 
specifically about the ones that you are thinking about, I 
believe they are Department of Agriculture, but I am not 100 
percent sure about that.
    Mr. Latham. Sometimes it gives the appearance that maybe 
the administration is kind of working at cross purposes. We are 
promoting the notion of livability and people living close 
together and in near proximity. Being from Iowa and coming from 
a big town of 168 people, I would not consider that to be 
livability. I like the open spaces. I live in the suburbs a 
mile outside of town there.

                          LIVABLE COMMUNITIES

    And on the other hand, we have through the stimulus 
package, there is huge investment as far as extending Internet 
and broadband out into the most rural areas all over the 
country. Obviously I am supportive of that, but it would seem 
somewhat at cross purposes. We are talking about having these 
clusters, and then we are also talking about having more people 
live out farther away or being able to live out farther away. I 
don't know, who wins the battle here? Are we just throwing 
money at both and seeing which one can come out on top?
    Secretary Donovan. I guess, Congressman, I see it 
differently, that what livable communities is about is 
providing more choices for people in terms of how they get to 
work, how they get to shopping, how they live their lives. 
Right now, I think folks are voting with their feet frankly and 
saying, we don't want to be spending hours and hours in traffic 
and cars. We want to be home with our kid. We want to have a 
better quality of life. And so we are both in urban areas, 
suburban areas, rural areas. The livability partnership that we 
have established, including--I was talking to Secretary Vilsack 
about this yesterday.
    He is creating more options for people in all of those 
different areas. We are not looking to tell people where they 
should live. The opposite. We are trying to make sure that, 
whether it is in rural areas, through access to broadband or 
other things, that they have more choices.
    Just to give you an example of that, as you know, Secretary 
Vilsack is from Iowa as well, and one of the big issues facing 
many towns of 1,000 people or 5,000 people is vacant stores in 
those towns with vacant units up above, and we were talking 
about the opportunity to provide more retail and maybe to even 
provide senior housing in places where, without getting in a 
car, because often seniors can't drive, being able to get 
access to the pharmacy, to the grocery store right there within 
the town.
    So I think there are lots of things that we can do through 
this agenda to provide more choices, and frankly, the Federal 
Government has often been in the way, and I think a big part of 
this is getting out of the way of allowing people to make those 
choices and local communities to develop in the way that they 
want.
    Mr. Latham. Well, I am keenly aware--I have a 92-year-old 
mother that lives in this town of 168 people, and she has to 
drive 10 miles to get a gallon of milk or a gallon of gasoline. 
There are virtually no stores. You don't want to be on the road 
when she is going to the grocery store. God bless her. I love 
her. What is HUD's role in a town like that? We just passed a 
bill yesterday in Ag Appropriations, $3 billion through USDA 
for grants, $18 billion through rural development. Does HUD 
need to be in Alexander, Iowa, along with USDA?

                            HUD'S RURAL ROLE

    Secretary Donovan. Not only do we need to be, we already 
are. We fund, through our range of programs, tens of thousands 
of rural housing units and others. Let me just give you----
    Mr. Latham. As far as handling those, it often goes through 
USDA?

                                  USDA

    Secretary Donovan. We often provide subsidies to be 
available to them. Let me give you an example. We have a senior 
housing program which, because of a number of restrictions in 
that program, tends to support new construction on greenfield 
sites, whether it is environmental restrictions and other 
things. Exactly the example I just used, for a senior living 
where they have to drive 10 miles to get to something, maybe 
the answer is the Department of Transportation providing more 
options for vans or other kinds of transit that would support 
those seniors being able to have a better quality of life. That 
might be a transportation answer.
    On a housing side, the answer might be to change our senior 
housing program so that we could redevelop the second floors of 
those buildings in the town that can walk to those services or 
have them readily accessible with a service coordinator or 
other folks. So really this is about providing options that 
will improve the quality of life, not just through transit 
options like I talked about, but as well as making sure our 
programs don't stand in the way of towns like the ones we are 
talking about being able to develop in ways that support the 
residents with a good quality of life. It is a simple example, 
but that is the kind of thing we are looking at to try to get 
all the barriers in our programs out of the way of this 
sustainable community agenda.
    Mr. Latham. Thank you, Mr. Chairman.
    Mr. Olver. We now have had votes called. But if we could do 
3 minutes and the remaining 5 people can have their time 
before--Mr. Pastor.

                                HOPE VI

    Mr. Pastor. Mr. Secretary, I will make the offer.
    At your convenience, I would like to sit with you and just 
give you a history of Hope VI at this side so maybe you might 
understand it is not either/or, but some of the encounters you 
are going to have both in Congress and what is causing probably 
some of our doubt. You are starting another program, an 
initiative which I hope you have a great success. But in this 
committee, we don't legislate on an appropriation bill. And 
many of your initiatives are going to have to be authorized. So 
that is our reluctance.

                               PRIORITIES

    But let me ask the question, how do you justify taking 
funding in the coming fiscal year from programs that are sorely 
needed in this economy to fund longer-term priorities? Why do 
you decide on this particular structure to transfer authority, 
rather than putting more money into the working capital fund or 
into the policy development and research office? And this deals 
with your transformation initiative.
    Secretary Donovan. Two things I would say about that. The 
working capital fund, I think it is clear based on the systems 
that--and the working capital fund funds our information 
technology development and maintenance that there has not been 
the kind of investment that would be necessary to make HUD an 
effective, efficient agency, whether it is not having effective 
systems to count and provide to this committee what we are 
spending on Section 8 and what will be needed in the following 
years.
    And in a range of other areas, we simply haven't invested 
in technology. And that technology, frankly, can ultimately 
lead to more people being served in our programs, because 
today, without the kind of information technology, without the 
research to know what is working, it has been very difficult 
for us to make sure that our programs are effective and as 
efficient as possible. So I believe that the transformation 
initiative, which would give us the ability to expand funding 
for technology, for research, is intimately linked to the 
department being more effective and ultimately being able to 
serve more people with the same amount of money.
    Right now, because we haven't been able to invest in that 
technology, whether it is on Section 8, whether it is in the 
FHA programs, I think, frankly, we waste money that should go 
to people with real needs on the ground. So I see it 
particularly as a time of great economic need in this country 
that an effective, efficient HUD will only go to greater 
support the fundamental mission of the agency. And that is why 
this transformation initiative, which would increase the amount 
of money we have in addition to the working capital fund for 
systems, is so important.

                          WORKING CAPITAL FUND

    The working capital fund in our proposal would fund the 
maintenance of existing systems, and then we could use the 
transformation initiative to fund new development of technology 
at the agency.
    Mr. Pastor. Thank you.
    Mr. Olver. Mr. Carter, 3 minutes.
    Mr. Carter. Thank you, Mr. Chairman. This committee 
recently spoke with Secretary LaHood regarding the Livable 
Communities Initiative between DOT and HUD. I will direct the 
same question to you that I asked him. Currently EPA gets $50 
million for Smart Growth programs. Is this Federal money 
duplicative of your efforts? If not, where are the lines drawn 
regarding responsibility for these efforts? Which agency, DOT 
or HUD, is leading the effort?

                          LIVABLE COMMUNITIES

    Secretary Donovan. We have formed a working group with the 
Department of Transportation and EPA to work jointly on these 
issues because the fact is that ultimately we can't be 
successful in this initiative if we don't have EPA programs, 
transportation programs and housing programs, all working 
together rather than at cross purposes. EPA specifically has 
responsibility for issues like water quality, brownfields, a 
range of issues that are critical to the sustainable 
communities initiative. HUD has responsibility, lead 
responsibility for housing; and Transportation, obviously, has 
lead responsibility for transportation.
    So I don't think these efforts are duplicative in any way. 
This is about getting out of the old way of operating just in 
silos where we don't communicate, where we work at cross 
purposes to each other, to make sure that we are coordinating 
the Transportation investments--that Transportation is making, 
the housing investments that HUD is making with the kind of 
brown fields and water quality investments that EPA is making. 
So we are not taking each other's responsibility.
    I think it is clear who has lead responsibility in each of 
these areas. What we are doing with this initiative is trying 
to make sure those are coordinated in ways that they don't work 
against each other in the future.
    Mr. Carter. So you are working in tandem is what you are 
saying?
    Secretary Donovan. Absolutely.
    Mr. Carter. Thank you.
    Mr. Olver. Thank you.
    Mr. Rodriguez, 3 minutes.

                               SECTION 8

    Mr. Rodriguez. Real quickly, following up on Congressman 
Pastor's comments regarding the transformation. In terms of 
your plans, how are you going to prioritize that? Is it going 
to be a pilot program or in specific areas? Have you figured 
that one out? Are you going to be looking at that?
    Secretary Donovan. We have begun to develop detailed 
information about the efforts that we would pursue under the 
transformation initiative under systems; very specifically 
improving FHA systems will be a very high priority as well as 
improving our Section 8 systems. Again, HUD has not been able 
to provide to this committee in the past adequate transparency 
and information about the voucher programs, and that would be a 
very high priority.
    We would be happy to share greater detail about the 
committee about what we proposed. We would also propose that 
there be a very strong accountability that we have on these 
funds, proposing plans for your approval and feedback and any 
changes reported to the committee during the year in terms of 
how those funds are being used?
    Mr. Rodriguez. Are you still flexible in some of those 
areas? They asked me to ask you specifically on the--if there 
is any compromise between the flexibility of that 1 percent 
transfer authority or no flexibility without the initiatives? 
Is there a middle ground that can be reached or----
    Secretary Donovan. Absolutely. And we have already begun 
some of those discussions with the staff, and I think we are 
very happy to meet your needs in terms of specificity and 
reporting on it. Let me just give you an example of the kind of 
thing that we are trying to get to. FHA, given the economic 
crisis we are facing and the mortgage crisis, FHA's volume 
expanded dramatically quite quickly, and yet FHA didn't have 
the flexibility to go out and buy fraud systems that would have 
helped us effectively limit the fraud in the FHA program.
    So there are examples, and I would be happy to share 
others, where not having this kind of flexibility I believe has 
stood in the way of us using taxpayer resources as wisely and 
as effectively as we possibly can. But I do think there are 
ways that we can give you the kind of assurance that you need 
to ensure that this funding is being spent well and the kind of 
specificity in advance that you are looking for.
    Mr. Rodriguez. Thank you.
    Let me quickly, I know Congressman Carter talked about the 
importance of home ownership, and there are programs where 
people participate and provide, for example, the lot and 
provide some of the work that is done to build those homes. I 
would ask that you come and look at that, especially in some of 
the rural communities and urban areas that have empty lots and 
where people own the lot but might not have property because 
that is a key point.
    Mr. Olver. Thank you.
    Ms. Roybal-Allard, there are still 364 people who have not 
yet voted. So I think we can get 2 more 3s in here. Go ahead.

                                 HOPWA

    Ms. Roybal-Allard. Mr. Secretary, as the Housing 
Opportunities for Persons With AIDS, known as the HOPWA 
program, has successfully allowed about 91 percent of clients 
to achieve housing stability and has to a large extent been 
instrumental in helping to end homelessness among persons with 
HIV/AIDS. In light of the success of this program, it was 
disappointing to see that the administration has proposed flat 
funding for HOPWA. And since this flat funding, as I understand 
it, is expected to not only serve the 131 existing city and 
State programs but also to serve any new jurisdictions that 
become eligible this year. This level funding is essentially a 
cut to the program, and I would like to know what the rationale 
is for essentially cutting this very important and very 
successful program.
    Secretary Donovan. First of all, I would say that, given 
the set of choices that we had and overall the growing deficit 
that we have, we felt that--and HOPWA is not alone. There were 
many programs, in fact most programs in the budget that we have 
proposed, flat funding for. So HOPWA was not singled out in any 
way relative to other programs that also have significant 
needs, but we had to make choices in the budget, and we did 
that, given the overall budget environment.
    I would also say with HOPWA, having worked closely with the 
program in my prior job, I know the effectiveness that it can 
have. I also believe at that time we have made significant 
progress under HOPWA and have not seen the kind of enormous 
growth caused by the economic crisis, for example, around 
family homelessness and other types of funding that were 
particularly needed during the economic crisis. We didn't see 
the same kind of growth and needs around the HOPWA program that 
we saw in other programs, and that is really what led to our 
decision.
    Ms. Roybal-Allard. But the problem is it is going to undo 
much of the progress that has already been made, and we could 
provide you with information showing that in fact there is a 
growing need for this program and that--the fact that is not 
only flat funded but expected to deal with any additional new 
jurisdictions, that it is going to have a very negative impact 
on this population.
    Secretary Donovan. I would be happy to look at that 
information.
    Mr. Olver. Thank you.
    Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. And thank you for your 
interest on many levels. Thank you.

                              FORECLOSURES

    Mr. Secretary, very quickly, would you be willing to serve 
as a convener among a meeting that would involve J.P. Morgan 
Chase, Bank of America, HSBC, Wachovia, Wells Fargo, major 
foreclosers and servicers and Members of Congress who come from 
districts where these firms are still wreaking havoc?
    Secretary Donovan. I would be happy to do that.
    Ms. Kaptur. I would hope we could bring our mayors to that. 
I would urge you to look at districts that have over 10 percent 
foreclosure rates as a start. And I know Congressman Cardoza 
and I are very, very of like mind on this, though we represent 
very different districts.
    The FHA is very important to these companies. So is Fannie 
and Freddie. And I think you have a unique position where we 
can have a direct dialogue. There are serious questions to be 
addressed at such a convening. Thank you.
    If I were to ask for information, and this will be my last 
request very quickly, if I were to ask HUD in historical order 
to provide a list of the first financial companies to invent 
and to promote the subprime mortgage instrument and then to 
securitize it, could your staff do it?
    Secretary Donovan. Let me find out for you.

                           FREDDIE AND FANNIE

    Ms. Kaptur. And also, does your staff have the ability to 
take a look at Freddie Mac and Fannie Mae between the years of 
1995 and 2005 and address the issue of what happened to the 
risk standards and the risk evaluations of the mortgage 
instrument that allowed the crisis to occur? Do you have the 
ability to look up what was done as they changed their risk 
standards, particularly between 1999 and 2002?
    Secretary Donovan. We recently did put together a report on 
the history and the causes of the subprime crisis that included 
some information there. We would be happy to provide that to 
you. If that is not sufficient, we can certainly try to get you 
more information on that on this issue.
    Ms. Kaptur. I thank you very, very much.
    Thank you, Mr. Chairman.
    Mr. Olver. Thank you very much for your testimony. It is 
very helpful to us, and I think very informative for all the 
members who are here. Thank you, Mr. Secretary.
    And this hearing will be closed.
                                         Wednesday, March 18, 2009.

 LIVABLE COMMUNITIES, TRANSIT-ORIENTED DEVELOPMENT, AND INCORPORATING 
GREEN BUILDING PRACTICES INTO FEDERAL HOUSING AND TRANSPORTATION POLICY

                               WITNESSES

HON. SHAUN DONOVAN, SECRETARY OF HOUSING AND URBAN DEVELOPMENT
HON. RAY LAHOOD, SECRETARY OF TRANSPORTATION

                   Opening Remarks of Chairman Olver

    Mr. Olver. The subcommittee will come to order. I was 
reluctant to stop you. You were conversing so casually there 
that I thought you might be making big decisions that we would 
hear about in the process as we go along. And so I didn't want 
to stop you at all from that.
    But anyway, this subcommittee of Appropriations is the 
Subcommittee on Transportation, Housing and Urban Development, 
occasionally called the THUD committee. And we have a 
confluence of the stars today, in that both of our Secretaries, 
the gentlemen chosen to lead the administration in 
Transportation and in Housing and Urban Development, the two 
are both here to testify on the issue of Livable Communities, 
and subtitled Transit-Oriented Development and Green Building 
in Federal Housing and Transportation.
    So let me welcome the Secretaries, the Secretary of 
Transportation, Ray LaHood, an old colleague. We are happy to 
have you before us. And Secretary for Housing and Urban 
Development, Shaun Donovan. Happy to have you as well.
    And I want to let both of you know that I am really very 
pleased both of you are testifying about this issue in this 
way. In my mind, a livable community is a neighborhood that 
links the transportation mobility needs of old and young alike, 
with affordable housing, shopping, job opportunities and green 
infrastructure.
    In my view, transportation, housing and energy policy have 
been conducted as separate spheres, like silos, with little or 
no coordination on the Federal, State or local level for far 
too long. Improving Federal policies among agencies and 
creating a Federal partnership with local communities to build 
livable communities that combine transit-oriented development, 
affordable housing and green infrastructure should be a 
national priority. And we finally have two agency heads that 
share a belief in livable communities and a willingness to work 
together across agencies to better coordinate the Federal role 
and prioritize this type of development.
    Over the last 2 years, our Subcommittee, working with our 
friends on the Authorizing Committees, when appropriate and 
necessary, have worked to make communities that are livable. We 
have promoted green building and access to transit within the 
HOPE VI affordable housing program, and we have urged the FTA 
to work with grantees to incorporate green building practices 
for newly constructed transit facilities. We have provided 
funding for the Departments of Transportation and HUD to 
explore ways the two agencies could better coordinate 
transportation and housing programs to promote affordable 
housing near transit.
    I believe that the Federal Government should be a partner 
and a resource for local communities that would like to create 
livable communities. I also strongly believe in efforts to 
promote green building and transit access in Federal housing, 
because green housing is cost effective and can create 
substantive energy savings and healthier living environments 
for families.
    Each of you has given voice to the challenges and 
opportunities we face as we strive to build such livable 
sustainable communities. Secretary LaHood, you stated during 
your confirmation hearing, and I quote, ``The era of one-size-
fits-all transportation projects must give way to one where 
preserving and enhancing unique community characteristics, be 
they rural or urban, is a primary vision of our work rather 
than an afterthought.''
    And similarly, Secretary Donovan, at your hearing you 
stated, ``HUD can help develop communities that are livable, 
walkable and sustainable. By joining up transportation and 
housing, HUD can give families the choice to live closer to 
where they work and, in the process, cut transportation 
costs.''
    This afternoon we will have an opportunity to learn more 
about each of your visions for livable communities and what you 
hope to accomplish in the short and long term in this regard. 
Tomorrow we are going to hear from a panel of outside witnesses 
who will share some additional thoughts on how we can better 
coordinate transportation and housing.
    And so, with that, let me recognize our ranking member, Mr. 
Latham, Tom Latham from Iowa, for any comments that he would 
like to make.

                Opening Remarks of Ranking Member Latham

    Mr. Latham. All right. Well, thank you very much, Mr. 
Chairman. I appreciate your interest in this issue and your 
fervor, I guess, in this whole subject matter.
    And Secretary Donovan, it is nice to meet you. I look 
forward to getting better acquainted over time here and to work 
with you.
    Ray LaHood, classmate of mine--you are missed; there are 
fewer of us all the time, Ray. But I welcome you here. And 
congratulate both of you on your appointments. That is 
tremendous, and I think you will do a great job.
    On the outset, I would like to say that we might want to 
revise the term ``livable community'' simply because I think 
what is livable to some might not be livable to others; and in 
our large, very diverse Nation, we know there are significant 
demographic shifts taking place in our country. But we also 
know that the experts don't agree on the trends--totally on the 
trends that are under way.
    Some assume that the aging and young populations all want 
to live near public transportation and that jobs are moving to 
the cities and that we should break large areas into villas 
surrounded by public transportation. The reality probably is 
closer to the notion that the use of cars today is a larger 
part of our daily life than ever before, as both parents of 
young families today work full-time, carry out a lot of 
different tasks in a day.
    I think it is important to note that many jobs are moving 
out of the cities to suburban areas where the skills are and 
the new opportunities are, where schools are, you could say, 
unfortunately, oftentimes better, and the crime rates can be 
lower. These characteristics are going to also influence people 
in their choices of where they are going to live.
    If people continue to migrate to the suburbs, the 
marketplace, I think, will dictate costs and land uses. And it 
is a hard thing to overcome the marketplace and what actually 
happens in those communities. In that context, a bus or a train 
may not be a viable alternative for a working parent who must 
get to daycare, the dry cleaners, go to work or the grocery 
store all in the same day.
    The D.C. Metro system is a good example of the truths on 
both sides of the public transit systems. On the one hand, rail 
transit has resulted in residential areas that are not 
affordable to many people, but who would like to have Metro 
access. On the other hand, the rising land values have been 
good for the local economies. So it is a trade-off.
    I think there are many positives in the area of transit-
oriented development for some communities, but probably not for 
all communities. One-size policies do not always fit well into 
the broad, diverse nation, and we need to recognize that fact 
as we go forward here.
    But I look forward to hearing from our witnesses today and 
exploring the subject more in depth. I appreciate it very much, 
Mr. Chairman.
    Mr. Olver. Thank you.
    Now let's hear from the Secretaries. Your complete 
statements will appear in the record. If you manage to keep 
your comments under an 8-minute limit, we will be happy. And 
then we can get on to questions, because I am sure this can be 
quite a good conversation among us today. Thank you.
    And with that, Mr. LaHood.

                     Opening Remarks of Ray LaHood

    Secretary LaHood. Mr. Chairman, thank you. I may have spent 
maybe a total of 8 years in this room. I am very glad to be 
back. When people ask me if I miss Congress, what I tell them 
is, I don't miss the roll calls, but I do miss the 
relationships. And it is wonderful to be back in the 
Appropriations room and to see friends across the dais here. I 
thank you for the opportunity.
    I think the stars have really aligned for you today, Mr. 
Chairman. You have both the Secretary of HUD and the Secretary 
of Transportation together here talking about something that I 
know you have been passionate about: livable communities. It 
must truly be a great day for you and for those that have been 
promoting this idea.
    And so I would like to read my testimony, but first say to 
you, sir, congratulations. You have hung in there long enough 
to see this day finally occur when both of our Departments, as 
well as others, are working together on a very, very important 
concept, not only for this administration, but for the 
Congress, too.
    Mr. Olver. I will admit that I am pleased.

                           Opening Statement

    Secretary LaHood. Chairman Olver, Ranking Member Latham and 
to the other members of the committee, I thank you for inviting 
me here today with Secretary Donovan to discuss the U.S. 
Department of Transportation's goals and actions in support of 
livable communities.

                          LIVABLE COMMUNITIES

    Fostering livable communities is a key aspect of President 
Obama's urban policy agenda and Vice President Biden's Middle-
Class Initiative. The way we design our communities has a huge 
impact on our citizens' social, physical and economic well-
being, yet many Americans live in neighborhoods without 
sidewalks or access to public transportation. Therefore, one of 
my highest priorities is to work closely with Congress, other 
Federal departments, and the Nation's Governors and local 
officials to help promote more livable communities through 
sustainable surface transportation programs. By focusing on 
livability, we can help transform the way transportation serves 
the American people and create safer, healthier communities 
that provide access to economic opportunities.
    As you know, over the last 4 years, our Department has 
worked closely with the Department of Housing and Urban 
Development on a range of initiatives to promote transit-
oriented development. Last year, your Committee directed the 
Department of Housing and Urban Development and the Federal 
Transit Administration to continue this work.
    Specifically, you asked us to identify creative ways to 
support transit-oriented development with an affordable housing 
component. I am pleased to report we have made good progress 
and are building on that work.

                           DOT/HUD TASK FORCE

    Today, my Department and HUD are announcing the creation of 
a new, high-level interagency task force to better coordinate 
Federal transportation and housing investments. This 
partnership will help American families gain better access to 
affordable housing, more transportation options and lower 
transportation costs. We have identified strategies to give 
American families more choices for affordable housing near 
employment, access to shorter commutes and safer and healthier 
sustainable communities. We will do more than ever before to 
ensure that these goals are realized.
    Our Departments will work to coordinate regional 
transportation, housing and land use planning. We will 
encourage metropolitan planning organizations to conduct this 
integral planning to help them assess their future growth 
alternatives.
    Transportation is the second highest cost for American 
families, behind housing. So fostering mixed-use, high-density 
development and affordable housing near transit hubs is key to 
reducing this cost and fostering economic growth.
    We will identify best practices. We will create new ways to 
measure, track and evaluate livable factors at the local and 
regional level, and we will engage in joint research. These 
efforts will help communities to plan effectively for the 
future and encourage them to focus on livability issues.
    In addition to our partnership with HUD, the DOT policy 
office is also developing a Departmentwide livability 
initiative. Fortunately, many on-going programs already 
contribute to this effort, ranging from bicycling programs to 
congestion mitigation and airport noise reduction. But more 
needs to be done to promote strong and connected communities. 
Everyone in urban and rural communities alike needs safe and 
affordable access to work, medical services, schools, shopping, 
recreation and other essential activities.
    And our transportation investment decisions must be 
consistent with our policies on greenhouse gas emissions. These 
and other issues will inform our livability policy.
    In the coming months we will work closely with Congress and 
our stakeholders on a new authorization package for surface 
transportation. I hope and expect to make livability a 
centerpiece of the final proposal.
    We have a clear opportunity at this moment in our history 
to offer bold new approaches to the way we plan, design and re-
energize cities and communities across America. We must use 
this opportunity wisely to revitalize our downtowns, foster 
walkable neighborhoods and bring people, employers and housing 
closer together through public transportation. Livable 
communities are essential to a vibrant, sustainable America.
    I look forward to working with you, with the Congress, the 
Department of Housing and Urban Development and the 
transportation community on achieving our goals for livable 
communities.
    Thank you, Mr. Chairman. And thanks to the subcommittee for 
offering the opportunity to present our testimony today.
    Mr. Olver. Thank you, Mr. Secretary.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. And now, Mr. Donovan from HUD.

             Opening Remarks of the Honorable Shaun Donovan

    Secretary Donovan. Thank you. I am also very pleased to be 
here today to testify before the committee on the importance of 
an integrated approach to housing and transportation. It is 
especially gratifying to be here with my colleague, Ray LaHood, 
from the Department of Transportation.
    Our presence here is a tribute to your awareness, Chairman 
Olver, of the need for our Departments to work together to 
address the many intersections of Federal housing and 
transportation policies and programs. I am excited by the 
potential for this partnership to improve housing and 
transportation choices for all Americans.
    HUD's central mission, ensuring that every American has 
access to decent, affordable housing, can be achieved only in 
the context of housing, transportation and energy costs and 
choices that American families experience each day. During my 
confirmation hearings, I indicated that with the economic 
fallout across the country, the first step to fulfilling that 
mission was to address the foreclosure crisis. That is why the 
administration worked swiftly to establish the President's 
Housing Affordability and Stability Plan, a plan that not only 
helps responsible homeowners at risk of losing their homes, but 
prevents neighborhoods and communities from decay.
    As we act in response to the crisis, we must also turn our 
attention to the factors that stressed many families' abilities 
to make ends meet. Over the last few years, many homeowners and 
renters have traded high housing costs for high transportation 
costs in their search for affordable housing.
    Affordable housing was affordable only when gas prices were 
low and the broader economy was strong. The average American 
household now spends 34 percent of their annual budget on 
housing and 18 percent on transportation, a combined total of 
52 percent of their budgets wrapped up in these, the two 
largest single expenses.
    For low-income, working families, the impact is more 
serious, with transportation representing almost a third of 
their costs. For these families the expense of transportation 
poses a particular burden, inhibiting wealth creation, 
hindering home ownership and pushing family budgets closer to 
the brink.
    As decentralization and accompanying sprawl have increased, 
the spatial mismatch between the location of affordable housing 
and employment and educational opportunities in metropolitan 
areas has worsened, hurting metropolitan economies. Fewer low-
wage families can find housing near their work, as affordable 
housing remains disproportionately located in urban and older 
suburban areas. And businesses located in those areas must find 
workers who can commute, incurring higher transportation and 
energy costs.

                      TRANSIT-ORIENTED DEVELOPMENT

    In response to these challenges, State-, local- and 
regional-level actors have pursued innovative solutions. These 
local projects point to the need to coordinate Federal action 
across agencies. Our local counterparts in Chicago have already 
recognized this and undertaken an ambitious, integrated land 
use and transportation plan, the Go to 2040 plan, to address 
projected growth in population and employment.
    Cities and suburbs across the country have been increasing 
their focus on transit-oriented development. Denver is in the 
midst of a plan that facilitates transit-oriented development 
with special attention to the land use that is appropriate for 
each area of development, recognizing that a civic center 
downtown will support very different development than an older 
urban neighborhood.
    Careful data collection in the cities and suburbs has 
demonstrated that the cost savings associated with living near 
transit are significant. A study of four neighborhoods in 
Minneapolis/St. Paul found that the combined costs of 
transportation and housing are most affordable in areas best 
served by public transit, with an average savings of $3,000 
annually.
    To reinforce and support these local initiatives, HUD will 
work closely with the Department of Transportation in the 
coming months and years. Last year, your committee directed HUD 
and FTA to identify incentives and take other actions to 
support transit-oriented development that includes mixed-income 
housing and other affordable housing choices.
    Mr. Chairman, it is an honor to say here, in light of all 
your hard work over the years to join housing and 
transportation planning, that Secretary LaHood and I will build 
on the principles laid out by that HUD-FTA working group and 
announce today a broader HUD-DOT partnership to address the 
critical issues our Departments jointly face.

                   SUSTAINABLE COMMUNITIES INITIATIVE

    As the President noted in his initial budget submission, 
our detailed plan will include the establishment of a 
Sustainable Communities Initiative. As you know, I cannot go 
into great detail about this plan, but I would like to speak 
generally about some elements I hope you will find compelling.
    First, HUD and DOT will jointly administer a fund to 
encourage metropolitan regions, via competition, to develop 
integrated housing, land use and transportation plans and to 
use those integrated plans to drive the planning and decision-
making of localities. The goal of this initiative is not just 
to develop plans; it is to set a vision for growth that is 
tailored to distinct metropolitan markets, and then apply 
Federal housing, transportation and other investments in an 
integrated manner that supports that broader vision.
    These efforts will benefit urban, suburban and rural 
communities. Given the decentralization of people and jobs, 
estimates show that nearly 50 percent of people who live in 
rural places live within the boundaries of metropolitan 
statistical areas. This requires a level of integrated planning 
that spans jurisdictional boundaries in new and unprecedented 
ways.
    As we work towards an integrated planning process, we will 
refine the definition of affordability in America. The costs of 
transportation now approach or exceed those of housing for many 
working families, yet Federal definitions of housing 
affordability fail to recognize their interdependence. We will 
work to jointly develop with the Department of Transportation a 
housing and transportation affordability index that will inform 
consumers and businesses about their choices in real time.
    In the coming months, we will be conducting an intensive 
review of programs to ascertain how to support the marrying of 
housing and transportation and to emphasize location efficiency 
in all that we do. In housing programs, for example, perhaps we 
can preference those projects that give participants choices 
for public transit, employment opportunities and other 
important advantages. I pledge to you that we will subject all 
of our programs, including FHA, to a rigorous review that 
determines how we can orient the business of our Department in 
support of this integrated planning.
    Finally, we will also establish a jointly administered 
research and evaluation effort. This effort will aggressively 
engage in joint data development, information platforms, 
analytic tools and research to better track housing and 
transportation expenditures by location. It will establish 
standardized and effective performance measures, engage in 
rigorous analysis of the transit-oriented development projects 
already in existence to identify best practices and evaluate 
location-efficient mortgages and energy-efficient mortgages. 
This data collection, research and evaluation will serve not 
just Federal programs, but will be shared to move information 
into the marketplace and inform private investment decisions.
    This partnership between DOT and HUD is part of a broader 
effort to ensure that Federal housing policy supports not only 
sustainable communities but also enables the construction and 
renovation of energy-efficient homes and building. In the face 
of sweeping climate change, our two Agencies and others we have 
partnered with and will partner with, like the Department of 
Energy and EPA, can have a significant impact on creating an 
energy-efficient-built environment in the coming decades.
    Your efforts in the American Recovery and Reinvestment Act 
have given us a jump-start on that effort. A significant share 
of this funding is eligible for energy efficiency and green 
building practices in public and assisted housing: $4 billion 
for public housing modernization, $510 million invested in 
Native American housing, and $250 million for energy retrofits 
of assisted housing.
    The steps we have already taken and the partnership we have 
committed to today will help us integrate the Federal 
Government's policies and investments in housing and 
transportation. In the coming months, HUD will work with DOT to 
improve coordination between our Agencies and apply the 
principles I have discussed with you today to programs 
throughout my Department.
    Thank you, Mr. Chairman. I look forward to answering your 
questions.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                       REGIONAL PLANNING AGENCIES

    Mr. Olver. Well, thank you very much. The two of you have 
given us a great deal to think about, and I think we will have 
a very interesting conversation here today.
    First, let me say I really want to applaud you for this 
announcement of the partnership with HUD, between the two of 
you, HUD and Transportation, to develop your Sustainable 
Communities Initiative. I am going to be waiting with almost 
bated breath, certainly impatiently, to see the details of that 
and how that works out in the budget submission later on in the 
year. We may have some questions along those lines along the 
way.
    I would like to ask you, Mr. Donovan--you had mentioned 
some experiences in Chicago and Denver and Minneapolis; I think 
I have them right. You work with the exact same regional 
planning agencies on affordable housing issues that 
Transportation works with for all of the transit-oriented 
issues as they go into the States and to the local, regional 
planning agencies.

                   SUSTAINABLE COMMUNITIES INITIATIVE

    Can you give me a sense, the two of you together--not 
exactly speaking at the same time, but to the question of how 
you are going to actually reach out to those regional planning 
agencies--to get them into the swing of things as you roll out 
the Sustainable Communities Initiative?
    And I guess I should let--well, Mr. LaHood, do you want to 
answer that first or----
    Secretary LaHood. Well, we haven't choreographed this, Mr. 
Chairman, but I think the way that we should approach this is 
to invite all the stakeholders to Washington, or a 
representative group of them. We can tell them sort of what we 
have in mind, but more importantly, listen to them about how we 
can work with them and use the talents they have in the 
communities from which they are coming in terms of their 
ability to carry off the kind of coordination that both 
Secretary Donovan and I want to accomplish.
    I say that because even before the President signed the 
American Recovery and Reinvestment Act of 2009, we at DOT 
invited all the Secretaries of Transportation to Washington. 
Forty-three of the fifty-three came. We wanted to ask them if 
it was possible to implement the $28 billion program in the 
time constraints established by the law.
    It was a very, very good meeting. Forty-three came and 
shared good ideas about how we could work with them to do what 
was necessary under the law to get this money out the door.
    I think we need to get a good representative group of 
stakeholders involved and bring them to Washington to share 
with them what our vision is, but also to find out if that 
comports with what they would like to do out in the 
communities.
    Mr. Olver. Mr. Donovan.
    Secretary Donovan. I think that is exactly right. And we 
have--this is not just a question of us going out. We have 
already heard around the recovery act and, more broadly, 
enormous interest. Many folks are already coming to see us 
about those plans.
    And as you know, the real energy and initiative around 
these ideas has been at the local and the regional level, to 
date; I know from my own experience in New York, as well as the 
other plans that I have seen, that I talked about in my 
testimony.
    I think the issue we are really trying to address with this 
Sustainable Communities Initiative and the broader partnership 
is that, if anything, at this point, the Federal Government 
does very little to help and, if anything, hurts those efforts. 
We have, in Community Development Block Grant and other funding 
programs at HUD, requirements for 1-year and 5-year plans. 
Transportation has requirements for 1-year and 20-year plans 
that don't link up in any way currently.
    We also have done very little, frankly, to provide funding 
for the kind of regional, integrated planning that we are 
talking about; and I think the Sustainable Communities 
Initiative is directed at trying to support some of those 
efforts.
    I think also the research that I talked about in my 
testimony is guided at really trying to build a set of best 
practices. I hear from many areas--rural areas, metropolitan 
areas, urban areas--that they are very interested in this kind 
of planning, but don't know how to proceed. I talked about some 
of the best examples, but many others that haven't made much 
progress and need the kind of guidance and assistance that, I 
think, really developing jointly best practices could help to 
lead to in those areas.
    So those are a few ideas.
    Secretary LaHood. Can I just say one other thing, Mr. 
Chairman?

                          LIVABLE COMMUNITIES

    There are actually communities such as Portland, Oregon 
that are right on the cusp, thanks to people like Earl 
Blumenauer and Mr. DeFazio and the Senators. If we give them a 
few more resources, particularly transit opportunities for 
streetcars they can create a truly livable community. I have 
talked to them at length about this.
    We have inhibited their ability to do it, but some 
communities have done it in spite of Washington, D.C.
    Mr. Olver. Well, I think there may be some regional 
planning agencies which will be enormously pleased to hear that 
you might come out and listen to them at some point or draw 
them here. You may want to go there, but after it quiets down 
here a while--things are a little bit hectic at the present 
time in getting your Departments together.
    And the second thing, I think, would be a joint plan for 
getting your vision to the two authorizing committees for the 
areas that you of T&I and, of course, Financial Services, to 
get some of the ideas directly into the legislation, as 
appropriate.
    Thank you.
    Mr. Latham.

                                GAS TAX

    Mr. Latham. Thank you, Mr. Chairman. And I am sure Mr. 
LaTourette down here, having been an authorizer for a long 
time, will learn the wisdom of the Appropriations Committee 
here very soon.
    I, too, I want to congratulate both of you for your efforts 
in working together. It is not often in government today that 
we see the kind of coordinated effort that you are talking 
about to address a real problem. And I do congratulate you on 
your announcement today.

             FUNDING FOR SUSTAINABLE COMMUNITIES INITIATIVE

    Ray, Secretary LaHood--do I have to call you Secretary 
LaHood? Okay. In the report, you are recommending major 
subsidies for housing, community development, infrastructure; 
and I make the presumption that that would mean probably fewer 
cars and ideally, less gas burned. And I guess the big question 
is always how you pay for it, and under that scenario, who 
would be responsible for maintaining the Nation's roads and 
infrastructure? Gas tax isn't sufficient today to do that, as 
we all, unfortunately, well know.
    I do look at the effect--and, you know, my district is 
probably more rural than what yours was even--how this affects 
rural America. When the gas prices go way up, a lot of these 
people who are low-income have to drive the farthest, have 
the--least energy-efficient vehicles to get to their jobs that 
are 20, 30 miles away.
    Do we raise the gas tax, raise tolling, some kind of 
driving penalty somehow, or just take it out of the general 
fund? Is there an answer to this question?
    Secretary LaHood. We have benefited in America from the 
Highway Trust Fund. It built the Interstate Highway System. 
People from around the world come here to look at our 
Interstate System because it is the model, just as we go over 
to look at their high speed rail because it is the model.
    But I, along with many of you gathered here, voted for an 
additional $8 billion to restore the balance in the Highway 
Trust Fund last year because it was running low, and it will 
probably run low again towards the end of the fiscal year. So 
we have to think creatively. I have consistently talked about 
thinking outside of the box, and building on the Highway Trust 
Fund.
    This Administration is not ready to raise gasoline taxes 
when the economy is as bad as it is.
    But the Highway Trust Fund can still be a part of how we 
pay for our transportation system. Another part of it can be 
public-private partnerships; perhaps an infrastructure bank, 
which has been proposed in the Senate. For example, I rode on 
I-95 in Miami about 2 weeks ago. They built another lane along 
I-95, and they paid for it with tolls. It works, and it has had 
public support.
    In Los Angeles County, they passed a referendum to help pay 
for their infrastructure needs. So there are lots of ideas out 
there, and I think we should consider them seriously.
    I hope all of you will consider them. I hope the T&I 
Committee will consider them because the Highway Trust Fund is 
not going to fund all our transportation needs. And so we have 
to think outside the box, and I hope people are willing to do 
that.

                              RURAL AREAS

    As far as the rural areas go, I represented a 20-county 
district for 14 years. Almost all of it was rural, and so we 
worked in many different, creative ways to try and get transit 
districts that were close to these rural areas to provide 
service. We also tried to provide programs to help aging people 
who needed medical care to reach big hospitals. Again, we have 
to think creatively, because some people age to the point where 
they can't drive their cars anymore, but they still need to get 
to a health care center or their doctor.
    The purpose here is for Secretary Donovan and myself to 
begin to think outside of the box about how we meet these needs 
in a way that reflects the values of the communities in which 
people want to live.
    Secretary Donovan. If I could just add to that, to build on 
what Secretary LaHood has said, I think what we are talking 
about here is not a zero sum game either; that what we can do, 
as I mentioned in my testimony, given the size and the growing 
size of transportation expenses for the average family, what we 
are looking at here is the opportunity to lower those costs in 
both urban and rural areas.
    If you think about the kind of spread-out development 
patterns that the kind of planning that we have has encouraged, 
what you have done is to not only raise costs, hurt the 
environment, you have also hurt rural areas where pressure on 
farmers and other areas within those rural areas has been a 
significant problem; and you have, overall, raised the cost of 
infrastructure development by having it spread out.
    Whether it is as simple as being able to make a single 
vehicle trip into a town in a rural area, and have development 
centered there, rather than spread out in the way that we have, 
whether it is laying sewer lines and electric lines that are 
much more expensive in spread-out development patterns, I think 
what we are talking about are things that can lower costs--not 
just the distribution of costs between different types of 
transportation, but, in fact, lower costs for families and 
lower costs for government.
    As well, I also think there is the opportunity to bring 
private investment into this by providing greater information. 
To date, when you go out and buy a car, there is a number on 
the window that says what kind of energy efficiency that car 
achieves. We have never done that with houses. We haven't done 
that by pricing in location to mortgages very extensively.
    All of those things, by giving consumers the power of 
information, the private market can begin to price that in to 
get private capital flowing to where decisions make sense.
    Mr. Latham. Okay.
    Thanks, Mr. Chairman.
    Mr. Olver. Mr. Rodriguez. The tradition on the committee is 
that we go back and forth in order when people arrived here on 
the scene. So in that vein, Mr. Rodriguez.
    Mr. Rodriguez. Thank you, Mr. Chairman. And good seeing 
you, Mr. Secretary, once again. Let me just also--Mr. Secretary 
of HUD, also thank you for being here with us today, and having 
both of you.
    Let me just--I know you initially started by making some 
comments, and I want to just open it with some remarks and then 
ask you to make any comments that you think might be 
appropriate.
    One is, in terms of getting down some of the regulations, 
not only at the Federal level, but what we might be able to do 
from a State perspective in terms of--the States also have a 
lot of guidelines and regulations, and we need to work with the 
States in reducing some of that.
    Secondly, just an overall comment about, I know that we 
have been somewhat, maybe, negligent in some areas in not 
putting enough resources into our infrastructure. And if it is 
true that the number two cost for families is transportation, 
how do we begin to bring down that cost as a Federal 
Government? And what role can we play in making that happen?

                   LIVABLE COMMUNITIES IN RURAL AREAS

    And thirdly, from a rural perspective, my district is 
probably the most rural in the country and probably one of the 
largest. How--what does it mean to have, you know, livable 
communities in a rural setting?
    And I will ask you to--you know, first with housing?
    Secretary Donovan. I think I mentioned a couple of things 
that are quite important about thinking in sustainable and 
livable ways development in rural areas as well. We have many 
areas where the kind of spread-out development patterns that we 
have have encouraged the sprawl of neighboring urban areas and 
suburban areas to encroach on farmers and have raised taxes, 
have raised infrastructure costs that have hurt the traditional 
rural way of life in this country. I think it is very 
important.
    We have seen examples in a number of metropolitan areas 
where denser, more compact urban development has helped to 
preserve agricultural land and to support the continued ability 
of farmers to make a living and to contribute to those areas.
    I think smarter, more coordinated growth across counties 
that are rural can mean that we don't have traditional towns 
within those areas that die out, whose retail ends up being 
lost to larger suburban tracts that encourage three vehicle 
trips rather than one vehicle trip to go shopping.
    So I think there are a number of ways that thinking about 
what smart growth means not just in urban or suburban areas, 
but in rural areas, can contribute to lowering costs as well as 
promoting the traditional farming way of life that is so 
important to this country.

                              REGULATIONS

    Mr. Rodriguez. Anything on the regulations of both State 
regulations as well as Federal? Because we really need to move 
on getting some of those barriers out of the way.
    Secretary Donovan. Well, we sure have lots of regulations 
that we could talk about.
    My own experience has been that one of the biggest problems 
in--let's say, we are trying to do in-fill development in urban 
areas where it makes sense, accessible to transit, but the 
combination of brownfields and the inability to develop 
brownfield sites, complex building codes, a whole range of 
overregulation, I think, is a real issue.
    And I worked very hard in New York to completely revamp the 
building code, working with our buildings department there. 
That is one example of the kind of things we can do to get out 
of the way of the kind of smart growth and development that we 
are talking about.
    Mr. Rodriguez. Secretary LaHood.
    Secretary LaHood. Well, Mr. Rodriguez, let me say this: I 
was at a Senate Banking Committee hearing with Chairman Dodd, 
and there were probably seven or eight Senators there, and just 
about every one, to a person, complained about the numerous 
rules and regulations surrounding transit funding. I have 
spoken with our transit team about creating a process that 
people can understand that follows the rules and regulations, 
and does it in a way that is much more efficient.
    And so, I take your point on this. I have heard this on the 
other side of the Rotunda, and we are committed to looking at 
these rules and regulations and collaborating between our two 
Departments. I think we can be very helpful in establishing 
rules and regulations, but not overburdening people, and making 
sure that our staff are working together to get these programs 
going in the most effective way possible.
    Certainly in the transit area, which is a big part of what 
we are talking about as far as livable communities, we are 
going to try and make that coordination happen.
    Mr. Rodriguez. Thank you very much.
    Mr. Olver. Thank you.
    Mr. LaTourette.

                           HIGHWAY TRUST FUND

    Mr. LaTourette. Thank you, Mr. Chairman.
    And I thank both of you for coming. And to you Secretary 
LaHood, congratulations. It is nice to see one of our class 
make it and do well.
    One of the sadnesses that I have in this Congress, for 14 
years, the scoreboard in the House Chamber said LaHood, Latham, 
LaTourette. And I could always come in and see how you voted, 
and then I could see how Latham voted, and I knew I needed to 
vote like you did, and not like him.
    And now I am completely rudderless. I don't know what to 
do.
    Mr. Latham talked about the Highway Trust Fund and although 
they are attempting to reorient my thinking from an authorizer 
to an appropriator, you have laid out the case: It is broke. A 
1956 model doesn't work at 18 cents a gallon. There is no 
political will to raise the gas tax.
    Somebody recently talked about vehicle-miles traveled, and 
somebody said, we are not talking about that anymore.
    Your predecessor, Mary Peters, when she was the Secretary 
of Transportation, came in and talked about the many diversions 
from the Highway Trust Fund. It was started to build a National 
Highway System, and now it does transit. It is probably the 
biggest diversion.
    If you look at ISTEA, the allocation in SAFETEA-LU for 
transit is double what it was in 1991 when they did ISTEA. And 
everybody has an important program, a worthy program, like the 
programs that you gentlemen are talking about today. But there 
is only so far you can spread 18.4 cents a gallon.
    Have you taken--I know you are new on the job, but have you 
taken a look at or a thought about that argument that highway 
funding should be highway funding; and if you want covered 
bridges in Madison County, Iowa, if you want transit funding, 
that should be the responsibility of the general fund and it 
should stop throwing things onto the Highway Trust Fund?

                            HIGH SPEED RAIL

    Secretary LaHood. Well, the President personally put $8 
billion in the recovery plan for high-speed rail, and following 
this budget, there will be $1 billion in each year for the next 
5 years. Some people have suggested that we should create a 
trust fund for high-speed rail. It is something we ought to 
think about.
    The Highway Trust Fund is not going to support everything 
we want to do. We need to build on it and think about other 
ways to do these things.
    Transit is really coming into its own, and people are very 
interested in the transit funds in the recovery plan, because 
they see them as a way to get people out of their automobiles, 
onto buses, and onto light rail. Transit is an efficient way to 
move people around their congested communities.
    So we need to think about transit. We need to think about 
high-speed rail, and we need to think about how we fund it all.
    Mr. LaTourette. And I am all with you. I think that as you 
continue to dilute the Highway Trust Fund--and by the way, my 
office is across the hall from Chairman Oberstar, the chairman 
of the Transportation and Infrastructure Committee; and the 
President's budget initiative to tear down the fire walls and 
make everything budget authority and eliminate contract 
authority has his blood pressure up. I saw the attending 
physician in his office a couple of different times.
    Let me talk to you about the high-speed rail, because we 
have been joined now by my Ohio colleague, Ms. Kaptur. We are 
more than interested in that initiative. And if you talk about 
getting people out of the cars, saving the planet, becoming 
more like the Europeans and the Asians when it comes to that 
mode of transportation, I can't applaud more that $8 billion. 
When you put it on top of the $350 million a year that Mr. 
Oberstar put in the Amtrak reauthorization last year, it is 
real money for the first time.
    What we are concerned about, we have read news accounts 
that a line is going to go from Los Angeles to Las Vegas and so 
forth and so on. Have you developed a strategy or a plan as to 
how you are going to dole out the $8 billion? Just selfishly, 
the Midwest is ready to go. Ms. Kaptur and I would love to see 
a line from Chicago to Cleveland. And to make it more 
palatable, we will even have it to go up to Duluth, Minnesota 
so we get Oberstar's support.
    But have you figured out how we are going to compete for 
those funds? And are you able to tell us that we are going to 
have just as good a shot, if we have a worthy project, as 
somebody else?
    Secretary LaHood. I want to make it very clear, this $8 
billion was put in the recovery bill by the President. He 
directed his chief of staff to put the money in there. I 
believe that this President really believes that we need to 
jump-start our ability to develop high-speed rail in America. 
And we have sent the President a memo which outlines several 
prime corridors in the country. Some are just in the beginning 
stages, and could use some money for a study. Some are at 
another stage where they have passed referendums to set aside 
money to help themselves get high-speed rail going. Other 
communities are in between.
    So my point is, the President has a memo, and we are 
waiting for some guidance in terms of where we can begin to 
talk about how many dollars are needed, over what period of 
time, to really get high-speed rail in two or three places in 
the country.
    And as soon as we do, we will let you all know about it.
    Mr. LaTourette. Thank you so much.
    Thank you, Mr. Chairman.
    Mr. Olver. Ms. Kilpatrick.

                                PLANNING

    Ms. Kilpatrick. Thank you very much, sir.
    To Secretary LaHood, it is certainly good to see you. It is 
refreshing to see a former Congressperson, who understands how 
we work, in that seat. Congratulations.
    And to you, as well, Mr. Donovan--Secretary. Thank you very 
much.
    This is an opportunity in time that we have in our country, 
with the downturn and all that it represents, to do exactly 
what you are talking about: livable communities that are 
connected through transit and housing, that everything else 
stems from through transit, is all kind of development. So I am 
excited about it. The downturn of the economy is bad, but it is 
also an opportunity; and that is how I like to look at this.
    With what you have brought us today in the planning and 
understanding of the President, how we move forward from here 
using the resources that we have, it is important that we not 
miss the opportunity.
    The MPO in my area, every year we put--every 10 years, this 
10-year plan. You have probably seen them on your shelves--this 
thick, and we never get through them. I want to throw that 
playbook out; I think it is time for a new playbook, and what 
you all have presented to us today is the beginning of that.
    How we get to it depends on how the two of you work 
together and how we move forward on that. So the first thing I 
want you both to do is, in Transportation, the MPO, the book 
they are using, please have them throw it out and let them know 
what we are talking about this morning. That has got to be 
first because everything is going to be local.
    I almost think we need a local transit-oriented development 
person both locally and in our State DOTs to be on the same 
page so that we kind of march together.
    And then, between your two organizations, there are some 
conflicting rules and regs that relate to, for example, 
duplicate planning, zoning--something has been mentioned about 
that--parking requirements, other kinds of permitting. That--as 
you bring that together, not only will it change the 
administration and free up some dollars, because we are moving 
now into sync in another way in this decade.
    By the end of the decade, phased in over time, we will see 
some of this happening. It is a real opportunity.
    So, Mr. Donovan and Mr. Secretary, first of all, all of 
what I just said, what do you think about--if we just leave it 
here in D.C., it won't happen. It has got to be State--MDOT, in 
my case, Michigan, and all the other DOTs as well.
    It may even have to be a local something; and even the MPOs 
that are put together and authorized in Federal legislation, we 
need to take a look at those, too. If we leave it here just 
with us, I am afraid we will lose the moment.
    Can you comment?

                  SUSTAINABLE COMMUNITIES INITIATIVES

    Secretary Donovan. I couldn't agree more. So much of the 
energy and engagement around these issues has been at the State 
and local level.
    And I know from my own experience, when we were looking 
under Mayor Bloomberg's leadership in New York to significantly 
expand both the capacity for housing, to grow the housing 
supply in a transit-oriented way, but also to begin to use 
inclusionary zoning as a way to make sure that we got a mix of 
market-rate and affordable housing, we were looking for models 
around the country. HUD was not able to be of assistance to us.
    So I think that the first thing that we need to do is to be 
able to provide technical assistance, to provide leadership to 
local areas around what are the best practices, who has the 
best examples of these programs.
    And then I think we need to move to actually support these 
kinds of integrated planning efforts with funding. It is 
something that, again, you will see as we release more details 
of the budget proposals, that this Sustainable Communities 
Initiative that we are talking about can operate at a 
metropolitan planning organization level, but it can also 
operate, in terms of zoning and other planning, to support 
local efforts to have best practices, to have new ways that 
this is done, building on what has been done in local areas.
    Just to be very clear, planning is one of the most 
important local responsibilities. We are not talking about 
dictating that they have to have follow in these directions, 
but supporting local areas that are interested in these things 
with planning dollars, with best practices, I think, is a very, 
very important direction that we need to move.
    Ms. Kilpatrick. Okay. Thank you.
    Secretary LaHood, any comments?
    Secretary LaHood. Well, I do think that the partnership 
that Secretary Donovan and I are forging is the kind of 
partnership we want to form with the communities, whether they 
be metropolitan planning organizations, cities, or the 
Governors. When it comes to transportation issues' we need to 
form these partnerships if we are going to develop livable 
communities in the areas where people want to move.
    We are going to have to be flexible, too, in trying to 
develop the kinds of opportunities that both of us and, I know, 
all of you believe are possible.
    So I think partnership is probably the best word, and we 
need to take what is going on in Portland, Oregon, in terms of 
livable communities, and see if they can share that expertise 
with some of us.

                       PRESIDENT'S BUDGET REQUEST

    Ms. Kilpatrick. And when will we get the budget numbers? We 
are waiting with bated breath for the budget. When will we get 
that?
    Secretary Donovan. There has been the broad outline of the 
budget that included some discussion about sustainable----
    Ms. Kilpatrick. That is words and paragraphs that 
authorizers use. We do dollars and decimals.
    When might we get that.
    Secretary Donovan. I believe that it will be mid to late 
April is my understanding of when these details will be 
available.
    Ms. Kilpatrick. And then you expect us to pass a budget 
before we get that?
    That is rhetorical; that wasn't really--thank you, Mr. 
Chairman.
    Secretary LaHood. You need to get Mr. Orszag to come by and 
talk to you.
    Mr. Olver. Thank you.
    Mr. Carter.

                             WESTERN STATES

    Mr. Carter. Thank you, Mr. Chairman.
    And welcome, both of you. I am especially glad to see my 
friend, Ray LaHood. He always gave me good advice when I was 
here and kept me out of trouble most of the time. So I am glad 
to be able to talk to you.
    Of course, I live in a little different environment than 
the one you are describing. There are 254 counties in Texas, 
and at least three of them are the size of several States on 
the eastern seaboard. And so we have a little bit different 
challenge.
    And I may be wrong, but I think--my wife is from Holland; 
they have probably got one of the best transportation systems 
on the face of the Earth. If you want to see bicycle paths done 
right, go to Holland. They have their own signals. They have 
their own cement roads and brick roads. And it is a whole 
integrated transportation system.
    I used to ride from Schagen on the North Sea all the way to 
Delft and beat every car that left my neighborhood by 30 
minutes. So I understand bicycle paths and concentrated 
efforts.
    But, in turn, in Texas, the city that I grew up in is 
Houston. In 1959, I made the mistake of hitchhiking back home 
to see my folks. It turned out they weren't there, and I found 
out it was 68 miles across Houston for me to get to my house. 
It was a bad day; we won't go into that.

                              URBAN SPRAWL

    Right now it is about 150 miles across Houston, okay, so it 
is urban sprawl defined. And if I understand what you are 
trying to do, you are trying to develop what I think very much 
fits the East Coast and Midwest model of cities, but doesn't 
seem to fit the Texas model of cities too well, concentrating, 
reconcentrating the--and redensifying existing cities and 
basically stopping the growth outside of the cities.
    Texas is land rich, a lot of other things poor--well, we 
won't admit that, but that's the way we have built our State. 
So land is the cheapest thing we have got, and that is why our 
cities spread out all over the world.
    I am 34 miles from Austin. If I got to Austin without a 
car, I couldn't go anywhere, okay, not at any time. So when you 
put this transit plan--as you apply it to a large Western State 
like the State of Texas, some real adjustments are going to 
have to be made or else you are going to have to put an awful 
lot into inside-the-city mobility. Because, quite frankly, 
there is just limited bus service in Austin, and Austin is 
probably the most progressive city in the State.
    So those are the--these challenges. I hear about rail; in 
fact, we are opening up a rail project, supposed to have opened 
on the 15th of April, from Leander, which is 35 miles from 
Austin, into Austin. Unfortunately, the mobility group lost 
$200 million, and so it is going to be delayed a little bit.
    But the point is, the real question is going to be on 
whether, when people ride that train and get to town, can they 
get to work? Because really there is not any way--if you drop 
them off downtown, they are 16 miles from IBM; they are 14 
miles from Motorola. So there are big spaces that have to be 
covered, and there is no transportation authority that will get 
you there in any reasonable length of time.
    So as you plan this out, have you thought out the real 
complications of, we are a barrier-less State. We don't have 
any national land barriers or anything else in our State. So--
whereas California is limited by mountains and so forth. So are 
you looking at the sprawl that we have, by the very nature of 
our cities? And how would you resolve those issues with your 
idea of a European-style city?
    Mr. Olver. May I just say, Mr. Carter, has taken all of his 
time to lay out that question, a very short question as it 
comes down to it. So take not more than a minute between the 
two of you, 30 seconds each as an answer here.
    At this point, we also have a set of votes that has just 
been called. So we have about 10 or 15 minutes before we have 
to go, and we will get as far as we can here.

                      DEVELOP NEW TRANSIT OPTIONS

    Secretary Donovan. Very quickly, I would love to talk to 
you more about the specifics.
    As I think we both indicated, this is not a one-size-fits-
all kind of planning that needs to happen. Smart growth means 
very different kinds of things in Texas, just in Houston; and I 
know exactly what you mean about the different type of 
development from the East Coast, not being landlocked. But 
still, as we look at future development, there is the 
opportunity, if there is rail coming in, to think about how 
denser development can happen around those rail stops, for 
example, so that as future development happens, it encourages 
lower transportation costs for the kind of--whether it is 
office development, residential development that can be built 
around those stops.
    That doesn't mean stop serving existing development, the 
way it is, but it means, think about, as we develop new transit 
options, as we develop a range of transportation investments, 
that we integrate the way that we plan our housing with that, 
and be able to provide, whether it is energy efficient 
mortgages or other incentives that will help consumers be able 
to benefit from those lower costs that they get by living 
closer in those areas.
    Mr. Olver. Secretary Donovan has taken your time and his 
time on the next question as well. So I would like--we have a 
group of seven votes, and it seems to me it would be at least 
an hour once we do recess.
    I think we will give each person 2 or 3 minutes--Mr. Berry 
is next--and if you will do that, we will get a quick answer 
from one of them. And see if you can do the question in 1 
minute, and we will get one round through and get the four of 
you.
    We will have other chances to talk with each of the 
Secretaries later on, but probably not together.
    Mr. Berry.

                           AFFORDABLE HOUSING

    Mr. Berry. Thank you, Mr. Chairman. I will do my best.
    Secretary LaHood, there was much applause; it was like--
when you were appointed Secretary of Transportation, it was 
like your team making the NCAA tournament. We were all proud 
and pleased.
    And, Secretary Donovan, even though I don't know you, it 
sounds like y'all got some good ideas, and I applaud that and 
encourage you to keep on.
    I have to tell you, it makes me a little nervous; you know, 
the Secretary of Agriculture last week said the solution to 
farmers' support was going to be for them to some way or other 
sequester carbon. I don't know exactly how that works. I have 
been on a farm all my life. But I can tell you this, there is 
nothing that takes the place of cash money. So it makes me a 
little nervous when I hear someone from the Administration from 
New York expressing concerns about farms, especially, I 
suspect, you have never lived on one or made a living there. 
And I offer that as no criticism of you personally, but if you 
are going to take any action, I would encourage you to talk to 
somebody that knows something about it first.
    I also become a little concerned as I hear you talk about 
national land use planning and getting off into that from the 
Federal level. I think that is real dangerous, and it concerns 
me a lot. And I hope that you would consider these partnerships 
with State and local and city and county governments as you 
develop these ideas. I think they are good ideas.
    As far as paying for all of these things, I don't know what 
the method is going to be, but I can tell you this, we have got 
to figure it out and get it done. If we don't, we are going to 
be a Third World country. We are all going to be riding 
bicycles, and hope we don't hit a pothole in the road in the 
process.
    But having said that, I will conclude my remarks and thank 
you for being here, both of you.
    Mr. Olver. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Welcome, Secretary LaHood. Welcome, 
Secretary Donovan, as well.

                      FEDERAL FUNDING ALLOCATIONS

    Let me just get straight to the point. Some States like 
California have created public funding programs to support 
affordable housing projects located near transit hubs. And 
California, which prioritizes these projects and their existing 
funding programs, as well as other States, would greatly be 
aided in meeting our mutual goals.
    If there was a Federal funding stream allocated to support 
the construction of TODs, will you consider a Federal TOD 
program that would allocate construction funds, either 
competitively or through a participating jurisdiction formula 
like the HOME program?
    Secretary Donovan. I think, as you know, the vast majority 
of our funding that we provide to development of affordable 
housing runs through State and local governments. HOME is a 
perfect example. And there are many, if not most, allocating 
agencies that have begun to use energy efficiency and other 
kinds of criteria, like you are talking about, to allocate that 
funding.
    We have not considered at this point imposing requirements 
on HOME that transit-oriented development or something like 
that be a criterion, but it is certainly an idea that we would 
be happy to look at as part of this broader partnership that we 
have.
    Ms. Roybal-Allard. And creating separate funding.
    And let me just say one more thing: When a Federal TOD 
program is finalized, I know that cities like Los Angeles are 
hoping that definition of transit-oriented development includes 
projects that are located within a half-mile radius of public 
transit and that it includes clearly defined transportation 
modes such as light rail, which is being used more and more 
particularly in cities like Los Angeles that hope that its new 
and existing light rail infrastructure would be competitive in 
any new or modified Federal transportation funding program.
    So I just wanted to make you aware of that and hope that 
that will also go into the mix of what you are considering.

                        SURPLUS FEDERAL PROPERTY

    Secretary LaHood, under the McKinney-Vento Homeless 
Assistance Act, which has been a very successful program, 
surplus of Federal property is made available to State and 
local government agencies and nonprofit organizations to be 
used to provide services to homeless persons. Given the high 
cost of land near metro stations, a similar Department of 
Transportation regulation to make surplus property available 
for the development of affordable housing near transit would 
help to address a very huge obstacle to the development of TOD 
projects.
    Would your agency consider a regulatory requirement that 
SAFETEA-LU grant-receiving transportation authorities first 
make surplus properties available to the locality for 
affordable housing development?
    Secretary LaHood. Well, I don't know enough about that to 
really give you a definite answer, but it is certainly 
something I will look into and get back to you.
    Ms. Roybal-Allard. I would appreciate it.
    Secretary LaHood. Of course.
    [The information follows:]

    FTA does not have authority to direct transit agencies to offer 
surplus property to localities for housing. However, as we develop our 
reauthorization proposals, we are closely examining our policies and 
regulations to identify ways to better link housing and transportation 
at the local level.

    Mr. Olver. We will get that question for the record, and 
you can answer it specifically.
    Ms. Roybal-Allard. Okay. Thank you.
    Mr. Olver. Thank you.
    Mr. Price.

                                HOPE VI

    Mr. Price. Thank you, Mr. Chairman. Let me also welcome our 
two Secretaries, especially our friend and former colleague, 
Ray LaHood.
    I want to reflect briefly on what seem to me to be two 
implications of the partnership you have announced and the 
program you are embarking on. And since we have a limited time 
for responses, I will simply accept ``yes'' for an answer, but 
you may want to elaborate.
    The first has to do with you, Secretary Donovan. As you 
know, the HOPE VI program is a shadow of its former self. That, 
I think, is an accurate statement. Yet, it is a program that 
has been uniquely useful and productive in my district and in 
many others. It is one of the most--probably the most--
comprehensive housing program we have in terms of transforming 
entire neighborhoods and integrating transportation elements 
into a healthy kind of development.
    So I would assume that one implication of this joint 
initiative is that we are going to revitalize HOPE VI and that 
we will see that reflected in the President's budget.
    Secretary Donovan.
    Secretary Donovan. Yes.

                    ELIGIBILITY FOR TRANSIT FUNDING

    Mr. Price. Good. All right. That is what I am looking for.
    The second has to do with you, Secretary LaHood.
    Many have touched on eligibility for transit funding and we 
all, or many of us, I think, hope to get past some of the 
limitations and the rigidities of the past formulae. We are 
going to, of course, be reauthorizing that program this year. I 
would assume that this initiative would bespeak the need for a 
new kind of flexibility in the way transit funding is thought 
about and is approved--the funding formulae, the eligibility 
criteria.
    I would gladly swap a lesser Federal share for more 
flexibility, for example, in taking into account creative 
public-private partnerships which often would include a large 
housing element.
    So I would hope that the implications of this initiative 
won't be lost on any of us as we reauthorize our surface 
transportation programs.
    Secretary LaHood. I had mentioned before you came that I 
was at the Senate Banking Committee, and this issue was raised 
by every Senator who was at that meeting. We are going to work 
very hard at the Department to develop an opportunity for more 
flexibility and less bureaucracy when it comes to our transit 
program.
    Mr. Price. Thank you.
    Mr. Olver. I would just comment that the House passed a 
HOPE VI reauthorization with a quite substantial number, in the 
$500 million range, last year that never was moving the Senate 
at all. But it had the strongest provisions for green building 
in it that any such authorization has seen.
    So, with that, Ms. Kaptur, we actually have--you have your 
full 3 minutes.

                          RECOVERY ACT FUNDING

    Ms. Kaptur. Wow. See how fast I can talk. Thank you, Mr. 
Chairman, very much.
    And obviously to Secretary LaHood, welcome back to your 
real home. And we wish you great success in your current 
responsibilities. We are very proud of you.
    And, Secretary Donovan, to you as well, I don't know you, 
but we look--your reputation is very good, and we look forward 
to working with you.
    My request to both of you is probably the same, and that 
is--and I think if we take different districts and we make them 
a microcosm of what you deal with in the other 434 districts, 
maybe a pattern will become evident.

                  TELEVIDEO MEETING OF DOT/HUD ISSUES

    I would like to request a televideo meeting with both your 
Departments, where you would sit here in Washington and gather 
for us the key officials that are important to be in the room, 
and we would do the same back home in the following areas:
    For the Department of Housing and Urban Development, in the 
area of foreclosure mitigation right now, there is great 
separation between various programs.
    Here would be my idea: You find the best people you have at 
HUD. We gather them here in Washington. I am sitting out there 
in Ohio with the best people we have in Toledo and surrounding 
counties where we have 10 percent of our stock foreclosed.
    The various Federal moneys that are coming at us are coming 
down different chutes. I spoke with Chairman Rangel about this 
yesterday, and I said, we need some bigger thinkers about how 
to make the best use of the dollars that are coming at us.
    For example, in the Neighborhood Stabilization Program our 
community of Toledo received $12 million. And I just want to 
focus on Toledo, but--there are other communities, but I will 
just use Toledo as the main example of the largest city.
    Neighborhood stabilization, $12 million; public housing 
authority through the recovery bill, $6 million; CDBG, an 
additional $2 million infusion; the additional funds that were 
there for Section 8; the tax credit funds that are coming to 
us; the housing counseling moneys; the weatherization moneys; 
over at Treasury, the CDFI program; and then the recovery 
bonds. And there may be other relevant bond programs.
    We would like to use the dollars, the hard dollars we are 
getting. We would like to have a conversation about how to 
leverage those. And in a community where you have, last year, 
4,100 foreclosed units, we have to have more than 34 units 
helped by the funding that is coming to us.
    We need to link the discussion certainly between HUD and 
Treasury; I would ask you to please think about that. And 
perhaps you could--John Buckley from Ways and Means, here is 
the person who wrote the recovery bond language. I think we 
need to think about these various dollars and how best to use 
them. And right now they are just--you know, they are coming at 
us in different ways; and I don't think we are getting the 
maximal solution.
    Then, for the Department of Transportation, Mr. Secretary, 
I would like to ask the same, particularly focused with Mr. 
LaTourette on the high-speed rail. If I would have a wish, it 
would be that we could find an easement that would get us off 
the freight rail line. And between Chicago and Cleveland, there 
is a natural gas pipeline that runs. And there are lots of 
issues dealing with how we prepare ourselves for this freight 
rail--or, excuse me, passenger rail discussion. What is the 
role of the Feds? What is the role of the localities?
    We want to involve our county commissioners--frankly, they 
are more knowledgeable than the State people are about what is 
actually on the ground--our county commissioners across the 
northern band of Ohio. And it would really, when you are ready, 
that would be, I think, very valuable to us.
    Beyond that, I wanted to give you a sense of how recovery 
dollars had come down to us in Toledo versus Dayton, two cities 
of similar size, both high rates of unemployment, over 15 
percent. Dayton got $20 million through the transit money. 
Toledo got $8 million.
    We love Dayton. The reason Dayton got $20 million through 
the transit money is because they had some kind of fixed 
guideway system from 25 years ago or something. We don't have 
anything like that. But we have two universities--well, two 
campuses of a university that want to interconnect; and we have 
a plan in place to do that.
    For some reason, our transit authority didn't get anything. 
I just think that somehow in the recovery dollars and the 
transit, if we are really serious about this, maybe a 
discussion there could help.
    And I also just want to throw this idea out. What we really 
need is a new garage in our area. Talk about carbon footprint. 
The city, county and transit authority ought to have one green 
garage. They have three carbon-producing garages, every one of 
them.
    Secretary LaHood. Well, the money could be used for that, 
Ms. Kaptur. The transit money could be used for that kind of a 
facility, and there is no match required.
    Ms. Kaptur. They are so stressed for that, Mr. Secretary, 
right now they have laid off people, they have cut back routes. 
The money just isn't there.
    Secretary LaHood. The transit money in the recovery plan 
can be used for that kind of facility with no match.
    Ms. Kaptur. They are going to use it to retrofit their 
engines.
    Secretary LaHood. Well, we are not going to decide how they 
are going to use it; they will decide that. But if you think 
they need a building, you ought to tell them that and apply to 
the Department for that money. It is available for that 
purpose.
    Ms. Kaptur. But the allocation is $8 million and--I mean, 
frankly, they need the motors in the buses, the engines in the 
buses to be converted, I guess.
    Secretary LaHood. Well, you know what? I will get their 
names and call them. But we ought to start with what their most 
important needs are and then try and build on that in the 
future.
    Ms. Kaptur. But my point is, if we had--though our guideway 
isn't in, we have the proposals. So Dayton gets $20 million and 
we get $8 million; I would appreciate somebody looking at that.
    Secretary LaHood. I will give you an explanation for it.
    Ms. Kaptur. Great. And Columbus got $20 million, too.
    Mr. Olver. Columbus is somewhat larger.
    Thank you very much.
    Mr. LaTourette. Mr. Chairman, could I just ask unanimous 
consent to submit a question to Secretary LaHood, for the 
record, relative to the application by Continental Airlines on 
their ability to enter the Star Alliance?
    Mr. Olver. Everyone, you don't need unanimous consent. We 
will have certainly 3 days to offer questions for the record 
and get those kinds of answers.
    Mr. LaTourette. Thank you.
    Mr. Olver. Yes, that will be possible. I should have said 
that at an earlier point.
    [The information follows:]

    The reason for the difference in funding provided under the 
American Recovery and Reinvestment Act to Dayton and Columbus versus 
Toledo is based upon each city's specific transit system size and type. 
The formula used to apportion Transit Capital Assistance and Section 
5340 Urbanized Area funds uses several factors including: population, 
population density, bus vehicle revenue and passenger miles, fixed 
guideway track miles, fixed guideway vehicle revenue and passenger 
miles, and operating costs. In simple terms an urbanized area (UZA) 
receives a share of the available funds relative to its calculated 
percentage of the national total for each factor.
    The Toledo, OH-MI urbanized area transit data for these factors are 
significantly less that those for the Columbus, OH and Dayton, OH 
urbanized areas. As a result Toledo's percentages of the national 
totals are significantly lower than Columbus and Dayton, as is its 
apportionment.

    Mr. Olver. Well, I want to just thank you very much for 
being here. We have got to go--in fact, everybody should leave. 
I will have to walk a little faster to get to these votes. And 
we will be seeing you, as I said before.
    I thank you very much. And I just wish you the best of luck 
with the initiative that you have taken today. And really, we 
will do our best to work with you as you proceed on this. And 
we will see you again. Thank you.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, March 19, 2009.

    PART II: LIVABLE COMMUNITIES, TRANSIT-ORIENTED DEVELOPMENT, AND 
    INCORPORATING GREEN BUILDING PRACTICES INTO FEDERAL HOUSING AND 
                         TRANSPORTATION POLICY

                               WITNESSES

GRACE CRUNICAN, DIRECTOR, DEPARTMENT OF TRANSPORTATION, CITY OF SEATTLE
MARY A. LEARY, SENIOR DIRECTOR, EASTER SEALS TRANSPORTATION GROUP
JOHN O. NORQUIST, PRESIDENT AND CHIEF EXECUTIVE OFFICER, CONGRESS FOR 
    THE NEW URBANISM
ROBERT PUENTES, SENIOR FELLOW, METROPOLITAN POLICY PROGRAM, BROOKINGS 
    INSTITUTION

                   Opening Remarks of Chairman Olver

    Mr. Olver. The subcommittee will come to order. This is the 
fourth hearing of the Subcommittee on Transportation and 
Housing and Urban Development, and we are now engaged in 
talking about livable communities.
    Over the past few years this subcommittee has urged the two 
agencies that are part of this subcommittee's jurisdiction to 
work together to help communities coordinate their 
transportation and affordable housing plans.
    Yesterday we heard from the Secretary of Transportation, 
Ray LaHood, and the Secretary of Housing and Urban Development, 
Shaun Donovan, on their vision for how we could create more 
livable, sustainable communities across the nation, and I was 
very pleased to hear that the two Secretaries have come 
together to establish a Sustainable Communities Initiative.
    Specifically, this initiative will provide planning grants 
to help communities integrate housing, transportation and land 
use planning, as well as better coordinate DOT and HUD programs 
on research. We will see the details of that when we see the 
budget a little bit later, but they both assured that there 
would be comprehensive plans for how that initiative might 
function.
    As I mentioned yesterday, to me a livable community is a 
neighborhood that links the transportation mobility needs of 
the old and young alike with affordable housing, job 
opportunities, shopping, and green infrastructure. In my view, 
transportation, housing and energy policy have been handled as 
separate spheres or silos with little or no coordination on the 
federal, state and local level for far too long.
    Over the last few years, our subcommittee has promoted 
green building and access to transit within the Hope VI 
Affordable Housing Program. We have urged the FTA to work with 
grantees to incorporate green building practices and standards 
for newly constructed transit facilities, and we have provided 
funding for the Departments of Transportation and HUD to 
explore ways that the two agencies could better coordinate 
transportation and housing programs to promote affordable 
housing near transit.
    This morning we have a distinguished panel of experts and 
practitioners who will help us further explore the 
opportunities and challenges associated with building 
communities that link transportation and housing in order to 
achieve more sustainable, livable communities that serve the 
young and old alike.
    From my left to my right is Robert Puentes, Senior Fellow 
in the Metropolitan Policy Program at the Brookings Institution 
and an expert in transportation and housing policy. We have 
Mary Leary, the Senior Director of Easter Seals Transportation 
Group, who has extensive experience in transportation, housing 
and health care issues facing our aging population.
    We have John Norquist, president and CEO of the Congress 
for the New Urbanism and former mayor of Milwaukee, Wisconsin, 
and, last, to my right, we have Grace Crunican, Director of the 
Department of Transportation in Seattle, and previously served 
as the Secretary of Transportation for the State of Oregon and 
the Deputy Administrator of the Federal Transit Administration.
    So we have government people, former and present, at the 
municipal levels, we have the think tanks, and we have the 
nonprofit organizations that do work in this field. We look 
forward to a lively discussion among the few of us who are 
here.
    But usually some more people do come in, and always on this 
day there are a number of different subcommittees that are 
meeting at the same time so we take what we get. We are looking 
to have a good discussion as we seek to build these sustainable 
communities for America.
    With that, let me recognize the Ranking Member, Tom Latham 
from Iowa, for any comments that he would like to make.

                Opening Remarks of Ranking Member Latham

    Mr. Latham. Thank you, Mr. Chairman. I am not going to 
really make any statement other than to note that yesterday our 
hearing was abbreviated somewhat by votes, and I am looking at 
the schedule here. I see this morning, that the same thing may 
happen again. I look forward to the testimony. Thank you.
    Mr. Olver. If everybody is merely waiting for the votes, 
then we will have a quick discussion among ourselves and maybe 
get it all discussed before anybody else can get their words 
in.
    So let us hear from the panel. Your complete written 
statements will be in the record. If you would sort of contain 
your comments at this stage to five minutes or thereabouts that 
would help us move forward, and we will perhaps have questions 
of you for the record from us or the staff or from other 
Members as they come in afterward. I hope you will respond to 
those.
    So with that, we will start first with Robert Puentes.

                 Opening Remarks of Mr. Robert Puentes

    Mr. Puentes. Thank you very much, Chairman Olver, Ranking 
Member Latham and Members of the committee. I am pleased to be 
here today and very much appreciate the invitation.
    The purpose of my testimony is to discuss the connections 
between housing and transportation and the need for integrated 
planning as a way to drive decisions that lead to productive, 
sustainable and inclusive growth. In so doing, I would like to 
share some thoughts about how I think federal policy can 
strongly influence those decisions.
    Between now and 2030, it is anticipated that this nation 
will develop another 213 billion square feet of homes, retail 
facilities, office buildings and other structures. That is two-
thirds the amount of built space in the United States today.
    How and where we accommodate that growth carries far 
reaching implications for the health of our environment, our 
energy security and our economic recovery and will continue to 
impact our metropolitan areas' success and our ability to 
compete globally.
    Unfortunately, at the precise time when this nation 
desperately needs to prioritize its limited investments and 
resources, given the economic downturn, federal policy is only 
slowly coming into focus. There are several problems.
    First, the federal government is absent where it should be 
present on such critical matters as stimulating metropolitan 
problem solving. Next, federal policies addressing housing and 
transportation are compartmentalized and ultimately fail to 
make the necessary connections with land use. Third, in 
addition to being separated, some related federal policies 
actually seem to work at cross purposes.
    Mr. Chairman, the subcommittee should continue to play a 
critical role in the push for better and more integrated 
decision making and reward problem solving that crosses 
disciplines and joins up solutions. Going forward, we need a 
three-pronged strategy.
    First, the federal government should lead by embracing a 
new, unified vision for transportation and housing policy. As 
directed by this subcommittee in 2007, the Federal Transit 
Administration and the Department of Housing and Urban 
Development established a joint working group to coordinate 
activities between the two agencies.
    This has been a worthy effort, and the recommendations from 
this group should be prioritized. However, given the myriad of 
additional needs to coordinate between HUD and other 
transportation agencies, especially the Federal Highway 
Administration, the FTA/HUD Working Group should be elevated to 
a DOT/HUD Working Group.
    The federal government should also lead by directing the 
coordination of long-range housing and transportation plans. At 
minimum, consolidated housing plans should be required to 
report on the relationship of HUD investments to transit, and 
transportation improvement plans should be required to report 
on how the proposed transportation investments support the need 
for affordable communities.
    The federal government could also condition large pots of 
federal funds, especially transportation, on achieving new 
performance goals that would require localities to coordinate, 
innovate and make land use changes.
    For instance, meeting a specific jobs/housing balance by 
increasing accessibility indices; eliminating or converting 
vehicle trips to other modes; providing a fair share of 
affordable housing; or requiring certain percents of housing at 
transit sites to be affordable.
    Second, the federal government needs to empower states and 
metropolitan areas by challenging them to develop truly 
integrated transportation, land use, and economic development 
plans in order to envision how, in what form and what kind of 
infrastructure will be necessary to serve the projected growth 
over the next couple of decades.
    In this regard, the federal government should assist states 
and metropolitan areas in one of their hardest tasks: 
Transcending the stovepiping of disparate programs that remains 
a serious cause of undesirable development outcomes.
    Sustainability challenge contracts could be awarded in the 
competitive process to those that devise the boldest, most 
interdisciplinary proposals to link up local objectives such as 
employment growth, development of low-income housing and 
alternative transportation choices and accessibility with 
national objectives of promoting energy independence and 
environmental sustainability.
    The applications should demonstrate real partnerships 
between some combination of states, localities, metropolitan 
areas, the private sector and citizen advisory groups, and 
eligible projects and activities could include blueprint style 
metropolitan planning and technical assistance, strategic 
implementation, such as regional workforce housing initiatives 
or taking local initiatives like conclusionary zoning and 
making it metropolitan, as well as certain capital investments.
    The third strategy is for the federal government to 
maximize not just its own workings, but that of its partners, 
to optimize metropolitan prosperity. In order to commit to a 
paradigm of integrated decision making, a major overhaul is 
needed in how the federal government collects, assembles and 
provides data and information.
    For one, the definition of affordable housing should be 
redefined to take into account not only the cost of the 
housing, but also the cost of transportation and energy that is 
associated with that housing. Only the federal government can 
ensure that multi-agency coordination necessary to keep the 
databases that such disclosure is dependent on of high quality 
and up-to-date.
    With the nation's housing and transportation challenges 
escalating at the same time that growth and development and 
climate change and energy security issues are on the rise, many 
are calling for the federal government to chart a new path 
forward. Mr. Chairman, I believe rewarding greater coordination 
between housing and transportation would help address these 
related challenges.
    Thank you very much for the opportunity to appear before 
you today, and I look forward to your questions.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Thank you very much. Ms. Leary.

                  Opening Remarks of Ms. Mary A. Leary

    Ms. Leary. Good morning, Chairman Olver, Ranking Member 
Latham and distinguished subcommittee Members.
    It is an honor and privilege to have time this morning to 
share why livable communities with seamless access to 
accessible transportation is such an essential element of long-
term health, wellness and quality of life for older adults and 
people with disabilities.
    The need is great. A compelling example is a story we were 
told at one of our events associated with safe mobility. It is 
about an older gentleman from a rural community. At a town hall 
meeting, this man told local officials that when he can no 
longer drive he did not want to live. A hush went through the 
room and people said oh, my goodness. He shot himself. And that 
is exactly what he did. When he went to a local DMV and he 
could no longer drive, he went home and killed himself.
    So at Easter Seals Project ACTION, a longstanding center at 
Easter Seals, and the National Center on Senior Transportation 
where we partner with the National Association of Area Agencies 
on Aging, we focused on improving the lives of people with 
disabilities and older adults through enhancing mobility 
options. These are cooperative agreements with the Federal 
Transit Administration where we provide training, technical 
assistance, applied research and outreach.
    Over the next few minutes, I will share information and 
best practices from our centers' activities, and from our 
working partnerships we know that collaborating and innovating 
to streamline access to services is the right approach. Now 
with movements such as livable communities, we are gaining even 
more insight into what is needed to enhance the health and 
wellness of Americans.
    Here are a few facts about older adults. They volunteer. 
They help raise grandchildren. They are caregivers. To support 
older adults in these roles, we need to expand sustainable and 
livable communities where everyone can remain at home whether 
or not they have mobility impairments. This is especially true 
given the difference in quality of life and cost between aging 
in place versus aging in an institution.
    Evidence of this need is reinforced by three very, very 
well-documented realities. First, when people lose the ability 
to drive they become depressed, as we have seen. When people 
are depressed, they have reduced health status, and reduced 
health status equates to higher health care costs. If we can 
keep people safely mobile through livable communities with 
transportation options, we will ensure that no one is stranded.
    One of the most compelling practices we see is mobility 
management. We believe that an investment in mobility 
management is one of the single, most effective things that 
Congress can do to help communities assure that the mobility 
needs of people with disabilities and older adults are met and 
thus make their communities livable.
    Mobility managers link appropriate service to individuals' 
specific mobility abilities. They help identify service gaps 
and expand transportation options so that people who can no 
longer drive have other ways to get around.
    Volunteer driver programs are cost effective and popular 
ways to expand services for older adults, especially in rural 
and frontier communities, and in urban regions they are useful 
ways to expand and connect service to existing transit systems.
    Technology is an area of great potential, and several 
grantees are fielding information technology scheduling, 
dispatching and cell phone-based callback systems to increase 
customer satisfaction and coordinate rides. Transystems of 
Massachusetts has also done research for us that studies bus 
rapid transit, approaches to stop announcements and 
transportation service for people with disabilities in rural 
and small urban communities.
    Just as the recent FTA/HUD action plan on better 
coordination of transportation and housing programs suggests, 
in our activities we have found that coalition building is an 
essential and a highly effective way in increasing mobility.
    Planning activities should be pervasive and include leaders 
from the transportation, health and human services, local 
officials, nonprofit, faith-based and business communities so 
that they incorporate the perspectives of key stakeholders. For 
success, we found it is especially important that the users and 
the consumers of these services, older adults and people with 
disabilities, are at that table.
    Coordination creates change and acts as a catalyst for a 
variety of policy approaches to increasing transportation 
access. In one of our publications called Stories of Changed 
Lives, a woman who uses a wheelchair talks about how when she 
was told that she could no longer use paratransit services 
because a fixed route system had become more accessible she was 
actually very concerned about her ability to do that, but once 
she learned how to do it and used it all of a sudden she had so 
much more independence and mobility, and she was so, so happy.
    So we have a vision for livable communities. They are 
places where housing is located adjacent to transportation 
choices, where people can be healthier, where cars are not the 
only means of transportation, where everyone has access to 
walking/rolling paths, safe street crossings with appropriate 
signage and signals and curb cuts and public rights-of-way that 
are easily navigable.
    Where bus stops are safe, well lit and plentiful, where 
light rail and major bus routes have neighborhood feeder 
systems with enough on-demand transportation and where all of 
these services are affordable, well advertised, available, and 
planned and reviewed regularly with user involvement across 
rural, urban, suburban, and frontier environments. The American 
dream cannot be realized without a viable and sustainable 
transportation infrastructure that is a part of the whole 
community.
    Thank you for your time, your support and your vision. We 
need your guidance and leadership to help our country be a 
place where everyone can live inclusive, independent lives and 
we can continue to benefit from the wisdom and experience of 
older generations and ensure the multi-generational 
neighborhoods that we all know we need.
    Thank you very much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Thank you. Mr. Norquist.

                Opening Remarks of Mr. John O. Norquist

    Mr. Norquist. Thank you, Chairman Olver and Ranking Member 
Latham. I am John Norquist, the CEO of the Congress for New 
Urbanism, a group of 3,500 architects, planners, traffic 
engineers, developers, real estate investors, and in this 
climate some former real estate investors.
    We are proud to have been involved in some federal policy 
in the past. The design guidelines for Hope VI were written by 
some of our members under Henry Cisneros' administration at 
HUD. We are very concerned about the design criteria in federal 
programs, and so today I want to talk to you about 
transportation and its intersection with housing.
    I want to compliment you and your committee for bringing 
housing and transportation together. It is a tragedy when 
programs are often silos by themselves, when specialties take 
over the thinking instead of bringing them together with 
synergy, so thank you for doing that.
    One of these specialties is traffic engineering. Current 
road policy has focused on highways, arterials and collectors 
as individual road segments with the goal of reducing 
congestion by adding lane capacity and separating the street 
from the built environment. In other words, getting everything 
out of the way of the traffic.
    The system depends on large road types that attract traffic 
and ultimately grow congested, particularly at rush hour when 
you need them the most. For thousands of years of human 
history, urban thoroughfares have served three purposes: 
Movement, commerce and social interaction.
    This is the street that engineers were trained to build in 
the first half of the twentieth century. It was called the two 
rod street: 50 feet of pavement, eight foot sidewalks, two rods 
from the center lane to the building line.
    This street, Kinnickinnic Avenue in Milwaukee, an old 
neighborhood in Milwaukee Bayview, clearly fulfills the three 
traditional functions of an urban thoroughfare. Here are three 
sets of streets coming together in Wicker Park in Chicago, a 
successful neighborhood that has done well in this economy and 
held its value.
    Most streets today, however, are built for only one 
purpose: Moving traffic. There are huge setbacks so that roads 
can be widened later. There is no money left over then for 
sidewalks, so people end up having to walk on a dirt path along 
an arterial or, as an alternative, they can walk in the gutter.
    When you have lots of streets on small blocks, as in say, 
for example, Northampton, Massachusetts, the streets do not 
need to be so big. Many streets share the burden, giving 
travelers lots of choices, including walking. Networks like 
Northampton are a great setting for jobs, good living, and they 
hold high value per square mile.
    And yet federal and state road policies put over half the 
monies spent on pavement in the United States on grade 
separated highways, the top end of the functional 
classification system.
    We now understand that freeways do not last forever. In 
1973, New York's Elevated West Side Highway collapsed and was 
replaced eventually by a street. With views of the Hudson 
restored, Manhattan's Lower West Side gained residents, jobs 
and vitality.
    In 1989, an earthquake damaged the Embarcadero Freeway, 
which had replaced the Boulevard in 1950. The Boulevard is now 
restored. The freeway is gone, and jobs and residents are back. 
Even the traffic has improved since the Boulevard helps 
distribute cars more evenly across the grid.
    In Milwaukee, without an earthquake, we removed a freeway 
segment, replacing empty lots and surface parking with the 
beginnings of good redevelopment, but by far the most dramatic 
change of all can be seen in Seoul, South Korea, where an 
elevated roadway built on top of a river at the end of the 
Korean War was replaced in 2005 with two surface streets on 
each side of the restored river.
    This is the man responsible, Lee Myung-bak, who was elected 
mayor in 2001. See how happy he is? He had the courage to do 
the right thing, and now he is president of South Korea and 
maybe not quite so happy. He was successful because he embraced 
the complexity of the city. Rising above the narrow concerns of 
traffic specialists, he saw the whole; the combination of 
river, neighborhood and infrastructure, as greater than the sum 
of its parts.
    CNU and our allies at the Institute of Transportation 
Engineers have collaborated on exciting reforms to make 
transportation work for people in communities, not just for 
vehicle movement.
    In cooperation with FHWA and EPA, we developed a manual 
that provides design guidelines to resurrect the street, the 
avenue and the boulevard. These are road types that federal and 
state departments of transportation should allow and encourage.
    Let us start to plan urban and suburban transportation 
movements around highly connected networks of streets and 
transit rather than just individual road segments. We need to 
better appreciate the value of networks like this one, the plan 
of Washington, D.C. by Pierre L'Enfant.
    The street network absorbs and distributes traffic just as 
wetlands absorb and cleanse water. The grid serves as a setting 
for valuable economic and social activity, just as the wetlands 
provide rich habitats for diverse plant and animal life.
    We have learned that paving street beds is not always the 
best answer. Street networks, especially connected with 
transit, make life convenient and strengthen the bonds of 
communities. They also dramatically reduce household driving 
and lower household greenhouse submissions.
    Residents of Atlantic Station, a new neighborhood with a 
walkable street network on the site of an abandoned can plant 
in Atlanta, drive an average of eight miles per day compared to 
the regional average of 34 miles per day.
    Through its partnership with the U.S. Green Building 
Council and the Natural Resource Defense Council, CNU helped 
create the nation's first certification system for green 
development on a neighborhood scale.
    To qualify, these green neighborhoods must have highly 
connected networks of walkable streets with at least 150 
intersections per square mile, including alleys, which just 
happens to be less than the 158 intersections per square mile 
in, for example, Wausau, Wisconsin, just to name a community at 
random of your Chairman, David Olver.
    Anyway, the oversized highways and arterials that the 
federal government typically fund lead to not only higher 
infrastructure costs and carbon emissions, but less viable 
neighborhoods. These road designs should no longer be the 
centerpiece. They should no longer be promoted as the preferred 
option by federal policy. They should be an option, but not the 
preferred option.
    Research by the Center for Neighborhood Technology of 
Chicago and the Brookings Institute confirm that neighborhoods 
with connected street networks and transit service give 
families real relief from high transportation costs. Consumer 
preferences show that people are eager to live in complete, 
convenient, walkable neighborhoods. Future transportation 
policy should support that preference.
    Transportation investments should be at a compatible scale 
with the neighborhood. They should build on rather than 
undermine the efficiency and environmental performance of 
walkable mixed use neighborhoods.
    I urge you to take advantage of the opportunities to 
realign federal transportation policies around sustainable 
networks. Thanks to Senators Carper and Specter and 
Representatives Latourette and Blumenauer, the CLEAN TEA 
legislation now being considered includes language about local 
street and transit networks.
    Likewise, T4 reauthorization is an opportunity to further 
direct investment toward infrastructure that actually adds 
value to communities. Key CLEAN TEA provisions could be 
incorporated in T4 to help move it beyond the predictable 
highways versus transit modal split debate.
    States and regions that receive T4 funds would benefit from 
plans that take into account the carbon impact of their 
transportation investments. Such planning will lead to high 
performance street and transit networks that achieve 
transportation and environmental goals through effective use of 
federal dollars.
    Transportation engineers at CNU and ITE realize that the 
federal highway program must evolve into a federal networks 
program. Congress can help speed that transition by asking FHWA 
to extend its successful contact sensitive thoroughfares 
project to provide research and guidelines for sustainable 
networks formed by those streets.
    Our new President, Barack Obama, has declared his 
commitment to reforming and improving transportation. We need 
only look to the internet, employed so effectively by his 
election campaign, for a telling example of how 21st century 
transportation systems should work.
    Internet traffic makes use of a network of linkages, 
breaking up large volumes of data into small packets and 
distributing them through a web of available nodes. It is fast, 
and it is reliable. The same model applied to transportation 
networks will allow all modes of traffic to flow over multiple 
routes, reducing travel times, making driving, walking and 
bicycling easier and making transit service and emergency 
response more effective.
    CNU, the Institute for Transportation Engineers, the Center 
for Neighborhood Technology and the T4 American Coalition, 
which we are a partner in, are ready to help you to get 
transportation moving in the right direction, adding real value 
to America's communities and economy.
    Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Thank you. Grace Crunican.

                 Opening Remarks of Ms. Grace Crunican

    Ms. Crunican. Thank you, Chairman Olver and Mr. Latham. 
Thanks for holding this hearing today. I think it is an 
important one. It is long overdue, and I am very pleased to see 
that the two Secretaries were here yesterday. It is a good step 
forward.
    When you said experts and practitioners, I would be on the 
practitioners side of things, and I would like to walk you 
through several projects in Seattle. I am first going to start 
with three of the key principles we use in doing our 
transportation and housing coordination.
    As I go through the presentation I just want you to keep in 
mind that Seattle is already built out for the most part. If 
you are going to build a new project, you are going to tear 
down what is there now and recreate. We do not have any 
greenfields to speak of. It is mostly in-fill and 
redevelopment. We have narrow streets and relatively dense 
neighborhoods.
    We have accomplished a lot through leadership and 
coordination of the mayor, council and the region, and there is 
a lot that we have learned from CNU and others as we have made 
progress in Seattle. We have a long way to go, but I would like 
to walk you through some of what we have done.
    In 1994, Seattle adopted an urban village strategy to 
concentrate new jobs, new housing and services near one another 
in a small, tight area. These policies make walking, biking and 
transit, as the other speakers have noted, very viable options 
for us.
    Our concern for housing and housing affordability has been 
enhanced by Mayor Nickels' Race and Social Justice Initiative, 
and he has asked us to coordinate with the communities much 
more closely than we have in the past. It has made a big 
difference, as was mentioned by Mary, that the citizens most 
affected have the most intelligence, in my opinion, to add as 
to what they are looking for.
    The mayor also challenged us to make Seattle the most 
walkable and bikeable city in the nation, and that is no small 
feat in Seattle because we have quite a few hills. Seattle is a 
desirable place to live, and we have enjoyed a strong housing 
and economic market over the last two decades.
    We were sort of the last to slow down with the most recent 
recession, but during the time from 2000 to 2008 the median 
price of a single family home increased 73 percent in eight 
years--it went from $270,000 to $468,000 by the end of 2008--
while the annual median income only increased 31 percent, which 
was from $49,000 to $64,000.
    To combat this, Seattle has in place some requirements and 
incentives for affordability and new development. Three of 
Seattle's aging subsidized housing communities have seen a 
rebirth through the Hope VI funding over the last 10 years. 
This housing has been built near transit and in coordination 
with transit.
    I think an important thing for the committee to understand 
in the relationship in a person's pocketbook, the single 
highest expense that most people have is housing, and the next 
highest expense is transportation. The difference between 
owning a car average about $667 a month for a car and $72 for a 
bus pass in Seattle.
    If you take that difference and you turn that into a 
mortgage, a 30 year mortgage, you can buy $90,000 more of a 
mortgage if you give up a car. With that in mind, we have a 
little thing on our website where citizens can go in and 
measure what the situation is and figure out if they want to 
try a program we have, which is Way To Go, which individually 
allows people to figure out the change in their life from what 
they can do to use bus passes, and we have a program, Zip Car 
Rent-A-Car, in order to make their lives equal to what they had 
before, but leverage that $90,000 toward a mortgage.
    We are working hard to protect our region's landscape from 
heavy commuter traffic and environmental damage. Mayor Nickels 
began an initiative with the Conference of Mayors in order to 
take up the Kyoto challenge at the local level. We now have 900 
mayors that have accepted this challenge to reduce greenhouse 
gases and improve our carbon footprint.
    I have up on the screen New York's carbon footprint. Every 
city has to do their own analysis, and we do not have the tools 
in place right now. I do not think the science is there yet. 
That is something that some of the think tanks could help us 
with, but on the whole you will see from these slides that New 
York City has in the transportation related areas, 20 percent 
of their carbon footnote comes from transportation. In Seattle 
it is 59 percent.
    So we are not that much worse. It is that we have 
hydropower for our electricity, so our buildings are using a 
green source from the beginning. Therefore, our focus has been 
largely oriented towards transportation.
    So in Seattle in 2007 we adopted as a challenge to meet 
this global climate change a complete street policy. The 
complete street policy provides for facilities encouraging more 
people to walk, bike, take transit and support freight 
movement, and it was very much in line with what John Norquist 
was saying about roads that have specialty functions. Instead, 
we are trying to integrate the function; make them accessible.
    So every time we go to repave a street we have a process 
where we go back and look and see; could we add a bike lane 
here? We have a bike plan that calls for certain streets to be 
improved, but as we go through our pavement program if we can 
add a Share-O, which is a shared use lane, or a bike lane, we 
make that improvement.
    This is especially important for those who do not have a 
car, or cannot drive. It provides a place for people to walk. 
We also have a sidewalk improvement program that is underway. 
Twenty-three percent of our city, though it is all built out, 
has no sidewalks.
    The key to our complete streets policy is continuous review 
and improvement and to remember that the car is no longer the 
organizing principle. In some of our western cities and rural 
communities the car has been the organizing principle. We are 
trying to make it one of the organizing principles.
    As I mentioned earlier, Seattle is in the retrofit 
business. Everything we build is usually within an existing 
urban fabric. The three projects I would like to quickly walk 
you through describe how we are trying to put our principles to 
work.
    The first one is in South Lake Union. This is a segment of 
the South Lake Union streetcar. It opened in 2007. It is a 2.6 
mile line constructed in 17 months in financial partnership 
with adjacent property owners. They put in about half the 
money. We did receive about $15 million from the federal 
government, but it was mostly through the process where at the 
local level we distributed the money.
    It was not through the New Starts category. We did have 
some earmarked, but it came through the Federal Highway 
Program, so that is why we were able to construct it in such a 
short period of time. We were not using the FTA New Starts 
process.
    It carries over 500,000 passengers, but, more importantly, 
since 2004 with just these couple of miles of streetcar line we 
have connected 2.9 square feet of commercial office space, 
1,980 new dwelling units, and that is on a base of 2,800 units, 
so we will almost double by the time this gets going, and there 
is about 9,000 new jobs that have come on-line.
    We have connected with that 2.5 miles--those jobs, those 
housing units and commercial office space--with our main, soon-
to-be-open light rail line in a hub called Westlake Center, so 
this extension of downtown has been enabled through this 
streetcar.
    By 2024, the neighborhoods expect to build an additional 
4.4 square feet of office space and add 9,000 new dwelling 
units--that is again on about 2,800 units that were there to 
begin with--and 20,000 new jobs.
    One can see the changes happening in the neighborhood. 
There are grocery stores being built. Parks are being 
redeveloped. These are essential components to shape a 
neighborhood, especially for transforming industrial and one 
story retail to six stories, and in the future possibly 20 
story buildings which will house the mixed use of office, 
residential and retail.
    My second example is a 15 mile light rail segment, which 
will begin operation this summer. It will connect from downtown 
to the airport. It runs through the middle of Seattle's most 
diverse neighborhoods and is shown here by this purple line.
    Building walkable communities sends a signal to the car. It 
says that the car will be put in this place, which is park 
here, and it should fit here. It takes away the dominance of a 
car and puts the dominance--you can build a community for 
people or for cars, and in this case we are orienting toward 
the people and putting the car in its place, so to speak. This 
promotes biking and walking and transit that was not available 
or as available before.
    Over 67 languages are spoken in this particular part of 
Seattle. There is a large immigrant community, and it is 
important to keep the housing affordable. This has always been 
the entryway to Seattle, whether you are talking about the 
Italian community as it moved to Seattle or the African-
American community, and now we have communities coming from 
Africa that land here. It needs to be affordable. It is the 
role that community plays.
    With help from $35 million in Hope VI grants, we replaced 
484 worn out public housing units that were built in 1940. We 
built 850 households that are mixed apartments, townhouses and 
single family. We replaced low income housing with 310 on-site 
units and 174 off-site units.
    New Holly is another example of light rail attracting 
investment, receiving $47 million of the Hope VI grants to help 
replace 871 units. We built 1,400 affordable units and market 
rate housing units with 100 percent low income housing replaced 
on-site with this one.
    Our third example in planning is a project that is in the 
planning stages. We would be transforming Yesler Terrace, 
providing housing and office and retail space. Yesler Terrace 
was built in 1939 and was the first racially integrated housing 
project in the nation and currently houses about 1,200 
residents in 561 apartments.
    The existing community is actively involved in planning for 
the future. The project is solely locally funded and will 
include an existing number of low income units, as well as a 
sustainable amount of market rate housing. We believe 
sustainability and affordable housing can go together, and we 
are trying to achieve a lead gold standard with this 
development.
    The community will be served by an extension of another 
Seattle streetcar project, which was funded through local 
levies. The next segment will connect this Yesler Terrace with 
the regional light rail system and with the major medical 
centers in the city. The retrofit of Yesler Terrace community 
is scheduled to be accomplished by 2014 and will be served by 
the streetcar, as I said before, linking.
    As I said in the beginning, Seattle is retrofitting our 
transportation system. We are improving our productivity, and 
we know we can move many people in different ways. Here you see 
200 people being moved in 177 cars, this is 200 people that can 
travel in three buses, and this is 200 people that can travel 
with 200 bikes. We do not have any bikes made for two, 
apparently, in this slide.
    We are trying to find new ways to manage our right-of-way 
to move more people and goods. Mr. Chairman, Mr. Latham, we 
know resources are tight, and we are trying to get a better 
return on taxpayer dollars.
    Thank you for your efforts to do the same with the multiple 
public policy goals we have been discussing here today.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. These have been very interesting, very 
provocative, I must say, comments that have been made by each 
of you. I may go back to the written questions the staff has 
prepared, but let us start here.
    We are going to go back and forth for five minutes with me 
and then five minutes with Mr. Latham, and we will go back and 
forth until we get reinforcements here or we get the bell which 
takes us off to the next thing. I have thoughts with each of 
your testimonies.
    Mr. Puentes, you put forward a very strong case for 
comprehensive planning. We have regional planning agencies 
which do the planning for all of our transportation 
infrastructure, in that silo, and they also have the 
responsibility of doing the economic planning, at least in my 
area.
    They have the same responsibility for doing regional 
economic development planning and for the concept of the 
regional housing plan, but then in my state--and it must 
change--we do not have strong counties. We have virtually 
eliminated them in the southern part of New England at least, 
but I think in some places, in other places in the country, the 
counties are strong and I do not know exactly how those relate 
then to the local communities.
    In my state, the real question of who plans land use and 
who plans zoning and so forth, ends up being done at the local 
level, and you have a patchwork quilt. The overall regional 
plans may be required for getting certain federal funds in some 
of our silos, ways of looking at it. How do we get around that 
I guess is the question?
    The other point I wanted to make is that in your 
comprehensive plan we really need something in all those 
comprehensive plans that ties energy in. Energy and economic 
development and housing, more broadly economic development and 
transportation, are a three-legged stool in essence for our 
future it seems to me, at least those.
    Ms. Crunican has mentioned the carbon footprint, so the 
question of the carbon footprint and what are the implications 
for energy usage in any of our transportation or our housing 
plans seem also to be how do we get around, though, the 
business? How do we bridge that gap between the local community 
plan? How do we do that in a political way and effectively?

                   CARBON FOOTPRINT AND ENERGY USAGE

    Mr. Puentes. Thank you, Mr. Chairman. It is a very 
difficult question to answer. I would not pretend I have all 
the answers. The local prerogative for local planning is 
something we hold very dearly, no doubt about it, and trying to 
understand that they are not going to voluntarily give up their 
prerogative for local planning is not going to be easy.
    There is, however, a new imperative I think that we are 
facing in metropolitan areas all across the country, and there 
is an understanding that the uncoordinated nature of how we 
plan our communities has ramifications that are not always that 
positive.
    In the northeast and the midwest--you gave examples in your 
district--and other places, the hyperfragmentation of locality 
within metropolitan areas is well understood. Metropolitan 
areas or localities in Pittsburgh and Chicago, places with 
literally hundreds and hundreds of local jurisdictions, each 
with their own local land use by any power, is very difficult 
to overcome, so we know all that.
    The large counties in some southern metropolitan areas like 
this one here in Washington present a different problem. They 
are very powerful, large counties with a million people, more 
like here in Fairfax County, and so they kind of act as their 
own kind of de facto regional organization and so that regional 
planning is a challenge to them as well.
    All that said, I think that there is an opportunity for the 
federal government to incentivize the kind of planning that I 
think many localities and metropolitan areas are now willing to 
experiment, to innovate with. We have seen tremendous examples.
    We have heard from Seattle and from other places--
Minneapolis, Denver, Sacramento. There are numerous examples of 
where metropolitan areas and localities are coming together 
voluntarily and trying to devise their own solutions to bridge 
these tremendously difficult challenges that you have talked 
about.
    I think the federal government, just through leadership and 
a little bit of money, can incentivize those kinds of plans. 
Not direct how it is done, but allow localities and 
metropolitan areas to define their own visions for how they are 
going to grow in the future.
    It is certainly not easy, but I think if there are some 
incentives there that the federal government can provide we can 
start to bridge those gaps.
    Mr. Olver. It sounds like bribing them to do this rather 
than extorting them or something like that.
    Mr. Puentes. Well, indeed, but I think it is more about 
unleashing the innovation that we know that is there. The WIRED 
program, the federal program, I think did that as well.
    There was an Urban Partnerships Initiative that the federal 
government had with the Transportation Department over the last 
couple of years with maybe a little bit of money, but it helped 
unleash those great ideas that are out there.
    And the willingness I think for folks to do something 
different is possible, and I think this program----
    Mr. Olver. I think we are going to need to talk more about 
the incentivization, how we set up incentives that can be 
effective and will work. Mr. Latham.
    Mr. Latham. Thank you, Mr. Chairman. I would indulge you if 
you wanted to go longer on your questions also.
    Mr. Olver. We do not have anybody else here. We can break 
the rules.
    Mr. Latham. I am always interested in the notion that, and 
I think Mr. Puentes mentioned sometimes government programs or 
initiatives are at cross purposes.
    In the economic stimulus bill I think there is $7 or $9 
billion that will be going to have rural America hooked up to 
broadband so that we can keep people in rural areas, keep them 
dispersed out in the countryside, and in fact what we are 
talking about is more urban sprawl when you think about the 
areas that are going to get these funds so that everybody has 
access to high speed internet.
    This is for the whole panel; does anybody have any comment 
on that? I mean, just so you know where I am coming from, I, 
until two years ago lived in a town of 160 people. I lived a 
mile outside of town in the suburbs of 160 people. Rush hour in 
Alexander, Iowa, was when Nancy Schermer went home from the 
bank at 3:00 in the afternoon.
    So we have a lot of different ideas, I guess, about how 
things affect rural America, but are we at cross purposes on a 
bunch of these initiatives? Can you comment? Go ahead, John.
    Mr. Norquist. Well, yes.
    Mr. Latham. Good answer.
    Mr. Norquist. I think your example of the broadband--you 
know, as a former mayor in Milwaukee I always had second 
thoughts about the Rural Electrification Program and all this. 
You know, our constituents----
    Mr. Latham. Be careful.
    Mr. Norquist [continuing]. Subsidize everybody else. Yes.
    Mr. Latham. Okay.

                           ECONOMIC FUNCTIONS

    Mr. Norquist. But then I stopped them after I visited with 
Paul Carver in Dave Obey's office, and I understood the purpose 
of the Rural Electrification Program.
    Just to answer your point, I think there can be cross 
purposes, and that is inevitable in politics, but there are 
things that the federal government does that are 
counterproductive that are not just at cross purposes, but are 
actually counterproductive to economic goals and environmental 
goals, which actually often converge.
    You know, using less energy per unit of production is a way 
to make the economy function better, and that is when the 
metrics are bad and the never ending problem with how do 
regional planning commissions do better work and all that sort 
of thing. It is going to be hard, you know, whether it is 
incentives or anything else.
    But the one thing that really works against good planning 
is bad metrics. In the 1920s there were good metrics. If you 
take the average main street, any main street in a city in Iowa 
if you go around and check--Cedar Rapids, Des Moines, Ames, 
whatever--you are likely to find that exact street with two 
rods from the center lane to the building line, 50 feet of 
pavement and an eight foot sidewalk.
    When somebody went to Iowa State and learned civil 
engineering, that is what they learned, to build that street. 
Now they go there, and they are going to learn to build a 72 
foot arterial with a 20 foot median so you can have a double 
left turn lane with a blown out side, a 100 foot setback on 
each side.
    You cannot build the American main street that you see on 
cookie cans and everything else. You cannot build it anymore. 
It is illegal in most of America. That is a bad metric.
    And so the federal government does not need to necessarily 
intervene more. It actually needs to allow these urban types to 
be part of the federal pavement program. You can see this over 
and over again where there are examples, you know, in terms of 
Republicans trying to be for less government.
    You put your finger on one that is probably popular in most 
rural districts, the broadband thing. It would be hard to 
oppose. But in this case the road metrics should not be looked 
at as pro rural because every little town in Iowa that was 
built before World War II has urbanism.
    You know, the little village of Decorah, Iowa, which I am 
very familiar with because I had a related town in my district, 
well, Decorah, Iowa, has a nice, charming little downtown that 
could not be built new because the metrics that Iowa DOT and 
the FHWA have out there encourage just the exact opposite, and 
that needs to change.
    Male Voice. And we have a great Nordic Fest parade that 
goes right down that beautiful street every year.
    Male Voice. Yes. Yes, sure.
    Male Voice. Go ahead.

                           RURAL COMMUNITIES

    Ms. Crunican. I would point out two areas that might be of 
help. One is on coordinated transportation, which is in the 
rural areas. Some of it does come back to Congress.
    When you have a rural community and you need transportation 
to get to the hospitals--which are not in the rural community; 
they are in an urban area--we have stovepipe programs for 
transportation, and some of them allow both the service and 
transportation in the money that flows to them, and some of 
them have discrete money that goes just for transportation.
    So, you know, in the community everybody knows each other, 
but it is not okay if you get money through the AAA, the Area 
Association on Aging. What is it? Someone in the audience 
knows.
    But the aging program will fund a trip for someone who 
qualifies in that program, Veterans Affairs will fund the trip 
to the hospital for the vet, and there may be a disability 
program either through schools or through welfare programs for 
a child to go, but very often the AAA cannot carry the child 
and the vet to the hospital at the same time.
    It is convenient for everyone to go on Tuesday, but the 
programs do not allow that sharing. It is common sense. 
Everyone out in the rural area knows it is common sense, knows 
that someone goes or would take all three, and breaking down 
those walls is something Congress could do.
    The second area is in highway and transit, the money. You 
have to be very creative and know how to work the system to be 
the most productive with the money. The programs are set up. 
The state FHWA is very comfortable dealing with the state. They 
are very uncomfortable dealing with the cities or the 
metropolitan areas. They feel comfortable getting the okays and 
the certifications through the state.
    Well, in our state the metropolitan area, the Seattle Puget 
Sound area, state highways are extremely important, but the 
orientation Olympia has is the same orientation when I ran the 
DOT in Salem, Oregon. You have to find the right people to go 
work with in the urban areas, but they still have to go home to 
John's traffic engineers that were educated at the state 
college and were told certain standards back in 1965 or 1975.
    They approach the problem like this: The money that federal 
transit gives to the transit system, we have two large transit 
systems. Nobody gives money to the city. I mean, you have to 
really work hard to get the money to come to the city. The city 
is the entity most likely to address the housing problem you 
are talking about and try and make that coordination.
    While we have STP and CMAT, those are the most flexible 
funds, and that has been a success at the local level in the 
three areas I am familiar with--San Francisco, Portland and 
Seattle--because it allows flexibility and it allows the locals 
give and take, but short of that the institutions are all set 
up to really fund a certain provider. They are not looking on 
the ground where the jurisdictions are quite different.
    Mr. Latham. Can we continue with more answers, here Mr. 
Chairman?
    Mr. Olver. Sure.
    Mr. Latham. Okay. Go ahead. Mary, go ahead.
    Ms. Leary. You know, five years ago GAO admonished federal 
agencies on that very issue as it related to transportation, 
and it said there are over 50 transportation programs, over $3 
billion, and that is probably maybe 20 percent.

                       UNITED WE RIDE INITIATIVE

    And so the United We Ride Initiative was born, and the 
really exciting part that we have seen in that, and I was 
privileged to be part of that for the Administration on Aging, 
was there is something called BORPSAT. I do not know if you 
guys have heard this. Doug Birnie always talks about it at 
Federal Transit Administration, but it actually came from 
Connecticut. It is called Bunch of Right People Sitting Around 
the Table.
    What we found across communities in the United States is 
when people have gotten together and they have talked to each 
other; the aging community using Older Americans Act funds 
getting together with the transportation community and 
utilizing Federal Transit Administration funds, whatever they 
are, including the exciting new Freedom Initiative Program or 
Veterans funds or Labor, Education. We have found that they 
have done some absolutely amazing things.
    You know, in some places there were perspectives that they 
were going to have to cut Medicaid funds and then therefore 
there were not as many medical rides available and they were 
actually able to reduce Medicaid funds for rides by opening up 
and increasing the accessibility of the fixed route system. 
They did that in Pennsylvania in Pittsburgh, which they are 
doing a lot of really interesting things there and interesting 
things across the United States.
    And just recently--I mean, this has continued on--the 
Administration on Aging and the Federal Transmit Administration 
just fixed the longstanding cost sharing issue that has just 
been making people crazy at the local level. You can now take 
Older Americans Act Title III-B funds or any Older Americans 
Act funds for transportation, connect that with Federal Transit 
Administration funds to put some of these programs together.
    So there are some successes. We have been trying to break 
down those barriers, and that work is ongoing and there are a 
lot of people still very dedicated to that.
    Mr. Latham. Thank you. Okay. Thank you, Mr. Chairman.
    Mr. Olver. Okay. I think we are going to have to put 
together some questions from the staff, new ones around this 
issue of stovepipe examples that all of you I think know about 
and of incentives that some of you I think have very clear 
ideas about.
    I have a couple of other thoughts here. There will be other 
categories I think that will come forward that we could benefit 
from I think.
    Anyway, I have to go, Mr. Latham. I was wondering what was 
it that was causing the traffic jam when the banker left the 
office? I was thinking that when the banker left the office 
everything else closed up and the roads rolled up.
    I was brought up in a very similar community, about 200 
people, in Pennsylvania. We had a roller skating rink and a 
bowling alley. They were in the same building. The roller 
skating rink was above the bowling alley. That was the only 
recreational thing there in the community. It was 100 miles 
from New York City and had a lake nearby.
    In the early 1900s it had a group of about a dozen boarding 
houses, so it was a summer tourism thing because of the lake. 
Otherwise it was a farming community. I was thinking the only 
traffic jam was at the time that the bowling alley and skating 
rink opened in the evening each evening.
    By the 1950s, the skating rink and the bowling alley were 
dead, and the boarding houses, because cars and motels and so 
forth, people traveling, everybody having a car; those were 
dead. The community was dead. You could have not found anybody 
around.
    But you raised the issue and I was very much taken, Ms. 
Leary, about the example of the gentleman who when his car was 
going to be taken away ended up committing suicide ultimately. 
I suppose we have more than a few of those. That is one of the 
biggest problems for a family when their parent becomes 85 or 
90 or something. You have to take the driver's license away.
    It made me send my staff out because going along with that, 
a couple of times you made a point that especially in rural 
communities there was a difference. We have been talking 
largely about planning in urban areas; the practitioners here, 
largely about urban areas.
    That map over there. I sent my staff out to bring that map 
in. That map shows the pink areas are the counties that are 
losing population in this country, losing population census by 
census for several censuses. When that happens, what is 
happening is that the young people in large measure are going 
away for education and staying away for opportunity. There is 
disinvestment in the services, in transportation, in the 
medical capacities, and so forth.
    You mentioned the problem of where you could get medical 
services and how that might happen. Ultimately of course once 
the young people, the people who are of childbearing age, have 
left then those counties are actually counties that have in 
general the oldest profile of its population, and eventually 
that means that there is going to be a further dive in 
population.

                               BROADBAND

    Now, broadband might provide an opportunity for--might--
education learning, long-distance learning and maybe for some 
jobs to be created there, but I am not sure that we can turn 
that around. I do not know whether you think that can be turned 
around. I think that is part of your question, Tom.
    So I am wondering. How do you think we deal in those kinds 
of communities? It is happening, and really there is a long 
group of those--Iowa and Illinois and in Appalachia. You see 
the pink ones up and down the Appalachian area. The same thing 
is happening. It is the same.
    Those are states and areas that are going to lose 
representation eventually. They are losing population or at the 
point of stagnant population where the population is moving 
from the rural areas into the urban areas where we really need 
to plan with good planning what is going on when we do move 
into the urban areas, but what do we do with the rural areas? 
Tell me.
    Ms. Leary. Well, it is a really, really difficult question, 
Mr. Chairman, and one of the reasons why that story is so 
compelling, sometimes when we talk about things like depression 
and mobility management it seems so clinical. You know, when 
you hear the story you really feel it. It is your gut.
    We learned so much with the civil rights movement for 
people with disabilities over the last 20 years, about the 
triumph of the human spirit, and particularly in rural 
communities what we really find is there is a lot of activity 
around volunteer driver programs and the whole concept of 
mobility management, and taxi services are kind of in some 
cases on the resurge.
    There are also a lot of social services, services that are 
still there. You know, as you have noted, there often times are 
not a lot of services in some of these communities, and you 
really have to leverage what you have so the whole concept of 
mobility management, that is really what it is.
    Mobility managers, when we have them at that local level, 
are those--I like to call them the Marines because every 
mobility manager I have ever met, they have such a esprit de 
corps. They love what they do. They get very connected to the 
people in the community. They understand what they need. They 
get connected to the resources in the community, and they bring 
them together.
    So we really believe that with a strong infrastructure 
connected by some capacity building mechanisms to share best 
practices that a network of mobility managers could be one of 
the most important elements to create mobility.
    Also, we have to redefine what mobility is. You know, so 
often mobility is getting in my car and driving, but if we can 
help people understand that mobility in the United States is 
related to this fabulous transportation infrastructure that we 
have built so citizens can get around whether or not they have 
a car and whether or not they have a mobility impairment, well, 
that would be an amazing thing.
    And then we would not have people being very concerned when 
they can no longer drive, and we would have the greening of 
America. People would be healthier. They would walk more. They 
would stroll more. We always like to say walk and roll in our 
world. And so those are the two things I would say.
    You know, I just got back from listening to either further 
demonstration and grant successes at the American Society on 
Aging/National Council on Aging Conference, and these volunteer 
driver programs and these volunteer programs, you would just be 
so amazed at what they are doing. They are doing really 
essential things, and many folks are using mobility managers as 
a connector for these processes.
    Mr. Olver. In a way you are suggesting we need a much 
broader type of conversation with people who are in the health 
services area, for instance, and other kinds of social service 
areas with what we are talking about about transportation 
disincentives from rural areas either. One of the people who 
came and talked to us earlier said we ought to remove a whole 
lot of the roads in order, I guess, to make the possibilities 
for agri business to be more successful and allow for larger 
family farms, at the very least, if there were going to be any 
left, I am not sure.
    But mobility management, the question of incentives and 
what connection our two departments have to make with other 
departments and other subcommittees to think about this in a 
more comprehensive way. Anybody else want to talk about this? 
Yes?

                      REPOPULATION OF RURAL AREAS

    Mr. Norquist. Well, first of all, on the question of 
repopulating rural areas or any area where you have a 
government program, I would approach it with a little bit of 
humility. I mean, Mao Tse Tung tried to repopulate the rural 
area with the cultural revolution and that did not work out so 
well. So instead I think a better way to look at it is not what 
program could cause a place to repopulate but look at maybe 
there are some programs that are actually causing the problem 
in the first place.
    I have already mentioned road metrics, but let us just look 
at Fannie Mae and Freddie Mac, which have been in the news a 
lot. One aspect that they have which was not intended but ended 
up having some side benefits that have been devastating for 
rural small towns, medium sized towns--getting back to Decorah, 
Iowa, let us look at that, for example.
    Freddie and Fannie both have rules that say that no more 
than a certain percentage, 20 percent in the case of Freddie, 
25 percent in the case of Fannie, can be nonresidential, and so 
the impact on that in New York City is not much because you 
have the first floor and then 30 stories of housing so the 
building is not going to be more than 25 percent of 
nonresidential, but if you go to Decorah, Iowa, and you have a 
traditional main street with the first floor and then two or 
three stories of apartments which was built, you know, 
throughout the history of these midwestern or northeastern 
cities, then all of a sudden it does not fit into Fannie's 
secondary mortgage market and then all the other banking 
institutions copy that regulation.
    Why did they do it? They did it because they wanted to have 
Fleet and Magic and all the other mortgage companies, you know, 
have some way for them not to be dominating the business, so 
that was a restriction they came up with. The unintended side 
effect of it was to not be able to build Main Street. It was an 
unintended side effect, but it should be removed. When you are 
reviewing Fannie and Freddie now and looking at it and trying 
to figure out what to do with it, I would get rid of those, the 
20 percent and the 25.
    You mentioned bowling alleys. Why is not that bowling alley 
in that town in Pennsylvania anymore? Well, one of the reasons 
is parking restrictions. If you look particularly in the 
midwest where this started, somebody went to a planner, maybe 
it was an alderman--we think it started in Ohio. If you talk to 
Don Schoop at UCLA, he sort of studied this, and somebody went 
to a planner and they said how many parking spots should we 
require for a bowling alley?
    For some reason, the planner said five. Five per lane. 
There are only four bowlers in each lane, but five parking 
spots. All of a sudden you started seeing these mega bowling 
alleys being created with giant parking lots everywhere, and so 
you get down to, you know, what it should be. There should be 
no regulation. That should be between the property owner and 
the person that is going to the place.
    You know, if they want to have parking, you know, you could 
restrict it maybe, but you do not want to encourage it. So that 
is why your bowling alley is missing, and that is why small 
bowling alleys started disappearing all over the country. So 
the intervention turned out to be counterproductive. It was in 
a silo, like Grace was talking about. This is an issue that I 
think could bring Democrats and Republicans together.
    If you look at these things, a lot of the impacts are 
really nasty from a social justice standpoint. You get rid of 
the grid, you get rid of all the streetcars in the country like 
federal policy did in the end, and then you start hurting poor 
people really badly. When you look at the expense on the 
taxpayer from doing these, from a Republican standpoint, it is 
the same thing.
    Mr. Olver. I still think that I am looking for ways of 
repopulating the rural areas so much as I am feeling great 
concern for the degradation of the quality of life for those 
who remain to the point where somebody turns out the light 
essentially, so do not mistake my thought for thinking that in 
all but four of the counties of North Dakota that we are going 
to suddenly switch. I do not even think that they particularly 
want it, but whatever. Anyway, back to you, Tom.
    Mr. Latham. Thank you, Mr. Chairman. Interesting debate. I 
enjoy the references to Decorah, Iowa. It is a great community 
there. Mary, just a couple things. First of all, thank you for 
all the work you have done; the same for Jennifer, on the 
agribility over the years. That has been a great partnership.
    My mother is probably going to kill me if she ever finds 
out that I say this, but your point about the health and mental 
health, well-being of the senior citizens is a good one. My 
mother is 90 years old, she was just turning 90, she is 92 now, 
but at that time she was just diagnosed with breast cancer and 
had a mastectomy, which I know she will kill me for saying. At 
the same time she had lost her driver's license and is living 
in Alexander, Iowa, where you have to go 10 miles to get a 
gallon of gas, gallon of milk, and any kind of services, doctor 
or anything.
    Of the two, it was not even close. Losing her driver's 
license and losing her mobility was far more devastating to her 
than her medical condition. The Chairman was just talking about 
repopulating and growing those communities back; I am not sure 
it is possible, but there is no alternative for her, really, as 
far as getting anywhere, other than to drive herself.
    Fortunately, she has got a daytime driver's license now. 
She can go 10 miles. I am not sure about the other people on 
the road. But she is back, so she can go to church and all 
these good things. In Seattle there was an article about the 
restrictions on land use. I do not know if you want to say 
anything, Mary, about that, but I am curious about how the 
restrictions there are have increased.
    You mentioned in your testimony an increase in the cost of 
a dwelling by $200,000. There are different aspects to that, 
but is it going to be affordable for anyone? You were talking 
about the median income of $60,000, $70,000, something like 
that. How can a middle or lower income person live in the 
community like that? It is virtually impossible, is not it, to 
purchase?
    Ms. Crunican. It is getting that way. I mean, we have the 
blessings of success, we have some industries that are going 
great guns, but the price of housing in Seattle proper has gone 
fairly high, as has the entire region, so we have passed a 
housing levy, I think it is up this year for the third 
installment of a seven year housing levy, to help create 
affordable housing and provide incentives.
    We have provided height incentives to developers, so if you 
want to go up a little higher, you have to create a certain 
number of affordable units of housing, and we are looking at 
our HOPE VI grants to help convert, but it is the curse of 
success, I think. The livability also, it is a highly desirable 
place, assuming you do not mind a little rain once in a while, 
to live.
    The jobs are, I think we have something like over 80 
percent of people have high-speed internet service in the city. 
It is an extremely literate city, and it has got high density 
so it is a high-performing city, but the cost of housing is 
beginning to scare everybody so we are looking at how to make 
those prices affordable. One of the things to do, frankly, is 
to have a transportation system that means you pay less for an 
automobile. Maybe your family does have a car, but they do not 
have two or three, which you do have in more rural settings or 
even more suburban settings.
    Mr. Latham. Does not the price of the home increase next to 
your light rail?
    Ms. Crunican. Right.
    Mr. Latham. If your home is closer to that, is not the 
price higher? Does not it make it more expensive?
    Ms. Crunican. It does. It increases the value of your home 
to be located next to a transit station, but, again, the 
tradeoff is there, as I talked about, the $90,000 difference in 
mortgage that giving up the car can buy you, that translates 
back the other way, too, if you have the transit pass. In many 
cases the employer provides the transit pass. That is another 
program we have fairly successfully instituted in Seattle.
    Mr. Latham. In your testimony, I was caught by one 
paragraph in it. The federal government should act to ensure 
that housing consumers and suppliers are made aware of the full 
direct costs of housing. The definition of affordable housing 
should be redefined to take into account not only the cost of 
the housing but the transportation and the energy associated 
with that. Is there a definition or is there a matrix or 
something out there that you use to demonstrate this definition 
now?

                   CENTER FOR NEIGHBORHOOD TECHNOLOGY

    Mr. Puentes. We are working on it. I think we are getting 
there. The reference was made to a thing called the Center for 
Neighborhood Technology in Chicago. It has been doing some work 
across the country trying to make this direct connection. For a 
long time in this country our formal housing policy was drive 
until you qualified. And as gas prices peaked about $4 a gallon 
last summer, this became front and center I think in most 
people's minds, that transportation as the number two household 
expense really had a dramatic impact on household budgets.
    So the Center for Neighborhood Technology has created this 
Housing and Transportation Affordability Index. We worked with 
them on this. They are trying to take this nationally I 
believe. I think it is an excellent opportunity for DOT/HUD 
joint working groups to use that and maybe pilot that for 
something for the future. Certainly getting us ready for census 
2010, it will be very helpful, not just for those transition 
things.
    Mr. Latham. Right. Okay. Thank you, Mr. Chairman.
    Mr. Olver. Ms. Crunican, your description of what Seattle 
has done is very compelling. The examples that Mr. Norquist has 
given were also very compelling in a broader kind of a picture. 
Yours were very much associated with one large city, yours were 
a few here, there, good practices and so forth.
    In the case of Seattle, the geography has sort of dictated 
that you do not really have more space, I think, in part. You 
are sort of between the Sound and a large lake or something 
like that or a mountain, and maybe it is a mountain that is 
beyond the lake, or whatever, and you are contained, and so you 
are doing infill and things are being removed and better things 
put in place, and each time you have made big improvements.
    I think that must be essentially the way major European 
communities have functioned. I am thinking of Copenhagen, for 
instance, which is quite contained. It could sprawl out into 
its island but they do not allow that to happen. Instead they 
have good, wide boulevards and a lot of narrow streets, and one 
way streets and bicycles down those streets.
    There are safety problems, because in Copenhagen you have 
one-third of all commutation by bicycle, one-third of it by 
transit and one-third of it by personal vehicles, essentially, 
and all of those function within that city. It is quite 
remarkable. They make it work and it seems to be quite a 
livable place. There are a couple of places that I have had a 
lot of contact with recently.
    In Denver I was struck by the fact that if you look, the 
sprawl went in all directions to the skyline, to the horizon 
essentially, and now they are trying to figure out how, after 
all that had occurred, to correct for that by some transit 
operations. But also, downtown they have done some major 
things. My impression is that Phoenix is a place, it is a very 
similar, that has sprawled long before they got to the point of 
thinking seriously about how to correct that and now they are 
working hard at that.
    That is the other end. We need to figure out, I suspect, 
ways of helping them, being flexible enough to help them in all 
of their various programs and to help them get to where they 
want to go once they have figured out what has to happen for 
them, that it just not working or going to work that way. You 
have gone through that and you are contained by your geography.
    Gets me back in a way to the original business of how do we 
overcome this planning problem, providing the incentives in the 
process, to help people do the right things and to just not 
allow them to do what is ultimately going to be bad in the 
whole way for the society in a whole? Anybody want to further 
comment on that?
    Mr. Norquist. I think you are hitting exactly on the 
question, which is what I appreciate about this committee 
combining housing transportation because then it gets you to 
think outside the box. If you look at any of these communities, 
if they are going to be dealing with FHWA, or the ASHTO 
standards, or their own DOTs, they are going to fall into the 
trap of having these large, blown out roads.
    Phoenix is trying to figure out how to urbanize itself 
again, how to have a community that is walkable, at least in 
the places where they can achieve it. The law needs to allow 
that to happen, it needs to encourage that to happen. That is 
why it is important for the Congress to work with the DOT and 
work with the ASHTO and everybody and allow these urban forums 
to reemerge.
    Then you will start to see it come back, whether it is a 
small village, or whether it is a big city like Phoenix, or 
whatever, but right now it is not even allowed. You can see it 
with coding and zoning in California. For years they had a law 
that almost required separate use zoning throughout the state 
except in a few places that were so dense, like San Francisco, 
they could not impose it.
    A few years back they changed the law to allow, they did 
not force it, but they allowed mixed use or form-based codes to 
be adopted by communities around California. Now the majority 
of the communities in California have adopted those codes. Now 
their planners know that they can legally create the kinds of 
things that people want that are more efficient.
    That is what your Committee is uniquely set up to do, 
because you go to like the transportation committees in each 
House of the Congress, and they are so focused on the 
equipment, the paving machines, the different interest groups 
that are around, and they do not see the impact on the rest of 
society. So when you take Housing, Transportation and Economic 
Development, put them all together and you can change these 
things, and then the communities can start to heal themselves.
    Mr. Puentes. Just to build off that, I think that is a 
great comment. There are a lot of places where the federal 
government should lead because of the sheer size and scope of 
some of these issues. There are other places where the federal 
government frankly should get out of the way and enable places 
to do good things.
    I think that there is an assumption in this country that 
the decentralizing nature of growth that we have seen over the 
last couple of decades is only the result of people voting with 
their feet, and this is the preferred lifestyle and the reasons 
are growing because that is what people wanted to do. Certainly 
some of that is true, but there are direct policies that 
actually encourage this kind of growth to occur.
    So on the federal level we know that the modes operate on a 
very unlevel playing field, for example. The highway program, 
highway funds are sent out of the state level at an 80/20, 90/
10 match with no restrictions, really, on how that money can be 
spent. The states have almost complete discretion in deciding 
where the money goes. On the transit side it is very different. 
It is a much lower match.
    The process to get the funds approved is hypercompetitive, 
hyperbureaucratic. It focuses, frankly, we think, on the wrong 
things, on time savings as opposed to the ability to build the 
right kind of communities, as Mr. Norquist mentioned.
    So at least letting the federal government enable places to 
make their own decisions based on equal requirements and rules 
and regulations and weeding out that subsidy for sprawl, and if 
it is going to occur, it is going to occur for lots of 
different reasons, but it should not be incentivized as it is 
right now on the federal, state and local policies. But the 
things this Committee could do is to weed some of that out.
    Mr. Olver. Okay. That sounds to me like lead or get out of 
the way, laying out good guidelines, but that has to take into 
account a broader vision than just transportation and housing. 
That does need to take into account energy issues and energy 
balance. What is our carbon footprint, and things of that sort. 
Dave, you originally talked about incentives. Well, he says 
there has to be some sticks as well, and you agree with that.
    You say disincentives for doing the wrong thing, which is 
sticks if you are doing the wrong thing. It is not necessarily 
penalties for doing the wrong thing after the fact, but just 
not disincentives for doing the wrong thing if you have proper 
goals in the first place.
    Mr. Norquist. Just one quick point on this. The goal needs 
to be the right goal. The goal has been over simplistic.

                               CONGESTION

    Mr. Olver. We could agree on the right goal, could not we, 
rather easily. Probably quickly.
    Mr. Norquist. I hope so, but one goal that I think has been 
the wrong goal is the idea of defeating congestion. You will 
sometimes hear people say, well, you know, you cannot build 
your way out of congestion. Actually, you can. Detroit has 
built its way out of congestion. Congestion is a really low 
priority problem in Detroit. They built every road that 
Michigan DOT ever dreamed of, and they have created a community 
where congestion is not a big problem inside the city at all.
    Mr. Olver. But it is depopulating very quickly.
    Mr. Norquist. Right. So it was the wrong goal. The goal 
ought to be what adds value? What adds value to the American 
economy? What adds value to the local economy?
    Ms. Crunican. Mr. Chairman, I assume those bells mean you 
are going to be voting soon, is that fair? Maybe, maybe not. 
Okay. There is something I would like to throw on the table as 
a little history, a little perspective on how these programs 
came together. In the 1960s the federal transit program known 
as UMTA, the Urban Mass Transit Association, was created, and 
it was created in the late 1960s basically because the private 
transportation systems had failed.
    The autos had been successful, people were escaping to the 
suburbs and the economics of the private transportation systems 
was failing, so new transportation systems, public 
transportation systems, were forming. Because they were new, 
this is my opinion having worked in the program a little bit, 
the rules were created assuming that the new people were either 
corrupt or inept, or could be, and so there is a lot of got to 
watch out, gotcha kinds of elements to the late 1960s, early 
1970s rules that were created for UMTA, then to be FTA.
    The federal highway program started with the public road 
system a long time ago and was basically, you know, the theory 
if we can get out there, we grow, and it was not assumed that 
there was a lot of corruption underway. Instead, there were 
some well-intentioned grads out of state school going out 
building some roads and some standards were set.
    Very frequently the federal program is merely the 
reflection of ASHTO, American State Highway Association 
Official, and their guiding principle from a state road systems 
point of view, and so they are bigger and wider. Just the 
element, if you go back to the program of one of incentive and 
the American dream versus we are going to get you if you do 
something corrupt, you now have after, you know, 40, 50 years 
worth of the public transit programs up and running, they are 
quite competent, they are quite intelligent, they are quite 
well-educated, the people that run these systems.
    I am not saying that some bad things could not happen, but 
no more so than some of the corruption you hear about 
contractors at the state DOT. The programs themselves, the 
federal highway is one of trust. Here is your allowance, you 
get it pretty much, Congress sometimes provides some earmarks, 
which I think are good. I used to be on an appropriations staff 
where I did not think they were all that they are made out to 
be in the press, but they can be for good projects.
    In the transit world they have what is called the New Start 
Program which is kind of a no start program. They hold the 
money, they have less money than they have demand for, and so 
they had to come up with some ways to judge the programs. It is 
in that judgment if you are at the local level, you have got an 
allowance coming your way at the state level, money 
automatically flowing, and you have got a much smaller 
allowance through STP and CMAC to make decisions for transit.
    If you want to get transit money, for the most part, most 
systems are beholden and coming to Washington and walking 
through the Federal Transit Administration which has much more 
control than the Federal Highway Administration does. So the 
imbalance of the programs is one thing that is, I think, within 
the control of Congress.
    There is a lot of imbalance at the local level. People have 
different utilities. The utility commissions in different 
states operate different and provide incentives for development 
or disincentives for the sprawl. That is an important role in 
terms of development. Whether the big city gets along with the 
little cities, we do not do that so well. I have made Seattle 
out to be the golden city on the hill with some mountains in 
the background and the water, as you mentioned.
    You know, we do not do a great job of getting along with 
some of our neighbors and the region has different policies. In 
Portland the policies are pretty much the same: invest in 
transit first, and highways have a place. In Seattle, that is 
what Seattle would say, but that is not what our suburban 
cities would say. They would say they have some huge highway 
needs that need to be met. So I think, as Rob I think tried to 
say, there are multiple parts to this problem.
    The piece that is in Congress' hands can be to equalize the 
programs, highway and transit, and can be to help. Just ask for 
some of those connections, you know, the education programs, 
the vet programs, the area agency on aging programs. I think 
you can do a good job there.
    Mr. Olver. You know, I am impressed in the case of Seattle, 
and Washington more in general. For a big state, big state 
population-wise, sort of right among the top 15, certainly at 
the lower end of that top 15, you have probably the smallest 
impact from the foreclosure crisis of any state that size or 
larger by a large margin. Seattle does not seem to have enough 
of a foreclosure problem to even have triggered HUD's 
definition of how a city might get money for neighborhood 
stabilization programs.
    So Seattle has something to be emulated, I think, in a way. 
I think perhaps Oregon is in a similar way. It is more or less 
of an aside. We have probably 10 minutes here. Marcy, if you 
are ready. We have been waiting for reinforcement here.
    Ms. Kaptur. I am so sorry.
    Mr. Olver. I am sure you would have had a great deal to 
say. If you have something to say, I will let you go, and then 
Tom.
    Ms. Kaptur. Has Mr. Latham had an opportunity to----
    Mr. Olver. Well, we have had several rounds, actually. We 
have gone back and forth here several times, so we will let you 
go for a bit here, or, if you want to, I will give several 
minutes to Tom, and then you, and then we will close and I will 
not speak again. Whichever way you want to go.
    Ms. Kaptur. All right. Well, I just wanted to thank you 
again, Mr. Chairman, for a most interesting set of hearings as 
we begin this new Congress. Cutting across programs, more 
thematic, more, I think, valuable to the American people. So I 
just want to really thank you for your leadership in that 
regard. I am very proud of what you are doing and I am proud of 
our subcommittee. We want to thank all those here who have come 
to help instruct the country and for your dedication to the 
communities you represent and the organizations you represent.
    I apologize for being late. I just left a hearing in my 
other committee, Defense on AFRICOM. Totally different subject, 
but, you know, really, it is about development, whether it is 
on another continent or here, in our country, how to do it 
best, how to do it wisely. I was very interested to come in and 
to see this map up here. That is very instructive.
    I am actually a city and regional planner by training and I 
spent half my life doing that before I ever got elected to 
Congress, so I think this must be the first hearing in my 
entire career where somebody actually thought about population 
and actually had a map when you walk in the room, so I feel 
this is really comfortable, I can get along here, and to have 
it instruct us as we move down into those census tracks as to 
how to build livable communities.
    I think for the part of the country that I represent, the 
northern part of Ohio along Lake Erie's south coast, the fact 
that our economy is different than other places in the country 
makes it particularly stressful right now. Unlike most of the 
growth communities in our country which are capital cities and 
finance centers--I had a little discussion with Steny Hoyer 
yesterday.
    I said well, Mr. Leader, you know, you have got an easier 
district than I do, you have got all these government jobs that 
insulate you in downturns. I do not think he took offense at 
that, but I said, you know, we do not have any landing pads. 
When something goes wrong in the economy, we crash, because we 
are a production platform, both in industry and agriculture, 
and so we meet the global market head on.
    I was very interested in the representative, is it 
Crunican, from Seattle. You talk about the growth community in 
Seattle. I am curious. You talk about Bio Tech. Are these 
private companies or do they spin off a university hospital? 
Could you describe why that area is growing, that particular 
neighborhood that you talked about in your testimony? I am 
interested in the economic underpinnings of it.
    Ms. Crunican. Yes. We have both spin offs from the 
University of Washington Research, the University of Washington 
Health Life Sciences is there, as well as private firms, 
ZymoGenetics is there, the Bill & Melinda Gates Foundation is 
locating there, a rather unique opportunity, but for the most 
part it is Biomed Tech and private firms that are locating 
there.
    We have other combinations. It is because of its diversity 
as well, Amazon is locating there, and so we have a synergy of 
a lot of different companies. I think in part, the Chairman 
mentioned before you got here the difference in the housing 
foreclosures. It is because of two things, I think. Our diverse 
economy. We started with Boeing in the 1970s, of course before 
that, timber, but Boeing in the 1970s and we have expanded to 
Microsoft, to Amazon, to Starbucks, and we have a range of 
different economies in our base.
    The second thing is that he mentioned growth management, I 
mean, he mentioned a lack of housing and us not qualifying for 
some of the housing that has been abandoned and walked away 
from, mortgages abandoned, and I think a common element between 
Oregon and Washington is the growth management policies that 
have been in place which are sort of a substitute for energy 
management policies 20, 30 and 40 years later.
    Oregon started in the 1970s, Washington I believe passed 
those in the early 1990s, so we have had some time to have that 
contained growth happen, and so you do not live further out so 
that if you do lose your job you have got maybe a more 
affordable mortgage end. Though the price of housing is up, 
your transportation bills are a little bit lower than they are 
in the average. So I think it is a combination of things that 
are going on there.
    Ms. Kaptur. Well, what is really interesting, the way I 
look at the world is that, okay, Boeing, I mean, that was 
bedrock, those contracts relating to the defense of this 
country, and they provided a real secure economic underpinning 
for your region, and the universities that contributed to the 
knowledge, I am sure, that moved that technology forward, 
Microsoft locating there.
    I do not know the whole history of Bill Gates in your 
region, but there is no question that the defense industry spun 
off the computer industry and the high tech industry all across 
California to Silicon Valley and then up, and so regions like I 
represent never had that.
    When I look at where federal dollars have been invested, 
and, you know, what they have yielded, to me, the way I look at 
a community like mine now which is suffering under so much 
unemployment, and has for a long time, if one looks at our 
university corridors, and you referenced Bio Tech off your 
university there, I really think in many ways our universities 
are our growth corridors even though they are subsidized by the 
taxpayer, either statewide.
    They are a new spine. So the Bio Tech you are spinning off 
in my region is translated to our university, which obviously 
is all publicly subsidized, but we are spinning off research 
that we are now the third largest solar center in the 
hemisphere, and new knowledge that grew out of our glass 
industry, which is an unsubsidized industry.
    What is interesting about your pattern and our pattern is 
that the proximity to knowledge and to the knowledge base and 
to neighborhoods that may be adjacent to that, as we think 
about new spines for development I think in many places the 
university corridor becomes extraordinarily important. We look 
at it in a different way than we did 30 years ago where it was 
just an adjunct or it was just out there somewhere.
    It has come into its own in a way. My community compared to 
30 years ago, we now have a medical university, a graduate 
university in medicine and we are talking about, you know, we 
have a research technology park there and slowly we are 
beginning to see companies that grow off of that. There is a 
slow transformation, I think, occurring across our country, in 
some places faster than others, where you can see a new urban 
form taking shape.
    What is interesting about it is that our bike trails, where 
are they anchored? They sort of are anchored in our metro parks 
but they all lead to the university. So it is just very 
interesting. Now, do they lead there perfectly? No. Do we have 
a long way to go? Yes. Do we need help in reshaping the urban 
core? Our university is not located in the urban core but 
proximate to it, not that far. The urban core for us will 
become our government center.
    But thinking about what are the job generators, and how do 
you get jobs in job tight regions, you have to create them off 
new knowledge. When you have no federal investment for the most 
part other than in subsidy dollars--frankly, one of the 
largest, and I will end with this, set of subsidy dollars 
coming into our region, and I think Tom Latham will be 
interested in this, every year in my little county $100 million 
comes in in food stamps.
    One of the issues we have been looking at in a very 
agriculturally rich region like northern Ohio is how can we 
weave ribbons of green and begin producing product for people 
right back in the city in our food desert so that agricultural 
corridors also are reintegrated back into our urban core? We 
have the ability to do that. So I just appreciate your 
testimony, and I will yield back the no time that I have. I 
just appreciate your listening to me, and thank our Chairman 
again.
    Mr. Olver. I am deeply sorry that you were not here to 
listen to Mr. Norquist's description of Detroit, which I 
thought was an incredibly powerful cogent description. Toledo 
is obviously, from what Marci is saying, in better shape, but 
it is a little Detroit in a sense, a little like Detroit. We 
have zero time left on the roll call but there are 283 people 
who have not voted, so if you have a comment, or otherwise you 
can go and I will stay until you folks have your chance to say 
a couple of words and then we will go.
    Mr. Norquist. Well, I was just going to say last summer my 
wife and my two kids and I had the pleasure of wandering off 
our trip across Ohio to Sandusky, which is kind of hard to find 
because it is not on the normal routes people go, but it used 
to be. It had good train service and all that sort of thing.
    So as the transportation priorities change and there has 
been a lot more investment in rail and so forth some of these 
cities, like Toledo and Sandusky and so forth, their beauty 
will be revealed again to people, and I think it will help it 
capture some of the prosperity that places like Seattle have.
    Mr. Olver. That is a hopeful thing.
    Ms. Kaptur. Mr. Chairman, I appreciate that comment. Just 
to say, Carolyn Kilpatrick, Congresswoman Kilpatrick and I, we 
want to tour Detroit together and look at urban farming in 
Detroit because it is the very same issue and we want to ripen 
it. Frankly, I think the biggest job generator for you besides 
that has got to be your farmers' market. You could not do 
enough there and build a wing on that to produce all winter 
long off Eastern Market, but in any case, thank you.
    Mr. Olver. Mr. Latham.
    Mr. Latham. Thank you very much for all your testimony.
    Mr. Olver. Indeed. I will simply second that. Thank you 
very much. We will have good reasons to talk with each of you 
more, okay? Have a good day.
                                           Wednesday, May 20, 2009.

              MEMBER'S REQUEST TO THE SUBCOMMITTEE HEARING

                               WITNESSES

HON. JOHN BOOZMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ARKANSAS
HON. BETSY MARKEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    COLORADO
HON. DIANE E. WATSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. HENRY CUELLAR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS

                   Opening Remarks of Chairman Olver

    Mr. Olver. The subcommittee will come to order. Good 
morning, everyone, even some of our members. We are here to 
take testimony from Members of the House on issues related to 
the Transportation, Housing and Urban Development 
Subcommittee's jurisdiction.
    It has been a number of years since this subcommittee has 
provided Members with an opportunity to discuss issues related 
to their districts, and I am happy to be here to learn more 
about the challenge that individual Members are facing at home. 
The testimony provided by the Members that have taken the time 
today to talk about their interests will assist the 
subcommittee in crafting a bill that is responsible to both the 
national needs and the needs of the Members' local districts. 
This input is vital to the subcommittee in meeting its 
responsibility to provide strong fiscal stewardship.
    With that, I would recognize my ranking member, Mr. Latham 
from Iowa, for any comments he would like to make.

                Opening Remarks of Ranking Member Latham

    Mr. Latham. It will be very, very brief. I look forward to 
the testimony from our colleagues.
    Let's proceed. Thank you.
    Mr. Olver. Thank you. Our first witness is Representative 
John Boozman from Arkansas. You may proceed with your 
testimony. We have a written statement which we will place in 
the record, but go ahead.

             Opening Remarks of Representative John Boozman

    Mr. Boozman. Thank you, Mr. Chairman, Ranking Member 
Latham, and members of the subcommittee. I really do appreciate 
the opportunity to be here today and testify concerning 
transportation appropriation requests.
    Today, I have come to talk about the regional and the 
national significance of the I-49 corridor. I-49 is a north-
south corridor from the Port of New Orleans, Louisiana, to 
Kansas City, Missouri, where it connects with I-29 and I-35, 
which run all the way up to the Canadian border.
    A large portion of the interstate in my district is 
complete. A large portion of the interstate from New Orleans 
all the way up is actually complete, and a lot of that was due 
to Congress in the past and especially the hard work and 
dedication of one of my predecessors, John Paul Hammerschmidt, 
who served with distinction for many, many years.
    The uncompleted portions in the Third District are segments 
from Bentonville north to the Missouri border and from Fort 
Smith south to Greenwood. The Arkansas Highway Department is 
supportive of this project and are committed to seeing it 
through to completion.
    The highway department is actively working on the northern 
portion from Bentonville to the Missouri border. It will be 
constructed as a bypass of the town of Bella Vista, Arkansas. 
This bypass is extremely important because Bella Vista is a 
retirement community and has the highest traffic count within 
the Arkansas portion of the corridor.
    The second uncompleted portion in Fort Smith is a project I 
have submitted to your subcommittee for consideration. Work on 
this portion of the corridor is vital to the economic 
development in the region and will create a large number of 
jobs, both those working on the interstate and those stemming 
from businesses locating near the interstate.
    Once completed, this portion of the interstate will assist 
major companies locating in Chaffee Crossing to transport 
products. Companies like Graphic Packaging, Mars Petcare, 
Umarex and Pradco Outdoor Products are located at Chaffee 
Crossing because of the central location and because it is an 
area ripe for redevelopment. The completion of this segment of 
I-49 will not only bolster industry in our area, but it will 
also ensure that products can successfully move throughout the 
country.
    I am here today to not only educate the committee about the 
status of I-49, but also to encourage you to give great 
consideration to the north-south corridors while appropriating 
money to transportation projects. These corridors are about 
more than politics and more than the usual regional rivalries. 
The corridors will provide an economic stimulus for the entire 
country.
    The fact is, our national highways must complement NAFTA. 
In order for companies to remain competitive, they must be able 
to ship goods in and out of Canada and Mexico. Companies are 
striving to increase economic efficiency in our global economy 
by keeping prices down, making their products more marketable, 
and making their companies more successful. We have the 
obligation to assist them by building the north-south 
corridors. We must provide companies with choices of shipping 
routes and the ability to keep their freight out of congestion.
    The old system of warehouses across the country no longer 
exists. The warehouses now, with on-time delivery, are the 
trucks on the road and the trains; and it is crucial that we 
keep the trucks moving.
    The long-range economic benefit of building the north-south 
corridors is incredibly powerful. Our Nation is connected from 
east to west and now we must connect it from north to south. I 
believe the map is truly our best argument. I-49 will not only 
connect northern and southern Arkansas, but, more importantly, 
will be part of a larger vein running through the middle of the 
entire country.
    In light of our unstable economy, we need to remain focused 
on building the roads and infrastructure. Build it, and the 
capital will come. With connectivity comes industry, and with 
industry comes jobs.
    Mr. Chairman, committee, I-49 is crucial to Arkansas, but 
more importantly, is crucial to the entire country; and I ask 
that you and your committee give this request your utmost 
consideration.
    Mr. Olver. Thank you very much and thank you for staying 
within your time. You actually leave me a moment or two.
    I had intended to pull out my atlas and see exactly where 
I-49 went. My understanding of Arkansas is that this probably 
doesn't go through Little Rock, does it? It passes west of 
Little Rock----
    Mr. Boozman. Yes, sir.
    Mr. Olver [continuing]. Angularly?
    Tell me what the three largest communities are, other than 
Bentonville. Or maybe Bentonville is one of the three largest. 
It goes by Fayetteville?
    Mr. Boozman. Yes, sir.
    Mr. Olver. And then on the south, Fort Smith is it?
    Mr. Boozman. Fort Smith, and then down in Mike Ross' area, 
down in Texarkana, in that region, in the southern part of the 
State. So it comes from New Orleans, it goes through Louisiana, 
through Shreveport, that area, running up, which--Louisiana has 
been totally committed to the project and done a tremendous 
amount of work--goes on up into Texarkana, up into Mike's 
district, and then keeps going. And it really kind of hugs the 
Oklahoma-Arkansas line, and goes up into Missouri, on up to 
Kansas City, and there it divides into two interstates and goes 
to the Canadian border.
    Our interstate system was built primarily east and west.
    Mr. Olver. That is the other thing I was curious about. You 
commented and made the case that we really need to pay 
attention it the north-south corridors. Well, the north-south 
corridors are the odd-numbered routes, and in the east, 95, of 
course, is the critical one. The major ones are 5, 15, 25, and 
so forth.
    The farther you get away--in the odd numbers away from the 
5-numbered routes, the less important they seem to be, although 
in our Northeast, 81 is quite important, and I have always 
viewed 75 as very important. So your comment that we weren't 
really paying attention to the north-south corridors was of 
interest to me.
    Mr. Boozman. It really is. I-35 going through Texas, those 
corridors really are at full capacity. So this route would take 
pressure off of some of those other routes.
    The nice thing about this project is, some of the other 
projects, again which I am committed to and which I think we 
need to do, are right in the beginning stage. This is something 
that with a fairly small amount of money, truly you can have a 
north-south corridor that is complete; and that interstate 
system would, again, run from New Orleans all the way up.
    The Port of New Orleans, with more and more shipping going 
to that area, more and more shipping going to Houston, things 
are becoming more and more important.
    Mr. Olver. I have exceeded my time.
    Mr. Latham.
    Mr. Latham. I just have two questions. This is not going to 
restrict my access to the golf courses, is it?
    Mr. Boozman. No. Not at all. In fact, it will make your 
access easier.
    Mr. Latham. If you have ever been down there, it is 
absolutely an incredible area as far as a retirement community; 
and lots of folks from Iowa actually live down there or winter 
down there.
    What is the request? How many dollars specifically are you 
looking for in the appropriations bill?
    Mr. Boozman. Well, again, I don't know that. I can't tell 
you the specific amount. I should be able to do that.
    But you guys on the back, you know----
    Mr. Latham. Here we go.
    Mr. Boozman. $10 million.
    Mr. Latham. What would that do? What section?
    Mr. Boozman. What I believe in, Mr. Latham, is I think you 
go from the areas that have the most population density in the 
sense that you are doing what you want to do, you are building 
the interstate; but along with that you have the opportunity to 
have economic opportunity on top of that.
    So this would be south of Fort Smith, in that area. And not 
only, like I say, are you building the interstate at that 
point, but you are providing great economic opportunity in that 
area also with some major industries that are coming in.
    Mr. Latham. Thank you very much.
    Mr. Boozman. Thank you all very much.
    Mr. Olver. Mr. Pastor.
    Mr. Pastor. No questions.
    Mr. Olver. Ms. Kilpatrick.
    Ms. Kilpatrick. No questions.
    Mr. Olver. Thank you very much for bringing up this 
interstate completion project. I thought the interstate system 
was complete. You are raising a whole awareness. Thank you very 
much.
    Mr. Boozman. Thank you very much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Representative Betsy Markey from Colorado.

             Opening Remarks of Representative Betsy Markey

    Ms. Markey. Thank you, Mr. Chairman and members of the 
subcommittee, for the opportunity to testify today.
    I just want to give you a sense of where my district in 
Colorado is. I represent the northern suburbs of Denver, so the 
northern and eastern part of the State, and then also it is 
like a big ``7'', the entire eastern plains of Colorado. My 
district borders Wyoming to the north, Nebraska and Kansas to 
the east, and Oklahoma to the south.
    I have five projects that I am requesting appropriations 
for. The first one is U.S. highway 287 in Berthoud. Berthoud is 
a fast-growing community about an hour north of Denver. It is 
about $330,000. The funding will accommodate much-needed 
improvements along Highway 287 and the town of Berthoud, 
including surface overlay, paving marking, seeding, mulching 
and traffic control. This is a major connection road between 
Loveland and Longmont, which also connects to the Boulder area. 
As I mentioned, it is one of the fastest-growing communities in 
the area, and traffic on this highway is going to only 
increase.
    The second request is for $1.5 million, a timber bridge on 
U.S. highway 24 in Limon, Colorado. Limon is in eastern 
Colorado. As you are coming in from Kansas on Highway 70, you 
pass through Limon. This funding will accommodate the 
reconstruction of a timber bridge just east of Limon. The 
structure was originally constructed in 1934 and has now been 
deemed structurally deficient.
    The bridge is along the Ports-to-Plains corridor, which has 
heavy traffic use. The bridge literally sways when cars, let 
alone 18-wheeler trucks, drive over it. My staff was there just 
a couple of weeks ago and said as soon as even a car or truck 
goes over it, it shakes. It is a narrow bridge with low 
guardrails. The Colorado Department of Transportation patches 
up the bridge at least once a month.
    The third is also a bridge replacement, the Upper Big 
Thompson Canyon bridge replacement at a cost of $2.5 million. 
This funding would replace two bridges on U.S. Highway 34 in 
the Big Thompson Canyon near the town of Estes Park. The 
improvements will include bridge replacement along with 
pavement markings, guardrail improvement, seeding, mulching and 
traffic control. These bridges are labeled as poor bridges by 
the Colorado Department of Transportation. This highway, U.S. 
Highway 34, is the gateway to Rocky Mountain National Park, 
which receives over 1 million visitors a year.
    The fourth is State Highway 96, four bridges near Eads, 
Colorado, in the eastern plains of Colorado. It is at a cost of 
$600,000. The funding would be used for preliminary and final 
design of structures on Highway 96 west of the town of Eads, 
remove and replace existing structures. The work consists of 
structural concrete, reinforcing steel, embankment, hot mix 
asphalt, signing, stripping, seeding and mulching. These 
bridges are also labeled poor bridges by the Colorado 
Department of Transportation.
    The last is Highway 385 in Julesburg. Julesburg is just 
over the Nebraska border in northeastern Colorado. It is 
$880,000. This is the first town you come into when you are 
coming into Colorado in the northern part of the State.
    The funding would be used to accommodate the much-needed 
improvements along 385 south of Julesburg. The improvements 
will include surface overlay, pavement markings, guardrail 
upgrade, seeding, mulching and traffic controls. This road is a 
very heavily used ag road. It is very important for local 
agricultural producers. It has no shoulders whatsoever. Also 
the natural gas industry is very active in this area and they 
also use this a lot. So this is another and important road, 
again needed improvements for agriculture.
    The bridges, I believe, are also very, very significant. I 
think they are disasters waiting to happen.
    Thank you very much for the opportunity. I would be happy 
to answer questions.
    Mr. Olver. Thank you very much, Ms. Markey. You have really 
focused on bridges. I didn't know you had that many rivers in 
eastern Colorado. Of course, you stretch into the mountains as 
well there.
    Ms. Markey. Right.
    Mr. Olver. There toward the north.
    Ms. Markey. We have 36 structurally deficient bridges in my 
district, according to Colorado--36 total.
    Mr. Olver. And you have only hit 10, I think.
    Ms. Markey. I have hit the ones that are most heavily used 
and most in need of repair.
    Mr. Olver. Just a quickie.
    On your fourth one where you have the list of three or four 
different bridges there, what is the estimated cost of 
construction of those bridges, with the design funded here, by 
what we might do?
    Ms. Markey. About $1 million a bridge.
    Mr. Olver. $1 million a bridge. They are relatively small 
bridges.
    Ms. Markey. They are small bridges. They are small bridges. 
The rivers in Colorado are not as wide as they are in the 
eastern part of the country.
    Mr. Olver. I thought they were miles wide, like South Platt 
and the Arkansas.
    Ms. Markey. No. They are smaller bridges, but again, lots 
of traffic along these. So about $1 million a bridge, $600,000 
for the design of the four bridges.
    Mr. Olver. Virtually all of these are on U.S. highways. I 
notice most of them are on numbered U.S. highways.
    Ms. Markey. They are on U.S. highways, correct.
    Mr. Olver. Thank you very much.
    Mr. Latham.
    Mr. Latham. I really have no questions, other than to say I 
am surprised you don't have something for Brush, Colorado, 
here, because that is where my in-laws live.
    Ms. Markey. I am sure I can find something.
    Mr. Latham. I actually lived in your district going back to 
the early 1970s, and 34 years later we are still married.
    But thank you.
    Ms. Markey. Congratulations.
    Mr. Olver. Mr. Pastor.
    Mr. Pastor. No questions.
    Mr. Olver. Ms. Kilpatrick.
    Ms. Kilpatrick. Thank you, Mr. Chairman.
    And good morning. Nice presentation. You mentioned these 
are 5 of 30-some that need repair.
    Ms. Markey. Yes.
    Ms. Kilpatrick. Are they prioritized in terms of your ask?
    Ms. Markey. Yes, these are prioritized.
    Ms. Kilpatrick. What is the population around these 
bridges? For example, take the first three.
    Ms. Markey. The Berthoud area, that is not a bridge. That 
is a road. But that is a community of 30,000, but it is just 
outside of Denver and Boulder, which are the two major cities 
in Colorado.
    Limon has about 8,000 people in the Town of Limon, but 
again, it is a major thoroughfare for truck traffic. Limon is, 
if you are coming from Kansas into Colorado, you first hit 
Burlington and then hit Limon, so it is a major truck route 
along the east-west corridor of I-70.
    And the Big Thompson, the two bridges near Estes Park: 
Estes Park has about 11,000 people; however, it is the gateway 
into Rocky Mountain National Park, which gets well over 1 
million visitors a year. You have to go through Big Thompson 
Canyon in order to get to Rocky Mountain National Park. So that 
is heavy tourist traffic along those bridges.
    Ms. Kilpatrick. In the Colorado DOT, that is how you found 
out they are critically needed structures?
    Ms. Markey. Yes.
    Ms. Kilpatrick. I don't think we fund bridges 100 percent. 
I am trying to see if it is 80-20 or whatever, but the chairman 
or staff would know better than I.
    Are they recommending these?
    Ms. Markey. Yes, these are all supported by the Colorado 
Department of Transportation. In Colorado, we are under 
constraints of what is called the Taber amendment, so 
transportation in Colorado, we have not had any money to fund 
much-needed transportation projects in Colorado.
    Ms. Kilpatrick. Thank you very much.
    Mr. Olver. Is Rocky Mountain National Park in your 
district?
    Ms. Markey. Yes, Rocky Mountain National Park is in my 
district. Yes, it is.
    Mr. Olver. Thank you very much for your testimony.
    Ms. Markey. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Let's see. I have Representative Watson from 
California. Representative Diane Watson.

           Opening Remarks of Representative Diane E. Watson

    Ms. Watson. Mr. Chairman and committee, I want to thank you 
for allowing me to testify before your subcommittee today on 
two top priorities for the fiscal year 2010 appropriation 
request for the 33rd Congressional District. I sincerely hope 
that today's testimony will encourage the subcommittee to fund 
these projects at their requested levels.
    The first project I request is a $250,000 appropriation for 
the Hollywood Business District Streetscape Improvement 
Project. This is one of the shovel-ready projects that we have 
been referring to.
    The Hollywood Business District is one of the many diverse 
business communities in Los Angeles that is in need of 
revitalization. Project funding would be used to repair 80 
stars and 184 squares of terrazzo on the Hollywood Walk of 
Fame. Funding would also provide for the removal of debris and 
curb repairs, which are primary activities of the restoration 
work, which includes rehabilitation of the depth and the 
anchorage of the zinc divider strips and the terrazzo topping 
of each star and square; restore concrete underlayment; and 
repair the utility vaults and service connections.
    Completion of this project would help the Hollywood 
Business District generate revenues and create jobs, as this is 
a major tourist attraction and vital to the local economy.
    My second project request is $250,000 for the Vermont Child 
Development Center Project. The entity requesting the funding 
is Para Los Ninos. Their goal is to ensure that when children 
and youth leave their educational programs, they go home to 
families that are prepared to provide a healthy, nourishing 
environment, one that is well-equipped to meet their emotional 
and developmental needs. Funding for this project would be used 
to renovate restrooms at the Vermont Child Development Center.
    These are projects that we have reviewed. I live in the 
area, and as I travel worldwide and I reference my district as 
Los Angeles, I get nice nods. But when I say Hollywood, I get 
big smiles. It is a destination of millions of people that come 
to the United States. They come directly to Hollywood thinking 
they are going to see a star on every corner. They will see a 
``star'' in the pavement.
    So I want to thank you for the opportunity to testify 
before the committee today, and I hope that you will give 
strong consideration to my top two requests for fiscal year 
2010.
    Mr. Olver. Thank you very much.
    Now, let me just ask, the Walk of Fame, how long is the 
Walk of Fame?
    Ms. Watson. I would say that in Hollywood it would go for 
about 2 miles.
    Mr. Olver. The section you are talking about where there 
are 80 stars and 184 squares, how large are the squares of 
terrazzo?
    Ms. Watson. I would say, just off the top of my head, in 
measurements, they would be about 2 by 3.
    Mr. Olver. Two by three feet?
    Ms. Watson. Yes. Those are the terrazzo boxes that the 
stars are in.
    Mr. Olver. Is this walk two terrazzos wide or three 
terrazzos wide?
    Ms. Watson. I would say it is about four terrazzos wide.
    Mr. Olver. And a couple miles long?
    Ms. Watson. Do you know the Grauman Chinese Theater?
    Mr. Olver. I have been in Los Angeles once for a 
convention.
    Ms. Watson. It is a big attraction. This is where they put 
their hands and feet and so on in the cement, so that gives you 
some idea of where the walk is located.
    Mr. Olver. I am curious, this sounds to me like it has an 
important job creation kind of a role or business role. It is 
an economic development job.
    It is not a transportation job, is it? Is this an economic 
development initiative request under the HUD Department? Or is 
this under transportation?
    Ms. Watson. Let me just say we are building the 
transportation route down Hollywood in the Hollywood area. It 
is all part of the connections that start with downtown Los 
Angeles. The sidewalks on either side and the businesses on 
either side will thrive from the fact that we have a 
transportation system running there. They are in a catchment 
area; and years ago I carried legislation that the businesses 
will contribute to the maintenance of the Metro line that will 
go near there, and also the businesses would thrive from the 
tourism that is alongside.
    So the catchment area is very important, the transportation 
catchment area.
    Mr. Olver. Okay. Your other project, the child development 
center, is this a phased project? If I remember correctly, in 
last year's legislation there was an earmark under EDI that was 
sponsored on the Senate side by Senator Boxer and by you on the 
House side.
    Ms. Watson. Sustainability.
    Mr. Olver. Is this a continuation, a second phase in the 
same project?
    Ms. Watson. Maybe even a third phase. It is the second 
phase.
    Mr. Olver. When you say the Vermont Child Development 
Center, it is the same child development center, basically the 
second phase of development?
    Ms. Watson. It is.
    Mr. Olver. Mr. Latham.
    Mr. Latham. I have no questions, but thank you for your 
testimony.
    Mr. Olver. Mr. Pastor.
    Mr. Pastor. I just have one question. What line is this 
that is coming to Hollywood? The Red Line? Which line is it?
    Ms. Watson. I think this is the Aqua Line.
    Mr. Pastor. So going through Hollywood. Where will it 
continue?
    Ms. Watson. It will go out to the Pacific. We are hoping it 
will go all the way to the airport as well.
    Mr. Pastor. So are you under construction yet?
    Ms. Watson. Yes, we are.
    Mr. Pastor. To be completed?
    Ms. Watson. Who knows. It is year by year by year. It 
depends on the funding.
    Mr. Pastor. So this development with the terrazzo----
    Ms. Watson. Is all part of that catchment area, runway 
area, all the way out to the Pacific, to the sea, and we hope 
eventually to the airport.
    Mr. Pastor. Thank you.
    Mr. Olver. Ms. Kilpatrick.
    Ms. Kilpatrick. Mr. Chairman, I have no questions.
    Good presentation. Thank you.
    Mr. Olver. Thank you very much. You are kind to be with us 
today.
    Ms. Watson. Thank you very much. My pleasure.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
            Opening Remarks of Representative Henry Cuellar

    Mr. Olver. Representative Cuellar, Representative Henry 
Cuellar from the 28th District of Texas.
    Mr. Cuellar. South Texas, yes.
    Mr. Olver. South Texas. I understand you might get two or 
three more districts in Texas----
    Mr. Cuellar. Three minimum and maybe four, but probably 
three. It has been growing very fast.
    In fact, my district is one that has grown a lot, the south 
Texas part of it, so I have to give up at least 120,000 to 
150,000 individuals, because my districts has grown a lot down 
there.
    Mr. Olver. Do you get to choose exactly which ones you are 
going to give up?
    Mr. Cuellar. We will have some sort of input. That is why I 
make it a point that I go visit. I was 14 years in the State 
legislature, and I make it a point to go visit my former 
colleagues at least every session without missing them.
    Mr. Olver. Go ahead. Your testimony will be put in the 
record so you can just proceed as you wish.
    Mr. Cuellar. Yes, sir. Thank you, Mr. Chairman, members of 
the committee. I appreciate it very much for allowing me to be 
here.
    First of all, I want to thank you. You all have been very 
generous in the past, and hopefully, you will be generous 
again. I appreciate your work and that of the committee staff. 
I know the staff does a lot of work, and I appreciate the work 
that they do.
    Mr. Chairman, my earmarks have always been very small. They 
are small. I have 12 counties, so I try to see if I can get one 
or two because of the different counties.
    The first one is just a nonprofit to a theater in Laredo. 
That is my number one request. It is $300,000. It is a theater 
that has been there for young kids for years and years and 
years and years, and it is basically helping them with 
electrical wiring and audio equipment and some rehab. It was 
put in a former Air Force base. The base was closed in 1974, so 
it is one of the buildings that was there since the Air Force 
base was built in 1945.
    The second request is a hike-and-bike pathway, and it is 
just trying to some hike-and-bike paths in that area. It is 
$300,000 also. So it is 300 and 300.
    The third one is a bus terminal for $650,000.
    Those are my top three. My number one is the theater, and 
number two is the hike-and-bike pathway.
    I have some language also, my first report language, I 
would ask you all to look at the FAA radar relocation. It is 
basically in the border area. Mr. Pastor, you are from the 
border area.
    The Feds, we were pretty good at building walls on the 
southern part of the area, billions of dollars we are talking 
about in investment. But one of the things we have been trying 
to do is have wind farms down there. The problem has arisen 
down there on the border that you have radars; and on the 
radars down there, we have been trying to work with the FAA to 
help them relocate one of the radars.
    For example, in my district we are trying to put a $2 
billion investment in a wind farm, but the FAA has got in the 
way saying, We have got a radar and we want to make sure we 
catch the airplanes coming in.
    So we are asking them, because apparently it is going to 
cause problems in other parts of the border area, and it is one 
of those things that I know can be worked out, where you can 
relocate the radars and still not affect a $2 billion 
investment in my area. So we are asking you to look at that 
language itself.
    The other things are just basically high-speed rails and 
transportation infrastructure for the ports of entry, just 
report language. But my main one is that FAA relocation, 
because it has been a problem, because the Feds have been good 
at putting a border wall, but now that we are trying to put a 
$2 billion investment, they have been giving us a hard time.
    I am on the Homeland Security Committee, and we were able 
to put $10 million for the radar relocation, but FAA still 
gives us a difficult time. So I would ask for your assistance 
on that.
    That is it, Chairman. I don't want to take up your time, 
members of the committee. And I appreciate your help.
    Mr. Olver. Thank you. Your district reaches into San 
Antonio?
    Mr. Cuellar. Yes, sir.
    Mr. Olver. Do you have some of the city of San Antonio, or 
do you have just the suburbs?
    Mr. Cuellar. I have the suburbs. I have Randolph Air Force 
Base in northeast San Antonio, and I go from San Antonio down 
to Laredo, my hometown.
    Mr. Olver. Laredo is your largest city?
    Mr. Cuellar. Yes.
    Mr. Olver. How large is Laredo?
    Mr. Cuellar. Probably right now it is about 225,000 or 
more.
    Mr. Olver. And growing?
    Mr. Cuellar. And growing.
    Mr. Olver. The theater you mentioned is in Laredo?
    Mr. Cuellar. In Laredo.
    Mr. Olver. And the park and ride, or what was the term you 
used for that?
    Mr. Cuellar. That is a park in Laredo.
    Mr. Olver. That is in Laredo.
    Mr. Cuellar. 14,500 is the population I represent in 
Northeast San Antonio, which is mainly the Randolph Air Force 
Base. The largest block of population is Laredo. Roma is down 
there in the southern part of the district.
    Mr. Olver. Roma is where you were asking for the assistance 
with a bus terminal?
    Mr. Cuellar. That is correct.
    Mr. Olver. That is in the Laredo area?
    Mr. Cuellar. No, it is not.
    Mr. Olver. Where is Roma then?
    Mr. Cuellar. Roma is about 90 miles south of Laredo.
    Mr. Olver. South of Laredo. Oh, I see. Toward McAllen. 
Somebody, knowing that I love maps, has provided me with maps. 
Sometimes I can't follow quickly enough.
    Tell me where the radar--you are asking for language in 
relation to that. I have not looked at it yet.
    Mr. Cuellar. The radar is between Webb County, my hometown, 
Jim Hogg, and Zapata. Basically, that area covers three 
counties. There is an investment of $2 billion to put a wind 
farm, but the problem has been----
    Mr. Olver. Is this a Pickens investment?
    Mr. Cuellar. No, it is not.
    Mr. Olver. This is the State of Texas?
    Mr. Cuellar. No, it is not. It is actually some folks from 
the Corpus Christi area. It has nothing to do with wind farms 
on the coast. This has to do with three counties that are in my 
district. We have been working at it for a while. They are 
talking about putting $2 billion. That is a huge investment 
that would really transform those small counties--Zapata, Jim 
Hogg and part of Webb County. It covers those three areas.
    Basically, they have had a radar there for years. And like 
I said, we got some money from Homeland, $10 million, and now 
FAA is saying, Oh, it probably is more than $10 million.
    It is almost one of those things where they are coming up 
with excuse after excuse. First, it was the money. Here is the 
money. Now they are saying, Oh, we have to look at it, because 
we don't want a mistake with something that has a propeller. 
And I said, Well, propellers are the ones that kind of move on 
airplanes, and a windmill is one that stands stationary. So I 
think we can work that out.
    But, nevertheless, they are saying they have a problem. 
They keep saying they are going to work it out. But here we 
are.
    It is a poor area, an extremely poor area of the country, 
and we are trying to work with the FAA. I can understand border 
security, because I am on Homeland and am from the Laredo 
border area. But at the same time I am sure we can relocate 
radars in such a way that it won't affect us or the windmills 
in such a way that they won't affect a balance between an 
investment and border security.
    Mr. Olver. This must be a wind farm that is somewhere 
between 500 and 1,000 wind turbines?
    Mr. Cuellar. Right. Forty have been authorized already, but 
the main part of it hasn't been authorized.
    Texas, as you know, is the number one State in wind farms, 
mainly in West Texas. But now we have a wind corridor in my 
district and we are talking about investing, like I said, $2 
billion. But we have had this trouble with the FAA.
    I wish we could sit down. I have sat with them in Homeland 
so many times. Now they are saying, We are waiting for the new 
administrator. It is impeding our $2 billion, and for South 
Texas and the border area, $2 billion is a lot of money. I 
guess that would be anywhere else.
    Mr. Olver. In my district we have had 2 years of delays on 
one turbine, maybe two, somewhere within 5 miles of a very 
small-capacity airport. So the FAA does have problems.
    Mr. Latham.
    Mr. Latham. I would just ask whether you want to move it, 
or is it to get a different type of radar?
    I had a similar problem in my district. They were building 
a natural-gas-powered electrical generation plant and the 
chimneys were going to affect the radar. Basically, we just had 
to go to a modified Doppler system and that took care of the 
problem.
    Is it movement or is it the type of radar?
    Mr. Cuellar. We are open, because the same experts that FAA 
uses are the same experts that the folks are using from the 
Corpus Christi area. They are saying, Look, we can move them, 
we can adjust the height, we can do whatever you want us to do. 
Just work with us on that.
    They did authorize 40 of them. But this is a much bigger 
project than just 40. It is huge. And it is either adjustment 
of the radar--and by the way, without getting into too much 
detail, the lease has expired; and now that the lease has 
expired, FAA says we are going to condemn or use eminent 
domain. It is like they are using every way they can. And we 
are saying, Look, we are using the same experts that FAA uses; 
we will work with you in any way you want to, either move them 
up and down, move the radar.
    If they talked about moving the radar, Homeland came up 
with $10 million. Now FAA says, Oh, that is not enough. Every 
time we come up with something, they come up with a reason.
    It is an issue that I can understand. I can understand. But 
it is something that--I always say there is always a solution; 
there is always a way to try to figure it out. But trying to 
get some of our bureaucratic friends up here, it can be 
difficult.
    Mr. Latham. What does the report language say? What do you 
want them to do?
    Mr. Cuellar. Basically we wanted them to sit down and come 
up with a solution. It is kind of like put them in a locked 
room, close the door and get them to come up with a solution. 
Their own experts and our own experts, my constituents are 
saying, it can be done, but FAA just keeps saying no, no, no.
    Mr. Latham. Thank you very much.
    Mr. Olver. Mr. Pastor.
    Mr. Pastor. No questions.
    Mr. Olver. Well, thank you very much then for your 
testimony and for being with us today.
    Mr. Cuellar. I appreciate it.
    I know there are not too many members here, but I certainly 
am one of those that I feel is giving us an opportunity. I sat 
10 years in the house appropriations in Texas, and we always 
gave this opportunity. Just giving Members an opportunity to 
sit down means a lot. I wish more Members would take advantage. 
It means a lot to me.
    Mr. Olver. You were the fourth. The others had just left as 
you came in, had gone as they finished their testimony.
    Mr. Cuellar. Thank you very much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olver. Thank you. Have a good day.
    The hearing is closed.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    














                           W I T N E S S E S

                              ----------                              
                                                                   Page
Anthes, R. A.....................................................   269
Bernstine, Nancy.................................................   245
Boozman, Hon. John...............................................   163
Bordallo, Hon. M. Z..............................................   191
Capon, R. B......................................................   278
Cook, Kristina...................................................   204
Crunican, Grace..................................................   103
Cuellar, Hon. Henry..............................................   163
Donovan, Hon. Shaun.............................................. 1, 39
Friend, P. A.....................................................   229
Hannig, Gary.....................................................   208
Howard, Bryan....................................................   215
LaHood, Hon. Ray.................................................    39
Leary, M. A......................................................   103
Lofye, Andrea....................................................   226
Markey, Hon. Betsy...............................................   163
McNickle, Larry..................................................   282
Millar, W. M.....................................................   259
Monks, Janice....................................................   282
Mumford, Dr. G. K................................................   254
Narvaiz, Susan...................................................   249
Norquist, J. O...................................................   103
Olson, Hon. Pete.................................................   193
Puentes, Robert..................................................   103
Tsoodle, Chuck...................................................   217
Tulipane, Barbara................................................   252
Watson, Hon. D. E................................................   163
Wilson, Hon. Joe.................................................   195










                               I N D E X

                              ----------                              

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

                                                                   Page
    API Community................................................    24
    Auction Prices...............................................    29
    CDBG.........................................................    16
    Choice Neighborhood Initiative 

American Public Transportation Association                   259
American Society of Civil Engineers                      199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
Attendant_CWA, AFL�09CIO                 229            
Air Line Pilots Association, International                   273
American Association of Service Coordinators                 282
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP><INF>Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP>                   254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 

    Differences with CBO.........................................    14
    Foreclosures.................................................    37
    Freddie and Fannie...........................................    38
    HHS/HUD Partnership..........................................    23
    HOPE VI 

<SUP>American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP>ssociation                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP>         282
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
Attendant_CWA, AFL�09CIO                 229            
Air Line Pilots Association, International                   273
American Association of Service Coordinators                 282
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP><INF>Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP>ssociation                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 

    HOPWA........................................................    36
    HUD's Rural Role.............................................    33
    Hurricanes...................................................    22
    Inspector General............................................    11
    Livability Grants............................................    32
    Livable Communities 

<SUP><INF>Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP>American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP>         282
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
Attendant_CWA, AFL�09CIO                 229            
Air Line Pilots Association, International                   273
American Association of Service Coordinators                 282
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP><INF>Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP>             259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 

    Local Match..................................................    21
    Making Home Affordable Plan..................................    28
    Methodology..................................................    14
    Neighborhood Stabilization Program...........................    19
    NOFAs........................................................    13
    Opening Remarks, Chairman John W. Olver......................     1
    Opening Remarks, Ranking Member Tom Latham...................     2
    Opening Statement, Hon. Shaun Donovan, Secretary of HUD......     3
    Overruns.....................................................    18
    Priorities...................................................    34
    Resources/Needs..............................................    18
    Schools......................................................    21
    Section 8 Housing 

<SUP>   254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
                   254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
         282
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
Attendant_CWA, AFL�09CIO                 229            
Air Line Pilots Association, International                   273
American Association of Service Coordinators                 282
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
   254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP><INF>Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP>         282
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
Attendant_CWA, AFL�09CIO                 229            
Air Line Pilots Association, International                   273
American Association of Service Coordinators                 282
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP>American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP>         282
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
Attendant_CWA, AFL�09CIO                 229            
Air Line Pilots Association, International                   273
American Association of Service Coordinators                 282
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP><INF>Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP>             259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 

    Sustainable Communities 

<SUP>   254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP>American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP>         282
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
Attendant_CWA, AFL�09CIO                 229            
Air Line Pilots Association, International                   273
American Association of Service Coordinators                 282
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
   254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP><INF>Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 

    Taxes........................................................    15
    USDA.........................................................    33
    Working Capital Fund.........................................    34
    Written Statement, Hon. Shaun Donovan, Secretary of HUD......     6

 LIVABLE COMMUNITIES, TRANSIT-ORIENTED DEVELOPMENT, AND INCORPORATING 
GREEN BUILDING PRACTICES INTO FEDERAL HOUSING AND TRANSPORTATION POLICY

    Affordable Housing...........................................    82
    Better Coordination of Transportation and Housing Programs...    51
    Develop New Transit Options..................................    82
    DOT/HUD Task Force...........................................    42
    Eligibility for Transit Funding..............................    85
    Federal Funding Allocations..................................    83
    Funding for Sustainable Communities Initiative...............    73
    Gas Tax......................................................    72
    High Speed Rail..............................................    77
    Highway Trust Fund...........................................    76
    Hope VI......................................................    84
    Livable Communities 

<SUP>ssociation                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP>American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP>         282
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
Attendant_CWA, AFL�09CIO                 229            
Air Line Pilots Association, International                   273
American Association of Service Coordinators                 282
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP><INF>an Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP>American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 

    Livable Communities in Rural Areas...........................    75
    Opening Remarks, Chairman John W. Olver......................    39
    Opening Remarks, Hon. Ray LaHood, Secretary of Transportation    41
    Opening Remarks, Hon. Shaun Donovan, Secretary of HUD........    62
    Opening Remarks, Ranking Member Tom Latham...................    40
    Planning.....................................................    78
    President's Budget Request...................................    80
    Questions for the Record, Rep. Lucille Roybal-Allard.........    89
    Recovery Act Funding.........................................    85
    Regional Planning Agencies...................................    71
    Regulations..................................................    75
    Rural Areas..................................................    74
    Surplus Federal Property.....................................    84
    Sustainable Communities Initiative 

<INF>0259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP><INF>Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP>         282
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
Attendant_CWA, AFL�09CIO                 229            
Air Line Pilots Association, International                   273
American Association of Service Coordinators                 282
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP><INF>an Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP>   254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
         282
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
Attendant_CWA, AFL�09CIO                 229            
Air Line Pilots Association, International                   273
American Association of Service Coordinators                 282
American Psychological Association                           254
American Public Transportation Association                   259
American Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP><INF>an Society of Civil Engineers                          199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 
<SUP>                       199
Capital Metropolitan Transportation Authority, Austin, Texas 226
City of San Marcos, Texas                                    249
Coalition of Northeastern Governors                          265
Illinois Department of Transportation                        208
National Affordable Housing Management Association           204
National AIDS Housing Coalition                              245
National Association of Railroad Passengers                  278
National Recreation and Park Association                     252
Oklahoma Tribal Transportation Council, Inc.                 217
Town of Lexington, South Carolina                            222
University Corporation for Atmospheric Research              269
U.S. Green Building Council                                  215
                                                                                                                                  

�08
                                                                 

    Televideo Meeting of DOT/HUD Issues..........................    85
    Transit-Oriented Development.................................    62
    Urban Sprawl.................................................    81
    Western States...............................................    80
    Written Statement, Hon. Ray LaHood, Secretary of 
      Transportation.............................................    44
    Written Statement, Hon. Shaun Donovan, Secretary of HUD......    65

    PART II: LIVABLE COMMUNITIES, TRANSIT-ORIENTED DEVELOPMENT, AND 
    INCORPORATING GREEN BUILDING PRACTICES INTO FEDERAL HOUSING AND 
                         TRANSPORTATION POLICY

    Broadband....................................................   150
    Carbon Footprint and Energy Usage............................   145
    Center for Neighborhood Technology...........................   155
    Congestion...................................................   157
    Economic Functions...........................................   147
    Opening Remarks, Chairman John W. Olver......................   103
    Opening Remarks, Grace Crunican, Director, DOT, City of 
      Seattle....................................................   135
    Opening Remarks, John O. Norquist, President and Chief 
      Executive, Congress for the New Urbanism...................   127
    Opening Remarks, Mary A. Leary, Senior Director, Easter Seals 
      Transportation Group.......................................   116
    Opening Remarks, Ranking Member Tom Latham...................   104
    Opening Remarks, Robert Puentes, Senior Fellow, Metropolitan 
      Policy Program.............................................   105
    Repopulation of Rural Areas..................................   152
    Rural Communities............................................   148
    United We Ride...............................................   149
    Written Statement, Grace Crunican, Director, DOT, City of 
      Seattle....................................................   139
    Written Statement, John O. Norquist, President and Chief 
      Executive, Congress for the New Urbanism...................   131
    Written Statement, Mary A. Leary, Senior Director, Easter 
      Seals Transportation Group.................................   118
    Written Statement, Robert Puentes, Senior Fellow, 
      Metropolitan Policy Program................................   107

              MEMBER'S REQUEST TO THE SUBCOMMITTEE HEARING

    Opening Remarks, Chairman John W. Olver......................   163
    Opening Remarks, Ranking Member Tom Latham...................   163
    Opening Remarks, Representative Betsy Markey.................   170
    Opening Remarks, Representative Diane E. Watson..............   175
    Opening Remarks, Representative Henry Cuellar................   181
    Opening Remarks, Representative John Boozman.................   163
    Written Statement, Representative Betsy Markey...............   173
    Written Statement, Representative Diane E. Watson............   178
    Written Statement, Representative Henry Cuellar..............   186
    Written Statement, Representative Joe Wilson.................   195
    Written Statement, Representative John Boozman...............   167
    Written Statement, Representative Madeleine Z. Bordallo......   191
    Written Statement, Representative Pete Olson.................   193

                  OUTSIDE WITNESSES WRITTEN TESTIMONY

    Association of Flight Attendant--CWA, AFL-CIO................   229
    Air Line Pilots Association, International...................   273
    American Association of Service Coordinators.................   282
    American Psychological Association...........................   254
    American Public Transportation Association...................   259
    American Society of Civil Engineers..........................   199
    Capital Metropolitan Transportation Authority, Austin, Texas.   226
    City of San Marcos, Texas....................................   249
    Coalition of Northeastern Governors..........................   265
    Illinois Department of Transportation........................   208
    National Affordable Housing Management Association...........   204
    National AIDS Housing Coalition..............................   245
    National Association of Railroad Passengers..................   278
    National Recreation and Park Association.....................   252
    Oklahoma Tribal Transportation Council, Inc..................   217
    Town of Lexington, South Carolina............................   222
    University Corporation for Atmospheric Research..............   269
    U.S. Green Building Council..................................   215

                                  <all>

</pre></body></html>
